<html>
<title> - OVERSIGHT OF AVIATION SAFETY</title>
<body><pre>[Senate Hearing 110-1146]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1146
 
                      OVERSIGHT OF AVIATION SAFETY

=======================================================================


                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 OF THE

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 10, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
75-107                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director, and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

JOHN D. ROCKEFELLER IV, West         KAY BAILEY HUTCHISON, Texas, 
    Virginia, Chairman                   Ranking
JOHN F. KERRY, Massachusetts         JOHN McCAIN, Arizona
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 10, 2008...................................     1
Statement of Senator Hutchison...................................    53
    Prepared statement...........................................    54
Statement of Senator Inouye......................................    57
    Prepared statement...........................................    57
Statement of Senator Klobuchar...................................    68
Statement of Senator Lautenberg..................................    62
Statement of Senator McCaskill...................................    71
Statement of Senator Rockefeller.................................     1
    Prepared statement...........................................     1
Statement of Senator Snowe.......................................    65
Statement of Senator Stevens.....................................    55
    Prepared statement...........................................    56

                               Witnesses

Barimo, Basil J., Vice President, Operations and Safety, Air 
  Transport Association of America, Inc..........................    43
    Prepared statement...........................................    45
Brantley, Tom, President, Professional Aviation Safety 
  Specialists, AFL-CIO...........................................    34
    Prepared statement...........................................    35
Chealander, Hon. Steven R., Member, National Transportation 
  Safety Board...................................................    26
    Prepared statement...........................................    27
Sabatini, Nicholas A., Associate Administrator for Aviation 
  Safety, FAA; accompanied by Hank Krakowski, COO, Air Traffic 
  Organization, FAA..............................................     2
    Prepared statement...........................................     5
Scovel III, Hon. Calvin L., Inspector General, U.S. Department of 
  Transportation.................................................     9
    Prepared statement...........................................    11

                                Appendix

Casanovas, Karen E., Executive Director, Alaska Air Carriers 
  Association, prepared statement................................    85
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    Hank Krakowski...............................................    88
    Nicholas A. Sabatini.........................................    87



                      OVERSIGHT OF AVIATION SAFETY

                              ----------                              


                        THURSDAY, APRIL 10, 2008

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:19 a.m., in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Subcommittee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. I apologize to everybody.
    The four of us will forego our opening statements, and I 
hope the others will too. I plan to make mine at some point. 
But we are faced with an 11 o'clock vote, and it strikes me 
that there is a very strong connection between hearing each of 
the witnesses make their statements and then, in return, 
ensuring that all members will have 7 minutes to question 
rather than 5 minutes to question. And that is about as fair as 
I can get for the moment.
    So we will start out. We have Mr. Nicholas Sabatini, 
Associate Administrator of Aviation Safety at FAA, and I have 
some nice questions for you. Mr. Hank Krakowski, Chief 
Operating Officer, Air Traffic Organization, ATO; the Honorable 
Calvin Scovel, Department of Transportation Inspector General, 
in other words, the IG; the Honorable Steven Chealander. Did I 
say that right----
    Mr. Chealander. Yes, sir.
    Senator Rockefeller --of the National Transportation Safety 
Board, a position which used to be held by this lady here 
Senator Hutchison. And Mr. Tom Brantley, President, 
Professional Aviation Safety Specialists; and Mr. Basil Barimo, 
Vice President of Operations and Safety, Air Transport 
Association.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    The Federal Aviation Administration's lax oversight of Southwest 
Airlines has cast a serious pall over the agency's ability to execute 
its core mission--the safety of the Nation's aviation systems.
    It is our job today to ask, is this just an isolated incident as 
some at the FAA and Southwest contend, or is this part of a larger, 
systemic problem facing both the agency and the industry?
    When it comes to the safety of the air traveling public, the 
American people have put their trust in the men and women of the 
Federal Aviation Administration and the mechanics of the commercial 
airlines. They, like many of us in Congress, look to them to make sure 
that the planes that take the skies are safe.
    But in recent weeks, that that trust has been put to the test--
first, with the disturbing reports surrounding the lack of FAA 
oversight over Southwest, and the revelations involving the FAA's 
Southwest Region office.
    Almost nightly, there are news stories of major commercial airlines 
grounding hundreds of flights for maintenance inspections which result 
in tens of thousands of frustrated and stranded passengers.
    Bottom line--each passing day brings more questions, and not enough 
answers. Despite the growing questions surrounding the FAA's oversight 
of the airline industry, the White House and Department of 
Transportation remain inexplicably silent. When the Administration 
should be assembling a task force to investigate this issue and make 
recommendations for improving aviation safety, the Administration seems 
content to disregard the concerns of the traveling public.
    The FAA has taken some steps to rebuild the public's confidence in 
the agency's core mission of maintaining the safety of the Nation's 
aviation system. And moving forward, the FAA needs to take a good long 
look at itself to begin to understand how internal failures, and the 
agency's external relationships with commercial air carriers, 
contributed to current situation.
    Many, including myself, have long-criticized the agency for being 
too close to the industry it regulates. In 1996, to stave off efforts 
to privatize the agency, Congress grudgingly accepted provisions that 
would allow the FAA to operate more like a business--in the hopes that 
it would cost less to operate.
    Well, the FAA is not a business. It's a government agency. The FAA 
does not provide commercial services. It provides public goods--air 
traffic control, aircraft certification, and safety oversight. We pay 
taxes for these services.
    Clearly, it's time to start thinking about the FAA differently. 
Toward that end, we need the FAA to operate as the most efficient and 
effective government agency it can be. It's a subtle distinction, but 
one that I think is incredibly, deeply important. Bringing about 
institutional change is never easy, but I think that this Committee and 
the aviation community must make it a priority.
    The air traveling public wants solutions--and they want to be 
reassured that our Nation's aviation system is still the safest in the 
world.
    No doubt, many of our witnesses will remind the Committee that 
there has not been a fatal airline accident in almost 2 years, and that 
statistically this is the safest time to fly. I don't disagree--but I 
still have serious concerns that there are an increasing number of 
safety challenges facing the FAA and the industry that, left 
unaddressed, could lead to a catastrophic accident.
    For instance, the number of serious runway incursions remains 
unacceptably high and is trending in a troubling direction. We have all 
read and seen stories of near misses at our Nation's airports. Let's be 
honest, had it not been for the quick-thinking and actions of a few air 
traffic controllers and pilots, our Nation would have had one, if not 
several, major accidents claiming the lives of hundreds of people.
    I don't mean to be dramatic, but I'm afraid that our aviation 
system is operating on borrowed time.
    Airlines take the right action 99 percent of the time when it comes 
to safety. But, that's not good enough. As we all know too well, the 
margins of error in aviation are far too small. It is the 1-percent 
that can result in tragedy. Our incredible safety record is fragile 
enough at the moment that we need to be working together to make sure 
we maintain and strengthen the world's finest aviation system.

    And Mr. Sabatini, we will start off with you.
    Is that all right with the members?
    Senator Inouye. Fine.
    Senator Rockefeller. I want the panel to be able to be 
finished by the time we have to go vote. Then we can come back 
and we will have a select number of statements.
    Please proceed.

          STATEMENT OF NICHOLAS A. SABATINI, ASSOCIATE

  ADMINISTRATOR FOR AVIATION SAFETY, FAA; ACCOMPANIED BY HANK 
         KRAKOWSKI, COO, AIR TRAFFIC ORGANIZATION, FAA

    Mr. Sabatini. Good morning, Chairman Rockefeller, Chairman 
Inouye, Senator Hutchison, and Senator Stevens. I appreciate 
the opportunity to appear before you today to discuss some of 
the FAA's many important safety initiatives and how they 
contribute to extending the safest period in aviation history. 
With me today is Hank Krakowski, the Chief Operating Officer of 
the Air Traffic Organization at the FAA.
    Let me first begin by describing how we have achieved this 
unprecedented record of safety.
    We did not get here by accident. We did not get here by 
happenstance. We did not get here by good luck, and it is not a 
miracle. We got here because of the hard work and dedication of 
thousands of aviation safety professionals in the industry and 
in the government, including many of the people in this room.
    But while the FAA takes great pride in the fact that on-
board fatalities have dropped to a rate of about 1 fatal 
accident in every 15 million passenger flights, neither Hank 
nor I nor the other committed aviation safety professionals we 
deal with are satisfied with these numbers.
    I recently ordered a special emphasis surveillance, 
essentially an audit of the safety programs, the first phase of 
which was just completed. We found we had achieved 99 percent 
safety compliance, but it is the other 1 percent that keeps me 
up at night and it is that 1 percent we are trying to achieve.
    Last week, Acting Administrator Sturgell and I announced a 
five-point plan that addresses the issues of responsibility, 
accountability, communication, and ethics among our workforce 
to ensure that our oversight issues with Southwest Airlines are 
not repeated. These initiatives will help ensure that our rules 
are being followed and reemphasize to our workforce the 
importance of consistency and adherence to national policy.
    While the FAA has hundreds of safety initiatives ongoing at 
any given moment, I would like to highlight two areas that I 
know are of interest to this subcommittee: our oversight of 
aircraft maintenance and our efforts to reduce runway 
incursions.
    As we have previously discussed with this committee, the 
FAA has changed the way we oversee aircraft maintenance, moving 
to the Air Transportation Oversight System, or ATOS, model, 
which goes beyond simply ensuring regulatory compliance. This 
oversight approach leverages FAA inspector workforce experience 
and knowledge by focusing their oversight on areas that will 
maximize the safety benefits. Our inspectors develop safety 
surveillance plans for each air carrier based on data analysis 
and adjust plans periodically based on identified risk and 
their own random observations.
    I am happy to report we recently completed moving all Part 
121 air carriers to this oversight system.
    I am also very aware of your concern with U.S. carriers 
having more of their maintenance performed by repair stations 
both foreign and domestic. For clarification, when an air 
carrier uses a contract maintenance provider like a repair 
station or an engine manufacturer to provide all or part of its 
aircraft maintenance, that entity becomes an extension of the 
air carrier's own maintenance organization. The air carrier 
must define the scope and limitations of the outsourced work, 
ensure that the personnel are competent and have the necessary 
facilities and equipment to properly execute that work, and 
supervise or direct the work to ensure that the work is 
accomplished and meets all requirements of the air carrier's 
maintenance program.
    Additionally, the FAA has established a new training course 
for its field maintenance inspectors and supervisors. This 
course will give our entire maintenance inspector workforce the 
knowledge and skills necessary to properly conduct surveillance 
on contract maintenance providers. This 4-day course instructs 
inspectors on how to access the data collected from the 
airlines and contract maintenance providers and then use that 
data to properly assess the risk or potential risk of each 
contract maintenance provider used by the air carrier.
    I would like to turn our discussion now to FAA's efforts to 
reduce the number and severity of runway incursions which Mr. 
Krakowski can address in further detail.
    Runway safety starts with preventing runway incursions, 
whether these mistakes are made by pilots, which is about 60 
percent of the time; by controllers, about 30 percent of the 
time; or by pedestrians or ground vehicle operators, about 10 
percent of the time. The FAA has an aggressive runway safety 
program that has reduced the number of serious runway 
incursions by 55 percent since 2001. We investigate every 
reported runway incursion as fully as possible and use the data 
mined from these investigations to help us find the right 
solutions.
    The FAA has been working with aviation leaders to research 
and implement these solutions. On August 15, 2007, more than 40 
representatives from a cross section of the aviation industry 
answered the Acting Administrator's call to action and agreed 
to an ambitious plan focused on improving cockpit procedures, 
airport signage and markings, air traffic procedures, and 
technology.
    The result is that our Nation's busiest airports are now 
being equipped with runway surveillance technology that 
improves controller situational awareness on the airport 
movement area. For example, Runway Status Lights, which were 
developed as a result of the NTSB Most Wanted List of safety 
improvements, are a fully automated system that integrates 
airport lighting equipment with surveillance systems to provide 
a visual signal to pilots and vehicle operators when it is 
unsafe to enter, cross, or begin takeoff roll on a runway. This 
system is already preventing potential accidents.
    Just a couple of weeks ago at Dallas-Ft. Worth, a plane was 
cleared for takeoff, while at the same time air traffic control 
cleared another aircraft to cross that same runway on a 
taxiway. The first plane did not initiate its takeoff roll 
because the pilot saw the red lights of the runway status light 
system.
    In addition to testing other runway safety systems at Long 
Beach Airport and Spokane, Washington, we are also implementing 
quick and relatively inexpensive solutions such as improving 
airfield markings, adding targeted training for controllers and 
air crews, and fine tuning air traffic procedures.
    The FAA is also seeking input from NATCA on revamping 
policies for issuing taxi clearances and working with the union 
to implement a voluntary reporting system for air traffic 
controllers similar to the Aviation Safety Action Program, 
ASAP, with airlines, pilots, airport operators, and the FAA.
    The bottom line is that we committed to designing an end-
to-end system that seeks to eliminate runway incursions while 
accommodating human error. We all have a role in the solution. 
Every reported runway incursion will be taken seriously, 
investigated thoroughly, and analyzed to determine the causal 
factors in order to apply any knowledge gleaned toward finding 
the right solutions. The FAA continues to seek ways to improve 
awareness, training, and technologies, and we look forward to 
working together with airlines, airports, air traffic control, 
pilot unions, and aerospace manufacturers to curb runway 
incursions.
    Mr. Chairman, the FAA's commitment to improving safety and 
extending the excellent safety record we are currently 
experiencing is our number one priority. I hope that some of 
what I have shared with you today exemplifies that commitment.
    This concludes my remarks, Mr. Chairman.
    [The prepared statement of Mr. Sabatini follows:]

Prepared Statement of Nicholas A. Sabatini, Associate Administrator for 
 Aviation Safety, FAA; Accompanied by Hank Krakowski, COO, Air Traffic 
                           Organization, FAA
    Chairman Rockefeller, Senator Hutchison, Members of the 
Subcommittee:

    I am pleased to appear before you today to discuss some of the 
Federal Aviation Administration's (FAA) many important safety 
initiatives and how they contribute to extending this unprecedented 
aviation safety record. Some people may dismiss claims like ``this is 
the safest period ever'' because they have heard this claim in the 
past. For at least the past 70 years, aviation safety has improved by a 
third or more every decade. In fact the pace of improvement has 
accelerated recently and we believe the pace of improvement will 
continue to accelerate for the next decade or more.
    This context is important. Over the past 5 years, onboard 
fatalities have occurred at a rate of about 1 fatal accident in every 
15 million passenger flights. We see no reason why that figure cannot 
become one in 30 million or even one in 40 million flights within 10 or 
15 years. The system's performance now is so strong that we decided 
several years ago to develop a new measure to express the risk of 
fatality in commercial aviation. In addition to traditional data on 
fatal accidents per 100,000 flight hours or 100,000 departures, the FAA 
now uses fatalities per 100 million persons flown as a basic measure of 
the system's performance. This includes all fatalities, whether they 
occur onboard a passenger or cargo flight, or whether they occur off 
the aircraft on the airport surface or elsewhere.
    To offer a sense of scale, immediately after World War II, that 
measure yielded nearly 1,500 fatalities per 100 million persons flown. 
By the early 1960s, the measure had improved to about 500 fatalities 
per 100 million persons flown. By the mid-1990s, that measure had 
fallen to about 45 fatalities per 100 million persons flown. Now, in a 
typical year, we experience rates of 5 to 8 fatalities per 100 million 
persons flown and we fully expect to reach long-term rates of 4 or 
fewer fatalities per 100 million persons flown within the next decade. 
By comparing that level of safety to where we were just 20 years ago, 
or even a decade ago, we begin to get some sense of scale on how safe 
the system has become--and it will only continue to get better over the 
long term.
    Yet, although we take great pride in the results of the efforts of 
aviation safety professionals in both government and industry, we 
remain ever mindful of the need to continue to push ourselves to find 
ways to improve a system that, by any standard, is performing 
remarkably well.
    I would briefly like to put into context an incident involving 
Southwest Airlines that has received a great deal of attention 
recently. In March of last year, the FAA Principal Maintenance 
Inspector (PMI) charged with overseeing Southwest Airlines 
inappropriately, and in violation of existing FAA policy and regulatory 
requirements, accepted a voluntary disclosure under the Voluntary 
Disclosure Reporting Program (VDRP). The disclosure was the fact that 
46 Southwest Airlines aircraft had continued flight operations past the 
due date for a required inspection of the aircraft airframe for cracks. 
These aircraft had overflown an Airworthiness Directive (AD) requiring 
the inspection.
    Despite this determination, and, again, in violation of existing 
FAA policy and regulatory requirements, the airline, even after 
reporting this safety violation under VDRP, did not ground these 
aircraft immediately, but instead continued to operate the aircraft. 
Subsequently, the airline conducted the required inspections and six 
aircraft were discovered to have cracks, five of which were ultimately 
determined to have the type of crack the AD was designed to detect. A 
total of 1,451 commercial operations were conducted by Southwest 
Airlines in violation of the law, putting thousands of passengers at 
risk. That this was done with the implicit consent of the FAA PMI 
overseeing the carrier is beyond my comprehension.
    On March 6, 2008, the FAA issued a $10.2 million proposed civil 
penalty to Southwest Airlines for its decision to knowingly continue to 
operate noncompliant aircraft in commercial operations. The FAA is in 
the process of taking appropriate personnel actions with respect to FAA 
employees in response to the findings of the ongoing investigation of 
this matter.
    Last week, Acting Administrator Sturgell announced a five point 
plan that addresses the issues of responsibility, accountability, 
communication, and ethics. I believe these initiatives will help ensure 
that our rules are being followed and reemphasize to our workforce the 
importance of consistency and adherence to national policy.
    Also, on March 13, 2008, to ensure that what happened with 
Southwest Airlines was an isolated problem and not a systemic one, I 
ordered a Special Emphasis Surveillance, the first phase of which has 
just been completed. While a second, more comprehensive phase is 
ongoing, our initial findings validate that our systems safety approach 
of oversight is working as intended. We expect to complete the second 
phase by June 30th and will continue to analyze the incoming data to 
discover if and where other problems in the system exist and to 
immediately correct any problems identified.
    As the FAA addresses these issues of responsibility, 
accountability, communication, and ethics, we also have hundreds of 
safety initiatives ongoing at any given moment. As we continue to 
examine the broader issue of aviation safety in this hearing, I will 
focus my remarks on two areas that I know are of interest to this 
Subcommittee, our oversight of aircraft maintenance and our efforts to 
reduce runway incursions.
    When FAA last testified before this Subcommittee on safety 
oversight, we discussed how the agency has changed the way we oversee 
aircraft maintenance. We moved from a paradigm where FAA's inspectors 
were required to complete a prescribed number of oversight activities 
to one where we used the Air Transportation Oversight System (ATOS) 
model, which goes beyond simply ensuring regulatory compliance. The 
goal of the oversight model is to foster a higher level of air carrier 
safety using a systematic, risk-management-based process to identify 
safety trends and prevent accidents. ATOS has improved safety because 
it identifies and helps manage risks before they cause problems by 
ensuring that carriers have safety standards built into their operating 
systems.
    This oversight approach leverages FAA's inspector workforce 
experience and knowledge by reducing the likelihood of repeating 
inspections of the same aircraft or function, unless deficiencies were 
found in prior inspections of the aircraft or function. Our inspectors 
develop safety surveillance plans for each air carrier based on data 
analysis, and adjust plans periodically based on identified risks. For 
example, with the cost of fuel increasing daily so many of our legacy 
carriers are dealing with how to manage these unexpectedly large costs. 
In light of this reality, FAA inspectors can adapt their surveillance 
plan to increase their focus on areas that might be at risk due to 
rising fuel costs, such as flight planning, dispatch, and fuel loading. 
Additionally the system can be adjusted when emphasis areas need to be 
addressed such as our recent efforts to review Airworthiness 
Directives. I know that the Inspector General (IG) agrees with the FAA 
that it is a priority that our inspectors have the tools and 
information necessary to be flexible in our oversight of carriers as 
their financial and operational situation changes.
    I also know that the IG agrees with us that our new approach to 
oversight is a better way to make the best use of agency resources as 
well as to improve safety. We recently completed moving all air 
carriers to this oversight system. In 2005, we committed to a 
transition plan to move all remaining FAR Part 121 air carriers 
operating under ATOS by the end of calendar year 2007. This was no 
small undertaking. At the time we had only 16 air carriers that were 
under ATOS. I am happy to report we have met this goal and that all 
Part 121 carriers have made this most important transition. 
Additionally, we have improved upon the original system and 
successfully implemented those improvements. The initial reactions to 
the modifications and improvements we have made have been extremely 
positive. However, our work is not done. We must now be vigilant in 
using the system to manage identified risks, and take appropriate 
actions.
    This change in oversight recognizes that FAA cannot be expected to 
provide quality control for every airline or effectively police 
millions of flights. The safety laws that Congress passes and the 
regulations we implement all place the responsibility for safety on the 
airlines. The FAA has regulatory oversight responsibilities to ensure 
that air carriers comply with safety standards and requirements. The 
FAA's role is an important one, and we see the new approach under ATOS 
as providing more effective and efficient use of our resources. By 
focusing on risk we can determine how well the airline is managing its 
processes and whether or not the processes are performing as designed 
to meet the safety standards. Our inspection tools are designed to 
collect data for these purposes. Our oversight systems engage air 
carriers in the management of their safety issues.
    I am very aware of your concern with U.S. carriers having more of 
their maintenance performed by repair stations, both foreign and 
domestic. I want to clarify the roles and responsibilities of air 
carriers, repair stations, and the FAA. When an air carrier uses a 
contract maintenance provider (a certificated Part 145 repair station 
or a non-certificated provider) to provide all or part of its aircraft 
maintenance, that maintenance provider's organization becomes an 
extension of the air carrier's maintenance organization. The air 
carrier must define the scope and limitations of the outsourced work, 
provide the applicable sections of the carrier's maintenance manual, 
ensure that the personnel are competent and have the necessary 
facilities and equipment to properly execute that work, and supervise 
or direct the work to ensure that the work is accomplished and meets 
all requirements of the air carrier's maintenance program. We are 
reviewing how we could clarify how an air carrier can demonstrate that 
all of its maintenance has been properly performed, regardless of 
whether it is done by the carrier itself or by another entity. We may 
pursue rulemaking on this issue in the near future.
    Additionally, the FAA has established a new training course for its 
field maintenance inspectors and supervisors. This course will give our 
entire maintenance inspector workforce the knowledge and skills 
necessary to properly conduct surveillance on contract maintenance 
providers. This is a four-day course that instructs the inspectors how 
to access the data collected from the airlines and contract maintenance 
providers and then use that data to properly assess the risks or 
potential risks of each contract maintenance provider used by the air 
carrier.
    I am confident that the changes we have made in our oversight 
philosophy and the work we continue to do with input and assistance 
from the aviation community, Congress, and the international community 
has contributed to this historically safe period of commercial aviation 
safety. Our safety oversight must keep pace with the industry as it 
changes and I believe we are well positioned to accept that challenge.
    Turning to another of the FAA's top priorities, I would like to 
discuss FAA's efforts to reduce the number and severity of runway 
incursions. Runway safety starts with preventing runway incursions, 
whether these mistakes are made by pilots, controllers or ground 
vehicle operators.
    Recently, the National Transportation Safety Board (NTSB) and the 
Government Accountability Office (GAO) have issued recommendations on 
areas where the FAA could make improvements in runway safety. In 
November, the NTSB announced that improving runway safety will remain 
on the Board's ``Most Wanted'' list of improvements for 2008. FAA 
believes that the technologies we are now testing and deploying will be 
responsive to address the problem of runway incursions. Also, the GAO 
reported on how the FAA has taken steps to address runway and ramp 
safety. We appreciate the work that the GAO and NTSB have done, and we 
welcome their analysis and feedback. The FAA has actively and 
consistently invested in programs and technology development to address 
this serious aviation safety issue.
    An aggressive and effective FAA runway safety program has reduced 
the number of serious runway incursions by 55 percent since 2001. In 
Fiscal Year 2007, we saw a 25 percent reduction in serious runway 
incursions from 2006: there were 24 serious runway incursions (referred 
to as Category A and B incursions) during 61 million aircraft 
operations, a significant reduction from the 31 incursions in FY 2006 
(and the 53 incursions in FY 2001). But while we have made improvements 
with the most serious categories of the runway incursions, overall 
runway incursions increased in FY 2007 to 370, up from 330 in FY 2006. 
While most of these incursions are Category C and D incidents, which 
pose little or no risk to the public, the increase in incursions and 
the fact that serious incursions are still occurring, prompted the 
Acting Administrator to issue a ``Call to Action'' on runway safety 
last August.
    On October 1, 2007, the FAA adopted the definition of runway 
incursion as used by the International Civil Aviation Organization 
(ICAO), a United Nations organization charged with promoting safety and 
security in international aviation. This new definition, which FAA 
helped develop for ICAO, is much more inclusive and counts every single 
mistake made on the airport operational surface, even if another 
vehicle, pedestrian or aircraft is not involved. As a result, we will 
have more data to analyze trends and improve safety.
    The FAA investigates every reported runway incursion and assigns a 
reason for the incursion. The investigation includes a review of the 
airport information; radar data and voice tapes, if they are available; 
statements from individuals involved; and, in the case of serious 
incursions, we send teams to conduct on-site investigations at the 
facility. There are three broad categories to which we attributed 
runway incursions that happened since October 1, 2006. About 60 percent 
are as a result of pilot error. Operational errors and deviations by 
air traffic controllers represent about 30 percent of causes of runway 
incursions. The rest are attributed to pedestrian or vehicle errors.
    The FAA continues to work with aviation industry leaders to 
research and implement new technologies, and mine and interpret safety 
data with the focus on improving airport safety. I would like to 
highlight some of our recent efforts in this area. As noted earlier, on 
August 15, 2007, more than 40 representatives from a cross-section of 
the aviation industry agreed to an ambitious plan focused on solutions 
in improving cockpit procedures, airport signage and markings, air 
traffic procedures, and technology. Within 60 days of this ``Call to 
Action'' on runway safety, Acting Administrator Sturgell announced that 
the aviation community had completed significant short-term actions and 
were making strides in the mid- and long-term goals.
    Our nation's busiest airports are now being equipped with runway 
surveillance technology that improves controller situational awareness 
on the airport movement area. The FAA has spent over $404 million to 
date to acquire and deploy the next generation of ground surveillance 
technology, known as Airport Surface Detection Equipment--Model X or 
ASDE-X for short. Twelve towers in the system have ASDE-X operational, 
and we have accelerated our installation schedule by 1 year--the target 
completion date for the last system is now September 2010. The FAA will 
commit more than $806 million over a 30-year period on equipment, 
installation, operations and maintenance of the 35 ASDE-X systems.
    Runway Status Lights, which were developed as a result of the 
NTSB's ``Most Wanted'' list of safety improvements, are a full-
automated system that integrates airport lighting equipment with 
surveillance systems to provide a visual signal to pilots and vehicle 
operators when it is unsafe to enter/cross/or begin takeoff roll on a 
runway. Airport surveillance sensor inputs are processed through light 
control logic that command in-pavement lights to illuminate red when 
there is traffic on or approaching the runway. The FAA has spent nearly 
$25.8 million on this initiative.
    The system is being tested at Dallas-Fort Worth and San Diego. We 
have selected Los Angeles International Airport as an additional test 
site and are working to select several other large airports for 
continued testing of this system in ``complex'' airport environments. 
The system is preventing potential accidents today. Just a couple of 
weeks ago, at Dallas-Ft. Worth, a plane was cleared for take-off, while 
at the same time air traffic control cleared another aircraft to cross 
that same runway on a taxiway. The first plane did not initiate its 
takeoff roll, because the pilot, ``saw the red lights'' of the Runway 
Status Light System.
    We are also testing a runway safety system at the Long Beach 
Airport, known as the Final Approach Runway Occupancy Signal (FAROS). 
This system is similar to Runway Status Lights in that it provides 
immediate information to pilots on approach to land that the runway is 
occupied or otherwise unsafe for landing. The FAROS system determines 
the occupancy of the runway by detecting aircraft or vehicles on the 
runway surface. If a monitored area on the runway is occupied, FAROS 
activates a signal to alert the pilot that it is potentially unsafe to 
land. We are developing a plan for implementing FAROS at larger 
airports, and expect to begin operational trials at Dallas-Fort Worth 
by the end of FY 2008.
    The FAA is testing two low-cost ground surveillance systems at 
Spokane, Washington, that would provide ground situational awareness to 
controllers at airports other than the 35 slated to get ASDE-X systems. 
To date, we have spent $4.5 million on this project and we are 
assessing if it is an alternative safety measure for less busy airports 
not scheduled to receive the ASDE-X system.
    Twenty of the busiest airports in America were identified for 
targeted Runway Safety Action Team visits based on a combination of a 
history of runway incursions, wrong runway events and wrong runway risk 
factors. The Runway Safety Action Team visits involved service analysis 
meetings with air traffic control, both management and controllers, 
safety inspectors from FAA and the airports, and airport managers and 
operators. These meetings identified over 100 short term fixes that 
could be accomplished within 60 days, including new or improved 
signage, improved marking, driver training, and other actions. This 
concerted effort is proving effective.
    Not all measures to improve runway safety will involve fielding 
expensive equipment and new systems. Quick and relatively inexpensive 
solutions include improving airfield markings, adding targeted training 
for controllers and aircrews, and fine-tuning air traffic procedures. 
Incorporating the lessons learned through the meetings with the initial 
20 airports, FAA has identified a second tier of 22 airports we will be 
expanding this program to cover next.
    Finally, the FAA is seeking input from the National Air Traffic 
Controllers Association (NATCA) on revamping policies for issuing taxi 
clearances. We also recently signed an agreement with NATCA to 
implement a voluntary reporting system for air traffic controllers 
similar to the Aviation Safety Action Program (ASAP) with airlines, 
pilots, airport operators and the FAA. This type of reporting system, 
which is in place throughout the industry, will help to create an 
atmosphere where controllers and managers can identify, report and 
correct safety issues. This will go a long way in helping us further 
improve our safety record.
    The FAA is committed to designing an end-to-end system that seeks 
to eliminate runway incursions while accommodating human error. We all 
have a role in the solution. Every reported runway incursion will be 
taken seriously, investigated thoroughly, and analyzed to determine the 
causal factors. The FAA continues to seek ways to improve awareness, 
training, and technologies and we look forward to our collaboration 
with airlines, airports, air traffic control and pilot unions, and 
aerospace manufacturers to curb runway incursions. We appreciate the 
Subcommittee's interest in safety, and welcome your counsel and 
assistance in our efforts to reduce runway incursions and improve 
safety in our Nation's aviation system.
    Mr. Chairman, the FAA's commitment to improving safety and 
extending the excellent safety record we are currently experiencing is 
our number one priority. I hope some of what I have shared with you 
today exemplifies that commitment. Of course, as I stated at the 
outset, FAA is involved in hundreds of important safety initiatives and 
what I have highlighted represents only a small fraction of what we are 
doing and what has contributed to today's impressive safety record.
    This concludes my remarks, and my colleague and I would be happy to 
answer any questions the Subcommittee may have.

    Senator Rockefeller. Thank you.
    Mr. Krakowski, Chief Operating Officer, Air Traffic 
Organization, ATO.
    Mr. Krakowski. My comments were incorporated in Mr. 
Sabatini's.
    Senator Rockefeller. So you are the lone person speaking?
    Mr. Scovel?

STATEMENT OF HON. CALVIN L. SCOVEL III, INSPECTOR GENERAL, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Scovel. Good morning, Chairman Rockefeller, Senator 
Hutchison, Chairman Inouye, Vice Chairman Stevens. We 
appreciate the opportunity to testify today on the key safety 
challenges facing FAA and its stakeholders.
    A number of high profile events, including fundamental 
breakdowns in FAA oversight at Southwest Airlines, have raised 
legitimate concerns about whether FAA's overall approach to 
safety oversight is effective and what changes are needed. We 
see three broad areas where actions need to be focused over the 
next several years.
    First, FAA's oversight of the aviation industry. Recent 
events at Southwest Airlines brought to light serious lapses in 
FAA's oversight of air carriers. For example, we found that 
FAA's Southwest inspection office developed an overly 
collaborative relationship with the air carrier and allowed 
repeated self-disclosures of Airworthiness Directive, or AD, 
violations without ensuring that the carrier had addressed the 
underlying problem. The balance tipped too heavily in favor of 
collaboration at the expense of oversight and appropriate 
enforcement.
    We also found that weaknesses in FAA's national oversight 
allowed the problems at Southwest to go undetected for several 
years. As early as 2003, an FAA inspector one of the 
whistleblowers in this case, expressed concerns about 
Southwest's compliance with ADs.
    In 2006, this whistleblower urged FAA to conduct system-
wide reviews, but FAA did not begin these reviews until after 
the details of the March 2007 disclosure became public. In 
fact, we found that FAA inspectors had not reviewed Southwest's 
system for compliance with ADs since 1999. At the time of the 
Southwest disclosure, 21 key inspections had not been completed 
in at least 5 years. As of March 25, 2008, FAA still had not 
completed five of these required inspections; in some cases, 
inspections had not been completed in nearly 8 years.
    We have identified problems with FAA's national program for 
risk-based oversight in the past. For example, in 2005, we 
found that inspectors did not complete 26 percent of planned 
inspections. Half of these were in identified risk areas. We 
recommended at that time and previously in 2002, that FAA 
needed to provide for greater national oversight; this is still 
needed today.
    Additionally, we found serious problems with FAA's 
processes for conducting internal reviews and ensuring 
appropriate corrective actions. FAA did not attempt to 
determine the root cause of the safety issue at Southwest or 
begin enforcement action against the carrier until November 
2007. Too much attention was focused on the messenger and not 
on solutions for legitimate safety concerns.
    This also raises questions about FAA's ability to 
investigate safety allegations raised by inspectors. Corrective 
actions are urgently needed to strengthen FAA's oversight and 
prevent similar problems from recurring. FAA took actions but 
only after events became public last month.
    In addition to steps underway, we recommend that FAA revise 
the Voluntary Disclosure Reporting Program to ensure that air 
carriers take corrective actions to address violations 
identified through self-disclosures; implement a process for 
second-level review of self-disclosures before accepting and 
closing them; periodically transfer supervisory inspectors to 
ensure reliable and objective air carrier oversight; require an 
appropriate post-employment cooling-off period for inspectors; 
implement a process to track field office inspections and alert 
local, regional, and Headquarters offices to overdue 
inspections; and establish an independent body to investigate 
inspector concerns.
    FAA has agreed to work with us to address our 
recommendations.
    The second area requiring action is runway safety. Aviation 
stakeholders have expressed growing concern regarding the rise 
in severe runway incidents. Recent close calls on the ground 
underscore the need for proactive actions to improve runway 
safety.
    New technology is considered the primary solution for 
improving safety in this area, but our work on the three major 
FAA acquisitions for improving runway safety has shown 
significant concerns as to what can be effectively deployed 
within the next several years.
    The uncertain timeline of FAA's runway safety technologies 
underscores the need to explore other near-term solutions to 
improve runway safety. These include implementing relatively 
low-cost, airport-specific changes such as improving runway 
signage and airport operations, reinvigorating FAA's national 
plan for runway safety, and addressing human factors issues 
such as fatigue and situational awareness.
    The final area I will discuss is attrition in two of FAA's 
critical workforces: air traffic controllers and aviation 
safety inspectors. The long-expected surge in controller 
retirements has begun. Since 2005, 3,300 controllers have left 
the Agency, which is 23 percent more than projected. FAA has 
accelerated its hiring efforts and hired 3,450 new controllers 
since 2005. However, this will remain a critical issue for FAA 
over the next 10 years since it must hire and train at least 
17,000 new controllers through 2017.
    FAA also faces challenges to its oversight mission due to 
attrition in the inspector workforce. Last year, FAA's hiring 
efforts kept pace with retirements, and the Agency ended the 
year with 133 additional inspectors over Fiscal Year 2006 
levels. However, FAA must closely oversee this effort since 
nearly half of the inspector workforce will be eligible to 
retire within the next 5 years.
    That concludes my statement, Mr. Chairman. I would be happy 
to address any questions you or members of the Subcommittee may 
have.
    [The prepared statement of Mr. Scovel follows:]

  Prepared Statement of Hon. Calvin L. Scovel III, Inspector General, 
                   U.S. Department of Transportation
    Mr. Chairman and Members of the Subcommittee:
    We appreciate the opportunity to testify today on the key safety 
challenges facing the Federal Aviation Administration (FAA) and its 
stakeholders. Aviation safety oversight is--and must remain--FAA's 
highest priority. For more than 10 years, our work has focused on 
actions needed to maintain the integrity and safety of our aviation 
system. Our statement today is based on our previous reports and 
investigations as well as our ongoing work.
    As this Committee is aware, safety is a shared responsibility among 
FAA, aircraft manufacturers, airlines, and airports. Together, all four 
form a series of overlapping controls to keep the system safe. The U.S. 
has achieved an impressive safety record over the past several years. 
This is a remarkable feat given all the changes that have occurred 
within the industry. For example, network carriers face considerable 
uncertainty with a softening economy, increasing fuel prices, and 
competition from low-cost carriers, who now possess one-third of the 
market in terms of available passenger seats.
    Network carriers have moved aggressively away from high cost 
structures by reducing in-house staff, re-negotiating labor agreements, 
and increasing the use of outside repair facilities. There also is 
considerable discussion regarding mergers and further consolidation 
within the industry.
    At the same time, demand for air travel has increased and aircraft 
load factors are nearly 80 percent--an all-time high. In 2007, U.S. 
airlines transported over 700 million passengers and this number is 
forecasted to grow to more than 1 billion by 2016.
    However, a number of high-profile events, including fundamental 
breakdowns in FAA oversight at Southwest Airlines (SWA), have raised 
legitimate concerns about the effectiveness of FAA' s overall approach 
to safety oversight and what changes are needed. These concerns have 
been amplified by the fact that airlines have grounded nearly 700 
aircraft since FAA began industry-wide assessments of compliance with 
safety directives. There is an urgent need to assess what went wrong, 
identify root causes, and proactively examine how to maintain and 
ultimately enhance the margin of safety.
    Mr. Chairman, it is against this backdrop that we would like to 
discuss the following three key safety challenges facing FAA and its 
stakeholders, as we see them:

  <bullet> Strengthening FAA's oversight of the aviation industry,

  <bullet> Improving runway safety, and

  <bullet> Addressing attrition within two of FAA's critical 
        workforces.

    Strengthening FAA's Oversight of the Aviation Industry. The recent 
events at SWA brought to light serious lapses in FAA's oversight of air 
carriers. As this Committee knows, FAA's handling of whistleblower 
concerns regarding SWA's failure to follow a critical FAA Airworthiness 
Directive (AD) has had a cascading effect throughout the industry. 
While the critical safety lapses indicated problems with the airline's 
compliance, they are symptomatic of much deeper problems in several key 
areas of FAA's oversight.

  <bullet> We found FAA's SWA inspection office developed an overly 
        collaborative relationship with the air carrier that allowed 
        repeated self-disclosures of AD violations through FAA's 
        partnership program. These programs are intended to facilitate 
        cooperation between FAA and air carriers to identify and 
        address safety issues. Yet, FAA allowed SWA to repeatedly self-
        disclose AD violations without ensuring that SWA had developed 
        a comprehensive solution for reported safety problems--which is 
        required for FAA to accept the disclosure and absolve the 
        carrier of any penalty.

  <bullet> We also found that the events at SWA demonstrate weaknesses 
        in FAA's national program for risk-based oversight--the Air 
        Transportation Oversight System (ATOS). This allowed AD 
        compliance issues in SWA's maintenance program to go undetected 
        for several years. As early as 2003, one of the whistleblowers 
        expressed concerns to FAA about SWA's compliance with ADs. In 
        2006, he began urging FAA to conduct system-wide reviews, but 
        FAA did not begin these reviews until after the details of the 
        March 2007 disclosure became public. In fact, FAA inspectors 
        had not reviewed SWA's system for compliance with ADs since 
        1999. At the time of SWA's disclosure, 21 key inspections had 
        not been completed in at least 5 years. As of March 25, 2008, 
        FAA still had not completed five of these required inspections, 
        in some cases inspections had not been completed in nearly 8 
        years.

    We previously identified system-wide problems with ATOS. In 
        2005,\1\ we found that inspectors did not complete 26 percent 
        of planned ATOS inspections--half of these were in identified 
        risk areas. We recommended, among other things, that FAA 
        strengthen its national oversight and accountability to ensure 
        consistent and timely ATOS inspections. However, FAA has still 
        not fully implemented our recommendations.
---------------------------------------------------------------------------
    \1\ OIG Report Number AV-2005-062, ``FAA Safety Oversight of an Air 
Carrier Industry in Transition,'' June 3, 2005. OIG reports and 
testimonies are available on our website: www.oig.dot.gov.

  <bullet> Our ongoing work at SWA and our 2007 audit at Northwest 
        Airlines (NWA) also have identified weaknesses in FAA's 
        processes for conducting internal reviews and ensuring 
        appropriate corrective actions. In the SWA case, FAA's internal 
        reviews found, as early as April 2007, that the principal 
        maintenance inspector (PMI) was complicit in allowing SWA to 
        continue flying aircraft in violation of the AD. Yet, FAA did 
        not attempt to determine the root cause of the safety issue, 
        nor initiate enforcement action against the carrier until 
---------------------------------------------------------------------------
        November 2007.

  <bullet> We also have concerns regarding FAA' s failure to protect 
        employees who report safety issues from retaliation by other 
        FAA employees. For example, in the SWA case, after one 
        whistleblower voiced his concerns to FAA, an anonymous hotline 
        complaint was lodged against him. According to the inspection 
        office manager, the PMI indicated that a SWA representative 
        submitted the complaint. The complaint was non-specific and 
        never substantiated, but the whistleblower was removed from his 
        oversight duties for 5 months while he was being investigated. 
        Yet, FAA did not suspend other inspectors who were subjects of 
        similar complaints, including the PMI, who admitted that he 
        allowed SWA to continue flying in violation of the AD.

    Our work at NWA found the same problem with FAA' s handling of the 
        inspector who reported safety concerns. As with the inspector 
        in the SWA case, FAA managers reassigned an experienced 
        inspector to office duties, after a complaint from the airline, 
        and restricted him from performing oversight on the carrier's 
        premises. At NWA, FAA's reviews of an inspector's safety 
        concerns were limited and overlooked key findings identified by 
        other inspectors. Although some of the inspector's safety 
        concerns were valid, FAA informed him that all of his concerns 
        lacked merit.

    Both the SWA and NWA cases demonstrate that FAA must pursue a more 
        reliable internal review process and protect employees who 
        bring important safety issues to light.

    Recently, FAA announced several actions to address the SWA safety 
directive violation. These include initiating a review of AD compliance 
at SWA and other air carriers. FAA also proposed to fine SWA more than 
$10 million. While FAA' s actions are necessary, albeit long overdue, 
the issues we have identified will require immediate and comprehensive 
changes in FAA's air carrier oversight. These actions include the 
following:

  --Ensuring that its Voluntary Disclosure Reporting Process requires 
        inspectors to (a) verify that air carriers take comprehensive 
        actions to correct the underlying causes of violations 
        identified through self-disclosure programs, and (b) evaluate, 
        before accepting a new report of a previously disclosed 
        violation, whether the carrier developed and implemented a 
        comprehensive solution.

  --Implementing a process for second level supervisory review of self-
        disclosures before they are accepted and closed--acceptance 
        should not rest solely with one inspector.

  --Periodically rotating supervisory inspectors to ensure reliable and 
        objective air carrier oversight.

  --Revising its post-employment guidance to require a ``cooling-off '' 
        period before an FAA inspector is hired at an air carrier he or 
        she previously inspected.

  --Implementing a process to track field office inspections and alert 
        the local, Regional, and Headquarters offices to overdue 
        inspections.

  --Establishing an independent organization to investigate safety 
        issues identified by its employees.

  --Developing a national review team that conducts periodic reviews of 
        FAA's oversight of air carriers.

    FAA committed to implement these recommendations. Follow through 
will be critical to demonstrate FAA's commitment to providing effective 
oversight.
    Our work also has shown that FAA needs to make similar improvements 
in its oversight of repair stations and its risk-based system for 
overseeing aircraft manufacturers' suppliers. A key issue in both cases 
is that FAA's oversight was inadequate in keeping up with dynamic 
changes occurring in those industries. We will continue to examine 
FAA's oversight approach of the aviation industry from a national 
perspective, and will keep the Committee apprised of our progress with 
this review, as well as other actions FAA should take to ensure safety.
    Improving Runway Safety. Aviation stakeholders are expressing 
growing concerns regarding the rise in severe runway incidents. Recent 
incidents such as close calls on the ground in Baltimore, Chicago, and 
San Francisco, underscore the need for proactive actions to improve 
runway safety. In fact, the last fatal commercial aircraft accident in 
the United States (in 2006) occurred because the pilots of Comair 
Flight 5191 attempted to take off from the wrong runway.
    A significant threat to runway safety is runway incursions (any 
incident involving an unauthorized aircraft, vehicle, or person on a 
runway). Reducing the risk of runway incursions has been on the 
National Transportation Safety Board's (NTSB) Most Wanted List of 
Safety Improvements since the list's inception in 1990. Because runway 
incursions can be caused by controllers, pilots, or ground vehicles, 
responsibility for their prevention falls on all users of the National 
Airspace System--FAA, airlines, and airport operators--and there are a 
mix of actions needed to address this critical safety issue.

  <bullet> New technology is considered by many to be the primary 
        solution for improving runway safety but is years away from 
        effective deployment. Our work on three major FAA acquisitions 
        for improving runway safety has shown that there are 
        significant concerns as to what can be effectively deployed 
        within the next several years. For example, a key technology 
        for preventing runway accidents--the Airport Surface Detection 
        Equipment-Model-X (ASDE-X)--may not meet its cost and schedule 
        goals to commission all 35 systems for $549.8 million by 2011.

    One of the most promising technologies on the horizon is the 
        Automatic Dependent Surveillance-Broadcast (ADS-B)--a 
        satellite-based technology that allows aircraft to broadcast 
        their position to other aircraft and ground systems. When 
        displayed in the cockpit, ADS-B information can provide a 
        ``second set of eyes'' by including the pilot in the loop to 
        detect and alleviate hazardous surface situations. However, as 
        we testified in October,\2\ ADS-B ground infrastructure will 
        not be in place until 2013, and users will not be required to 
        equip with the needed avionics until 2020.
---------------------------------------------------------------------------
    \2\ OIG Testimony Number CC-2007-100, ``Challenges Facing the 
Implementation of FAA's Automatic Dependent Surveillance-Broadcast 
Program,'' October 17, 2007.

  <bullet> The uncertain timeline of FAA's runway safety technologies 
        underscore the need to explore other near-term solutions to 
        improve runway safety. We found that there are several 
        relatively low-cost, simple, airport-specific changes that can 
        help reduce the risk of runway incursions. These include 
        airport infrastructure changes as well as procedural changes to 
---------------------------------------------------------------------------
        daily airport operations.

    In May 2007, we reported \3\ on runway safety efforts at four 
        airports that had experienced a surge in runway incursions in 
        2005 and 2006--Boston, Chicago, Philadelphia, and Los Angeles. 
        We found that airport operators at all four locations responded 
        to the rise in runway incursions by improving airport lighting, 
        adding better signage, and improving runway and taxiway 
        markings. This included upgrading surface-painted, hold-short 
        surface markings in advance of FAA's mandatory date of June 
        2008.
---------------------------------------------------------------------------
    \3\ OIG Report Number AV-2007-050, ``Progress Has Been Made in 
Reducing Runway Incursions, but Recent Incidents Underscore the Need 
for Further Proactive Efforts,'' May 24, 2007.

  <bullet> FAA also needs to take actions to reinvigorate its national 
        program for runway safety. This was a key focus in 2001 when 
        runway incursions reached an all-time high. However, we found 
        that many important national initiatives for promoting runway 
        safety (undertaken by FAA as early as 2000) had waned as the 
        number of incidents declined and FAA met its overall goals for 
---------------------------------------------------------------------------
        reducing runway incursions.

  <bullet> Finally, addressing human factors issues, such as fatigue 
        and situational awareness, is important to improving runway 
        safety. Training new controllers on human factor issues as well 
        as technical aspects of air traffic control (such as airspace, 
        phraseology, and procedures) will become increasingly important 
        as FAA begins to address the vast influx of new controllers, as 
        large numbers of veteran controllers retire.

    Addressing Attrition Within Two of FAA's Critical Workforces. A key 
issue that will affect FAA for at least the next 10 years is addressing 
attrition in two of its critical safety workforces--air traffic 
controllers and aviation safety inspectors. Since 2005, 3,300 
controllers have left the Agency-23 percent more than projected. FAA 
has accelerated its hiring efforts and has hired 3,450 new controllers 
since 2005-25 percent more than projected. Still, FAA faces a major 
challenge as it must hire and train at least 17,000 new controllers 
through 2017.

  <bullet> As a result of the high level of controller attrition, FAA 
        is facing a fundamental transformation in the composition of 
        its controller workforce. The overall percentage of 
        controllers-in-training has grown substantially during the past 
        3 years. New controllers now represent about 25 percent of the 
        workforce (up from 15 percent in 2004). However, that 
        percentage can vary extensively by location--from as little as 
        2 percent (e.g., Boston TRACON) to as much as 50 percent (e.g., 
        Las Vegas TRACON).

    A major challenge in addressing the attrition surge will be to 
        train new controllers to the Certified Professional Controller 
        (CPC) level at their assigned locations--a process that can 
        take up to 3 years. Training new controllers to the CPC level 
        is important for two reasons: (1) only CPCs are qualified to 
        control traffic at all positions of their assigned area, and 
        (2) only CPCs certified for at least 6 months (at their 
        assigned location) can become on-the-job training (OJT) 
        instructors for other new controllers. FAA must have enough OJT 
        instructors at all locations if it is to achieve its ambitious 
        hiring and training plans for the next 10 years and beyond.

  <bullet> FAA also is facing challenges to its oversight mission due 
        to attrition in its inspector workforce. FAA has about 4,100 
        inspectors to oversee a dynamic and rapidly changing industry, 
        which includes 114 commercial air carriers, almost 5,000 
        foreign and domestic repair stations, more than 700,000 active 
        pilots, and more than 1,600 approved manufacturers. Last year, 
        FAA's hiring efforts kept pace with retirements, and the Agency 
        ended the year with 133 additional inspectors compared to 
        Fiscal Year (FY) 2006 levels. However, FAA must continue to 
        closely oversee this effort since nearly half of the inspector 
        workforce will be eligible to retire in the next 5 years.

    To maximize its limited inspector resources, FAA has been working 
        toward risk-based safety oversight systems for air carriers, 
        repair stations, and manufacturers. These systems target 
        inspector resources to areas of greatest risk. However, unless 
        FAA develops a reliable staffing model, it will not be able to 
        effectively use its inspectors.

    I would now like to discuss these areas in further detail.
Strengthening FAA'S Oversight of the Aviation Industry
Recent Events at Southwest Airlines Underscore System-wide Weaknesses 
        in FAA's Oversight of Air Carriers
    The recent events at SWA have exposed significant weaknesses in 
FAA's oversight of air carriers and problems with its partnership 
programs. The FAA directive \4\ in this case required SWA to inspect 
the fuselages of its Boeing 737s for potential cracks. FAA issued this 
directive after an Aloha Airlines 737 lost a major portion of its hull 
while in flight at 24,000 feet in 1988, resulting in one fatality and 
multiple injuries.
---------------------------------------------------------------------------
    \4\ FAA Airworthiness Directive 2004-18-06 requires that Boeing 
737s (series 200, 300, 400, and 500) be inspected for fuselage cracks 
every 4,500 cycles (1 cycle equals 1 take-off and landing) after they 
reach 35,000 cycles.
---------------------------------------------------------------------------
    According to FAA, when an air carrier determines that it has not 
implemented an AD, it is required to immediately ground all non-
compliant aircraft. FAA inspectors share this responsibility--if an 
inspector becomes aware that an air carrier has violated the terms of 
an AD, the inspector is required to ensure that the aircraft are 
grounded.
    To meet this requirement, air carriers need a system to help them 
perform repetitive inspections of aircraft fuselages in a timely 
manner. However, we found that SWA did not have an adequate system to 
ensure it completed these inspections. As a result, SWA operated 46 
aircraft that were not inspected for fuselage cracks. These aircraft 
flew in violation of the AD on more than 60,000 flights for up to 9 
months. We estimate that these aircraft carried 6 million passengers 
during this period.
    According to SWA, it discovered it had violated this directive on 
March 14, 2007. SWA notified an FAA PMI the following day. However, the 
inspector did not direct SWA to ground the affected planes, and SWA 
continued to operate them on 1,451 flights for 8 more days, carrying an 
estimated 145,000 passengers.
    The PMI permitted--and encouraged--SWA to formally self-disclose 
the AD violation through its Voluntary Disclosure Reporting Program 
(VDRP), which would allow the airline to avoid any penalties. FAA 
accepted the self-disclosure, even though it had already accepted 
multiple disclosures on AD violations--this should have prompted 
concerns regarding whether underlying problems were corrected.
    Once it formally self-disclosed the violation on March 19, 2007, 
SWA stated that it was in compliance with the AD, meaning it had 
inspected or grounded all affected aircraft. However, two FAA 
inspectors (the whistleblowers in this case) reported that their 
supervisor, the PMI, knowingly permitted SWA to continue flying the 
identified aircraft even after SWA's self-disclosure. SWA officials 
confirmed this and stated that the PMI gave them verbal permission to 
continue flying the aircraft.
    During our review, we found that--after SWA self-disclosed the 
overflight--several of these aircraft flew into airports multiple times 
where they could have received the required inspections. When SWA 
finally inspected the aircraft, it found fuselage cracks in five of 
them. The AD specifies that these cracks could potentially lead to 
fuselage separation and rapid aircraft depressurization if left in 
disrepair.
    While these critical safety lapses indicate problems with SWA's 
ability to comply with safety directives, they are symptomatic of much 
deeper problems with FAA's oversight (the timeline below shows the 
events of the SWA disclosure and FAA actions).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We found that FAA's SWA's inspection office developed an overly 
collaborative relationship with the air carrier that allowed repeated 
self-disclosures of AD violations through its partnership program. 
Partnership programs are intended to encourage data-sharing between FAA 
and air carriers to identify and address safety issues. Yet, FAA 
allowed SWA to repeatedly self-disclose AD violations without ensuring 
that SWA had developed a comprehensive solution for reported safety 
problems--which is required for FAA to accept the disclosure and 
absolve the carrier of any penalty.
    However, SWA's proposed solutions, which FAA has repeatedly 
accepted, have failed to solve AD compliance issues, as it has violated 
four different ADs eight times since December 2006, including five in 
2008. FAA's oversight in this case appears to allow, rather than 
mitigate, recurring safety violations.
    FAA maintains that disclosure programs are valuable, as they can 
help to identify and correct safety issues that might not otherwise be 
obtainable. However, we are concerned that FAA relies too heavily on 
self-disclosures and promotes a pattern of excessive leniency at the 
expense of effective oversight and appropriate enforcement. Further, a 
partnership program that does not ensure carriers correct underlying 
problems is less likely to achieve safety benefits.
    Our ongoing work at another carrier has identified concerns with 
employees using disclosures to avoid penalties for safety violations. 
FAA must take steps to maintain the safety objective of these programs 
by actively discouraging improper relationships between inspection 
offices and carriers so that these programs do not lapse into an easy 
amnesty path for perpetual safety violators.
    We also found that the events of SWA demonstrate weaknesses in 
FAA's national program for risk-based oversight--the Air Transportation 
Oversight System (ATOS). This allowed AD compliance issues in SWA's 
maintenance program to go undetected for several years. As early as 
2003, one of the whistleblowers expressed concerns to FAA about SWA's 
compliance with ADs. In 2006, he began urging FAA to conduct system-
wide reviews, but FAA did not begin these reviews until after the 
details of the March 2007 disclosure became public.
    In fact, FAA inspectors had not reviewed SWA's system for 
compliance with ADs since 1999. At the time of the Southwest 
disclosure, 21 key inspections had not been completed in at least 5 
years. As of March 25, 2008, FAA still had not completed five of these 
required inspections, in some cases inspections had not been completed 
in nearly 8 years.
    We have previously identified system-wide problems with ATOS. For 
example, in 2002,\5\ we found inconsistent inspection methods across 
FAA field offices for various carriers. As a result, FAA inspectors 
were confused over how to conduct ATOS inspections and assess risks.
---------------------------------------------------------------------------
    \5\ OIG Report Number AV-2002-088, ``Air Transportation Oversight 
System,'' April 8, 2002.
---------------------------------------------------------------------------
    In 2005,\6\ we found that inspectors did not complete 26 percent of 
planned ATOS inspections--half of these were in identified risk areas. 
We recommended, among other things, that FAA strengthen its national 
oversight and accountability to ensure consistent and timely ATOS 
inspections. However, FAA still has not fully addressed our 
recommendations.
---------------------------------------------------------------------------
    \6\ OIG Report Number AV-2005-062, ``FAA Safety Oversight of an Air 
Carrier Industry in Transition,'' June 3, 2005.
---------------------------------------------------------------------------
    Further, our ongoing work and our 2007 report \7\ at NWA have 
identified weaknesses in FAA's processes for conducting internal 
reviews, ensuring corrective actions, and protecting employees who 
report safety concerns. In the SWA case, FAA's internal reviews found 
as early as April 2007 that the PMI was complicit in allowing SWA to 
continue flying aircraft in violation of the AD. Yet, FAA did not 
attempt to determine the root cause of the safety issue, nor initiate 
enforcement action against the carrier until November 2007. At NWA, 
FAA's reviews of an inspector's safety concerns were limited and 
overlooked key findings identified by other inspectors. Although some 
of the inspector's safety concerns were valid, FAA informed him that 
all of his concerns lacked merit.
---------------------------------------------------------------------------
    \7\ OIG Report Number AV-2007-080, ``FAA's Actions Taken To Address 
Allegations of Unsafe Maintenance Practices at Northwest Airlines,'' 
September 28, 2007.
---------------------------------------------------------------------------
    We also have concerns regarding FAA's failure to protect employees 
who report safety issues from retaliation by other FAA employees. For 
example, in the SWA case, after one whistleblower voiced his concerns 
to FAA, an anonymous hotline complaint was lodged against him. 
According to the inspection office manager, the PMI indicated that a 
SWA representative submitted the complaint.
    The complaint was non-specific and never substantiated, but the 
whistleblower was removed from his oversight duties for 5 months while 
he was being investigated. Yet, FAA did not suspend other inspectors 
who were subjects of similar complaints, including the PMI, who 
admitted he allowed SWA to continue flying in violation of the AD.
    Our work at NWA found the same problem with FAA's handling of the 
inspector who reported safety concerns. As with the inspector in the 
SWA case, FAA managers reassigned an experienced inspector to office 
duties, following a complaint from the airline, and restricted him from 
performing oversight on the carrier's premises.
    Both the SWA and NWA cases demonstrate that FAA must pursue a more 
reliable internal review process and protect employees that bring 
important safety issues to light. Recently, FAA announced several 
actions to address the SWA safety directive violation. These include 
initiating a review of AD compliance at SWA and other air carriers. FAA 
also proposed to fine SWA more than $10 million.
    While FAA's actions are necessary, albeit long overdue, the issues 
we have identified will require immediate and comprehensive changes in 
FAA's air carrier oversight programs. These actions include the 
following:

  <bullet> Ensuring that its VDRP guidance requires inspectors to (a) 
        verify that air carriers take comprehensive actions to correct 
        the underlying causes of violations identified through self-
        disclosure programs, and (b) evaluate, before accepting a new 
        report of a previously disclosed violation, whether the carrier 
        developed and implemented a comprehensive solution.

  <bullet> Implementing a process for second level supervisory review 
        of self-disclosures before they are accepted and closed--
        acceptance should not rest solely with one inspector.

  <bullet> Periodically rotating supervisory inspectors to ensure 
        reliable and objective air carrier oversight.

  <bullet> Revising its post-employment guidance to require a 
        ``cooling-off' period when an FAA inspector is hired at an air 
        carrier he or she previously inspected.

  <bullet> Implementing a process to track field office inspections and 
        alert the local, Regional, and Headquarters offices to overdue 
        inspections.

  <bullet> Establishing an independent organization to investigate 
        safety issues identified by its employees.

  <bullet> Developing a national review team that conducts periodic 
        reviews of FAA's oversight of air carriers.

    FAA committed to implement these recommendations. Follow through 
will be critical to demonstrate FAA' s commitment to providing 
effective oversight.
Improvements Also Are Needed in FAA's Oversight of Repair Stations and 
        Aircraft Manufacturers' Suppliers
    As with its oversight of air carriers, our work also has shown FAA 
must make similar improvements in its oversight of repair stations and 
its risk-based system for overseeing aircraft manufacturers' suppliers. 
A key issue in both cases is that FAA's oversight was inadequate in 
keeping up with dynamic changes occurring in those industries.
Repair Stations
    Air carriers have outsourced maintenance for years to both domestic 
and foreign repair facilities. These facilities can complete repairs 
for less cost and provide services in areas (such as engine repair) 
that otherwise would require air carriers to have specialized equipment 
and staff. Many air carriers outsource their engine work to the 
original equipment manufacturers because of the level of expertise the 
manufacturers can provide, and because the manufacturers provide 
warranties for their products. However, in recent years, use of 
external repair facilities has become more prominent.
    As we testified before this Subcommittee in June,\8\ from 1996 to 
2006, while total maintenance costs have fluctuated, air carriers 
continued to increase the percentage of maintenance dollars spent on 
outsourced maintenance--from 37 to 64 percent. In 2006, $3.7 billion of 
the $5.7 billion spent on maintenance was outsourced (see figure 2).
---------------------------------------------------------------------------
    \8\ OIG Testimony Number CC-2007-076, ``Aviation Safety: FAA 
Oversight of Foreign Repair Stations,'' June 20, 2007.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Neither FAA nor the Department maintains information on how much 
maintenance air carriers outsource to foreign facilities, but our work 
shows that the number of foreign FAA-certificated repair stations 
repairing U.S. aircraft has increased from 344 in 1994 to 698 in 2007. 
We have emphasized that the issue is not where maintenance is performed 
but that maintenance requires effective oversight.
    However, we have identified challenges in FAA's ability to 
effectively monitor the increase in outsourcing. For example, in July 
2003, we reported \9\ that FAA had not shifted its oversight of 
aircraft maintenance to the locations where the maintenance was 
performed. Although air carriers were using external repair stations to 
perform more of their maintenance work, FAA still was focusing most of 
its inspections on the maintenance work that air carriers performed 
within their own facilities.
---------------------------------------------------------------------------
    \9\ OIG Report Number AV-2003-047, ``Review of Air Carriers' Use of 
Aircraft Repair Stations,'' July 8, 2003.
---------------------------------------------------------------------------
    During the past 8 years, FAA has taken important steps to move its 
safety oversight for air carriers and repair stations to risk-based 
systems. FAA' s new oversight system applies to both domestic and 
foreign repair stations. However, FAA cannot effectively implement a 
risk-based system for oversight of aircraft maintenance if it does not 
know where the maintenance is performed.
    In July 2003 and again in December 2005,\10\ we reported that FAA 
did not have good systems for determining which repair facilities air 
carriers were using to perform their most critical maintenance. FAA 
subsequently developed new inspector guidance and air carrier processes 
to address this problem. However, this system does not provide FAA with 
the information it needs to target inspections to where the most 
maintenance is done because FAA does not require air carriers to report 
these data.
---------------------------------------------------------------------------
    \10\ OIG Report Number AV-2006-031, ``Review of Air Carriers' Use 
of Non-Certificated Repair Facilities,'' December 15, 2005.
---------------------------------------------------------------------------
    When carriers do report the data, FAA does not require that they 
include all repair stations performing critical component repairs or 
that inspectors validate the information. These efforts fall short of 
providing FAA with the information it needs. FAA officials stated they 
are still formulating the guidance language, however, it is unclear 
whether FAA will require air carriers to report volume data for repair 
stations that perform critical component repairs and require inspectors 
to validate the data.
Aircraft Manufacturers' Suppliers
    In February, we reported \11\ that since 1998 FAA has worked toward 
implementing a risk-based oversight system for aviation manufacturers. 
However, this system was implemented in FY 2003 and does not take into 
account the degree to which manufactures now use suppliers to make 
aviation products. FAA based the new system on historical manufacturing 
business models, in which manufacturers maintain primary control over 
the production of their aircraft rather than use suppliers to design 
and manufacture extensive portions of aircraft.
---------------------------------------------------------------------------
    \11\ OIG Report Number AV-2008-026, ``Assessment of FAA's Risk-
Based System for Overseeing Aircraft Manufacturers' Suppliers,'' 
February 26, 2008.
---------------------------------------------------------------------------
    We found weaknesses throughout FAA's oversight system for 
manufacturers and their suppliers. First, FAA has not ensured that 
manufacturers are providing oversight of their suppliers. Manufacturers 
are the first line of defense in ensuring the products used on their 
aircraft meet FAA and manufacturers' standards. Yet, during the 24 
months preceding our review, manufacturers had not audited 6 of the 21 
critical parts suppliers we visited.
    Second, FAA does not require inspectors to perform enough audits of 
suppliers to determine how well manufacturers' quality assurance 
systems are working. FAA's guidance for overseeing manufacturers' 
quality assurance systems only requires inspectors to perform, at most, 
four supplier audits, regardless of how many suppliers the manufacturer 
uses.
    Supplier control audits are a primary tool that FAA uses to assess 
how well manufacturers' oversight systems are working. Equally 
important, these audits function as a second layer of control for 
preventing improperly produced parts from entering the market. However, 
as shown in the table below, in each of the last 4 years, FAA has 
inspected an average of 1 percent of the total suppliers used by the 
five manufacturers we reviewed.
    At FAA's current surveillance rate, it would take inspectors at 
least 98 years to audit every supplier once. This is particularly 
troubling because manufacturers are not evaluating these suppliers 
frequently or comprehensively.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Third, the systemic deficiencies we identified at the 21 supplier 
facilities we visited indicate that manufacturers and FAA need to 
strengthen their oversight of these facilities. For example, nearly 
half (43 percent) of the suppliers had deficiencies in their tool 
calibration and employee training programs. Deficiencies in these areas 
could impact the quality of the parts these suppliers produce.
Improving Runway Safety
    From 1999 to 2001, runway incursions increased at alarming rates. 
To its credit, FAA took decisive action that helped reduce these 
incidents--it established regional runway safety offices, and initiated 
aggressive educational programs for pilots. However, since 2003, the 
number of runway incursions has begun climbing again, reaching a high 
of 370 in FY 2007--a 12-percent increase over FY 2006 (see figure 3).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    During the last 10 years, our work has showed that a range of 
actions are needed to enhance the margin of safety on the Nation's 
runways. We have identified four specific areas where FAA and other 
aviation users should focus runway safety efforts.

  <bullet> Implementing existing and new FAA systems to alert 
        controllers and pilots to potential runway incursions.

  <bullet> Making airport-specific infrastructure and procedural 
        changes, such as improved runway signage and markings.

  <bullet> Reinvigorating FAA's national program for improving runway 
        safety and identifying and correcting root causes of runway 
        incursions.

  <bullet> Addressing controller human factors issues, such as fatigue 
        and attention, through improved training.

Implementing Existing and New FAA Systems To Improve Runway Safety
    New technology is considered by many to be a key factor in the mix 
of solutions for improving runway safety. However, our work on three 
major FAA acquisitions for improving runway safety has shown that there 
are significant concerns as to what can be effectively deployed within 
the next several years. For example, a key technology for preventing 
runway accidents--the Airport Surface Detection Equipment--Model X 
(ASDE-X)--may not meet its cost and schedule goals to commission all 35 
systems for $549.8 million by 2011.
    ASDE-X is a ground surveillance system intended to alert 
controllers to potential ground collisions. As of FY 2007, FAA expended 
about $314 million (57 percent) and obligated about $378 million (69 
percent) of the planned funding. However, FAA only deployed 11 of 35 
systems for operational use.
    FAA must now deploy the last 24 systems at the more complex 
airports with less than half of the planned funds. We reported in 
October \12\ that ASDE-X may not achieve all planned safety benefits. 
These include maintaining operational capability during inclement 
weather (when it is most needed) and alerting controllers to possible 
collisions on intersecting runways and taxiways (``hot spots'' for 
runway incursions).
---------------------------------------------------------------------------
    \12\ OIG Report Number AV-2008-004, ``FAA Needs To Improve ASDE-X 
Management Controls to Address Cost Growth, Schedule Delays, and Safety 
Risks,'' October 31, 2007.
---------------------------------------------------------------------------
    Another significant technology under development is Runway Status 
Lights (RWSL). RWSL technology uses automated, surveillance-driven 
lights that work as independent, direct warning systems to alert pilots 
in departing or crossing aircraft that the runway is occupied. Lights 
illuminate red when it is unsafe to cross or depart from a runway, thus 
increasing the crew's situational awareness and decreasing the 
potential for runway incursions caused by pilot deviations.
    In January, we reported \13\ that RWSL is a viable technology for 
reducing runway incursions. At Dallas-Fort Worth International Airport 
(DFW), the test site for RWSL, the system met or exceeded all 
performance expectations. In addition, all system users we met with 
agreed that RWSL work as intended and have no known negative impact on 
capacity, communication, or safety.
---------------------------------------------------------------------------
    \13\ OIG Report Number AV-2008-021, ``FAA's Implementation of 
Runway Status Lights,'' January 14, 2008.
---------------------------------------------------------------------------
    However, the technology is still in the early stages of 
implementation, and much work remains for FAA to achieve full 
deployment. A key issue is that RWSL require ASDE-X fusion data for its 
surveillance capabilities and therefore depends on the successful 
deployment of that technology. In addition, RWSL have not been tested 
on intersecting runways.
    One of the most promising technologies on the horizon is the 
Automatic Dependent Surveillance-Broadcast (ADS-B)--a satellite-based 
technology that allows aircraft to broadcast their position to other 
aircraft and ground systems. When displayed in the cockpit, ADS-B 
information can provide a ``second set of eyes'' by including the pilot 
in the loop to detect and alleviate hazardous surface situations.
    In August 2007, FAA took an important step by awarding a contract 
for the development and installation of the ground infrastructure for 
ADS-B. However, as we testified in October,\14\ ADS-B ground 
infrastructure will not be in place until 2013, and users will not be 
required to equip with the needed avionics until 2020. A clear 
transition path for moving forward with ADS-B with well-defined costs 
and benefits does not yet exist.
---------------------------------------------------------------------------
    \14\ OIG Testimony Number CC-2007-100, ``Challenges Facing the 
Implementation of FAA's Automatic Dependent Surveillance-Broadcast 
Program,'' October 17, 2007.
---------------------------------------------------------------------------
Making Airport-Specific Infrastructure and Procedural Changes
    The uncertain timeline and emerging risks of FAA's runway safety 
technologies underscore the need to explore other near-term solutions 
to improve runway safety. We found that there are several relatively 
low-cost, simple, airport-specific changes that can help reduce the 
risk of runway incursions. These include airport infrastructure changes 
as well as procedural changes to daily airport operations.
    In May 2007, we reported \15\ on runway safety efforts at four 
airports that had experienced a surge in runway incursions in 2005 and 
2006--Boston, Chicago, Philadelphia, and Los Angeles. We found that 
airport operators at all four locations responded to the rise in runway 
incursions by improving airport lighting, adding better signage, and 
improving runway and taxiway markings. This included upgrading surface-
painted, hold-short surface markings in advance of FAA' s mandatory 
date of June 2008.
---------------------------------------------------------------------------
    \15\ OIG Report Number AV-2007-050, ``Progress Has Been Made in 
Reducing Runway Incursions, but Recent Incidents Underscore the Need 
for Further Proactive Efforts,'' May 24, 2007.
---------------------------------------------------------------------------
    Some airports also added unique signage to prevent runway 
incursions. For example, at Chicago O'Hare, the airport operator added 
above-ground signage near the general aviation ramp instructing general 
aviation aircraft to hold and contact the ground controller before 
continuing. This will help prevent general aviation pilots from 
inadvertently taxiing onto an active runway.
    We also found that airport operators and FAA managers made the 
following procedural changes to daily operations:

  <bullet> Air Traffic managers adopted tools for tracking controller 
        performance and increased the minimum time for management to 
        work in the operational area.

  <bullet> Airport operators tightly controlled the testing of drivers 
        in the airfield driver certification process and imposed 
        punitive action for non-compliance of driver rules.

  <bullet> Airport operators and the FAA Runway Safety Office created 
        maps or brochures to highlight potentially hazardous 
        intersections (known as hot spots) on the airport movement 
        area.

    Results through FY 2007 at Boston and Philadelphia show a 
significant decrease in runway incursions (more than half at both 
locations). However, results are not as clear at Los Angeles 
International Airport (which is still completing airfield construction) 
and Chicago O'Hare (which is still struggling with extremely complex 
runway layouts). At Los Angeles, the number of runway incursions 
remained steady but at Chicago the number increased.
    While the implementation of these actions varied among airports, 
they all had the potential to reduce runway incursions system-wide. 
However, other than informal networking, there were no formal means for 
the various users to share actions that had reduced or prevented runway 
incursions at their locations.
    Our recommendations included developing an automated means, such as 
establishing an intranet site through the Regional Runway Safety 
Offices, to share best practices for reducing runway incursions with 
all users of the National Airspace System. In response, FAA implemented 
a best practices website for runway safety in December 2007.
    In addition, in August 2007, FAA convened a task force of pilots, 
airport managers, and controllers to address runway safety issues. The 
group agreed on a short-term plan to improve runway safety, which 
focuses on (1) conducting safety reviews at airports based on runway 
incursion and wrong runway departure data, (2) deploying improved 
airport signage and markings at the 75 busiest, medium-to large-sized 
airports (ahead of the June 2008 mandated deadline), and (3) reviewing 
cockpit and air traffic clearance procedures.
    In January 2008, FAA reported that the aviation industry has 
initiated and completed significant short-term actions to improve 
safety at U.S. airports. For example, safety reviews of the top 20 
high-risk airports were completed, resulting in more than 100 short-
term initiatives and numerous mid- and long-term initiatives. Also, 71 
of the same 75 busiest airports completed enhancements to surface 
markings, and airlines committed to providing pilots with simulator 
training or other realistic training for taxiing aircraft from the 
terminal to the runway.
Reinvigorating FAA's National Program for Improving Runway Safety
    From 1998 to 2001, we reported that runway incursions were 
increasing at alarming rates. To its credit, FAA took decisive action, 
and the total number of runway incursions decreased from a high of 407 
in FY 2001 to a low of 323 in FY 2003. During our review at the Boston, 
Chicago, Los Angeles, and Philadelphia airports, however, we found that 
many important national initiatives for promoting runway safety 
(undertaken by FAA as early as 2000) had waned as the number of 
incidents declined and FAA met its overall goals for reducing runway 
incursions.
    For example, FAA established the Runway Safety Office in 2001 to 
provide central oversight and accountability for implementing runway 
safety initiatives throughout the Agency. However, at the time of our 
review, that office had not had a permanent Director for almost 3 
years. In addition, the office was reorganized and realigned twice 
since FAA established the Air Traffic Organization in February 2004, 
and its staff was reduced by half, including the elimination of two 
Headquarters Division offices within the Office of Runway Safety.
    We also found that FAA no longer prepares its National Plan for 
Runway Safety, which defined the Agency's strategy and prioritized 
efforts to reduce runway incursions. The last time FAA prepared this 
plan was in 2002.
    FAA has begun addressing many of our concerns. For example, in 
August 2007, FAA hired a permanent director for its Runway Safety 
Office and plans to reinstate its National Plan for Runway Safety. 
Although this is a good start, sustained commitment along with adequate 
resources and executive level attention will be key to achieving 
results.
Addressing Controller Human Factors Issues Through Improved Training
    Addressing human factors issues, such as fatigue and situational 
awareness, is important to improving runway safety. In its 
investigation of Comair flight 5191, the NTSB expressed concerns that 
the lone controller on duty at the time of the accident had about 2 
hours of sleep before his shift. As a result of its investigation at 
Lexington, the NTSB added controller fatigue to its ``Most Wanted 
List'' in 2007 and made two recommendations to FAA concerning 
controller fatigue.
    As we testified in February before the House Aviation 
Subcommittee,\16\ controller staffing and training will be key watch 
items during the next 10 years as FAA begins executing its plans to 
hire and train 17,000 new controllers through 2017. Training new 
controllers on human factor issues (such as addressing fatigue and 
increasing attention) as well as technical aspects of air traffic 
control (such as airspace, phraseology, and procedures) will become 
increasingly important as FAA begins to address the large influx of new 
controllers.
---------------------------------------------------------------------------
    \16\ OIG Testimony Number CC-2008-043, ``FAA's Fiscal Year 2009 
Budget Request: Key Issues Facing the Agency,'' February 7, 2008.
---------------------------------------------------------------------------
    We also reported in May that FAA needed to focus on controller 
human factors issues and training to improve individual, team, and 
facility performance. In its last National Plan for Runway Safety, FAA 
cited human factors and lack of controller teamwork as significant 
contributing factors of runway incursions caused by controller 
operational errors. However, we found that FAA had made little progress 
in addressing human factors training to help reduce the risk of runway 
incursions caused by controllers.
    To its credit, FAA has successfully implemented an important 
training initiative--increasing the use of training simulators at 
towers. Tower simulators can improve overall facility performance by 
reducing runway incursions through enhanced initial and proficiency 
training. They provide controllers with a virtual replica of the tower 
environment, which can be used to train controllers using real-life 
scenarios such as day-versus-night operations, varying weather 
conditions, different runway configurations, or emergency situations.
    Simulators also can be used to model changes in airport 
configurations and procedures. For example, Boston Logan used a tower 
simulator to help establish necessary safety procedures for a newly 
constructed runway. Likewise, the National Aeronautics and Space 
Administration used a tower simulator to study alternatives for 
improving runway safety at Los Angeles and evaluate the effectiveness 
of adding a center-field taxiway between its parallel runways. FAA 
recently installed tower simulators at four towers--Chicago O'Hare, 
Miami, Ontario, and Phoenix. Results thus far indicate that simulators 
are a valuable training tool.
    FAA plans to install 12 additional simulators this year (6 at large 
airports and 6 at the FAA Academy) and 12 next year (at other 
airports). FAA needs to ensure that this initiative remains on track to 
capitalize on the significant success this training has demonstrated.
    We are reviewing several other issues concerning controller human 
factors. At the request of the House Aviation Subcommittee Chairman, we 
are reviewing the rate and root causes of controller training failures 
(developmental controllers who fail training either at the FAA Academy 
or at their assigned facility). At the request of Senator Durbin of 
Illinois, we are reviewing factors that could affect controller 
fatigue. We are focusing our current efforts at Chicago O'Hare Tower, 
Chicago TRACON, and Chicago Center but may review other locations and 
FAA's national efforts based on the results of our work at Chicago.
Addressing Attrition Within Two of FAA's Critical Workforces
    A key issue that will affect FAA for at least the next 10 years is 
addressing attrition in two of its critical safety workforces--air 
traffic controllers and aviation safety inspectors. FAA currently is 
training more new controllers than it has in the past 15 years. The 
percentage of developmental controllers within the controller workforce 
has increased from about 15 percent in 2004 to about 25 percent in 
2007.
    As a result, FAA is facing a fundamental transformation in the 
composition of its controller workforce that will require improvements 
in its facility training program. A critical piece for addressing 
controller attrition is facility training. However, we found that FAA's 
facility training program continues to be extremely decentralized and 
the efficiency and quality of the training varies extensively from one 
location to another. We found similar problems in 2004.
    FAA also is facing substantial safety oversight challenges due to 
potential attrition in its inspector workforce. FAA has about 4,100 
inspectors to oversee a dynamic and rapidly changing industry, which 
includes 114 commercial air carriers, almost 5,000 foreign and domestic 
repair stations, more than 700,000 active pilots, and more than 1,600 
approved manufacturers.
Addressing Controller Attrition Through Improvements in Facility 
        Training
    The long-expected surge in controller attrition has begun. Since 
2005, 3,300 controllers have left the Agency. The total rate of 
attrition was 23 percent higher than FAA projected; however, FAA has 
accelerated its hiring efforts to fill vacancies. Since 2005, FAA has 
hired 3,450 new controllers-25 percent more than projected. Still, FAA 
faces a major challenge as it must hire and train 17,000 new 
controllers through 2017. Figure 4 shows FAA's estimates and actual 
numbers for controller attrition and new controller hiring from FY 2005 
through FY 2007.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As a result of the high level of controller attrition, FAA is 
facing a fundamental transformation in the composition of its 
controller workforce. The overall percentage of controllers in training 
has grown substantially during the past 3 years. From April 2004 to 
December 2007, the overall size of the controller workforce remained 
constant; however, during the same period, the number of controllers in 
training increased by 1,375, or 62 percent, while the total number of 
CPCs, decreased by 1,302. New controllers now represent about 25 
percent of the workforce (up from 15 percent in 2004). However, that 
percentage can vary extensively by location--from as little as 2 
percent (e.g., Boston TRACON) to as much as 50 percent (e.g., Las Vegas 
TRACON).
    As we testified in February,\17\ a major challenge in addressing 
the attrition surge will be to train new controllers to the CPC level 
at their assigned locations. Facility training can take up to 3 years 
and is the most expensive part of new controller training. Training new 
controllers to the CPC level is important for two reasons: (1) only 
CPCs are qualified to control traffic at all positions of their 
assigned area, and (2) only CPCs certified for at least 6 months (at 
their assigned location) can become on-the-job training (OJT) 
instructors for other new controllers. FAA must have enough OJT 
instructors at all locations if it is to achieve its ambitious hiring 
and training plans for the next 10 years and beyond.
---------------------------------------------------------------------------
    \17\ OIG Testimony CC-2008-043, ``FAA's Fiscal Year 2009 Budget 
Request: Key Challenges Facing the Agency,'' February 7, 2008.
---------------------------------------------------------------------------
    It is important to note that new controllers who have completed 
portions of training and have been certified on a position can 
independently staff that position. However, controllers are not 
qualified CPCs until they have certified on all positions within their 
assigned area. In addition, using position-qualified controllers 
extensively to staff positions can lengthen the time required for them 
to become CPCs since they are not training on other new positions.
    We recently completed an audit of FAA's controller facility 
training program--our second review of this program since 2004. 
Overall, we found that the program continues to be extremely 
decentralized and the efficiency and quality of the training varies 
from one location to another. We found similar problems in 2004. FAA is 
taking actions at the national level to get this important program on 
track, but many of FAA's efforts are still in the early stages. To 
achieve its goals for the controller workforce, FAA will need to take 
the following actions:

  <bullet> Clarify responsibility for oversight and direction of the 
        facility training program at the national level. Facility 
        training is primarily the responsibility of the Air Traffic 
        Organization's Vice President for Terminal Services and Vice 
        President for En Route and Oceanic Services. However, the Vice 
        President for Acquisition and Business Services oversees new 
        controller hiring and the FAA Academy training program, and the 
        Senior Vice President for Finance oversees the development of 
        the Controller Workforce Plan. Both have key roles in the 
        controller training process as well. As a result of these 
        overlapping responsibilities, we found there is significant 
        confusion at the facility level.

        During our review, facility managers, training managers, and 
        even Headquarters officials were unable to tell us who or what 
        office was responsible for facility training. FAA needs to 
        clarify responsibility for oversight and direction of the 
        facility training program at the national level and communicate 
        those roles to facility managers.

  <bullet> Establish realistic standards for the level of developmental 
        controllers that facilities can accommodate. Given the various 
        sizes and complexities of FAA' s more than 300 facilities, FAA 
        needs to identify (by facility) how many developmental 
        controllers facilities can realistically accommodate. FAA must 
        consider several factors, such as: (1) the number of available 
        OJT instructors, (2) available classroom space, (3) the number 
        of available simulators, (4) all training requirements, and (5) 
        the number of recently placed new personnel already in 
        training.

  <bullet> Implement key initiatives proposed in its 2004 Controller 
        Workforce Plan. FAA has not implemented key initiatives to 
        improve facility training that it proposed in the 2004 
        Controller Workforce Plan. These include, ``developing, 
        implementing, and enforcing a policy that assigns facility 
        training as a priority second only to operations.'' This was to 
        be accomplished by ``(1) placing developmental controllers only 
        at facilities that had available training capacity, (2) 
        requiring facility managers to suspend training only for 
        critical operational necessities, and (3) establishing nominal 
        time-to-certify metrics and holding managers accountable for 
        achieving those targets.'' However, FAA never issued this 
        policy.

        In addition, FAA has not comprehensively evaluated its facility 
        training program. In its 2004 Controller Workforce Plan, FAA 
        stated it would ``conduct a thorough review of facility 
        training to ensure it begins where the Academy ends. This 
        review will take into consideration other efficiency gains 
        identified in this plan and will result in facility training 
        programs tailored to meet the needs of developmental 
        controllers of the future.'' FAA intended for this effort to 
        help reduce the time it takes new controllers to become CPCs. 
        However, FAA never conducted the evaluation. FAA must follow 
        through with this evaluation and its Controller Workforce Plan 
        initiatives.
Addressing Inspector Attrition and Implementing Staffing Models
    FAA is also facing substantial safety oversight challenges due to 
potential attrition in its inspector workforce. FAA has about 4,100 
inspectors to oversee a dynamic and rapidly changing industry, which 
includes 114 commercial air carriers, almost 5,000 foreign and domestic 
repair stations, more than 700,000 active pilots, and more than 1,600 
approved manufacturers. Last year, FAA's hiring efforts kept pace with 
retirements, and the Agency ended the year with 133 additional 
inspectors compared to FY 2006 levels. However, FAA must continue to 
closely oversee this effort since nearly half of the inspector 
workforce will be eligible to retire in the next 5 years.
    FAA will never have an inspector workforce that is large enough to 
oversee all aspects of the industry, so it is important for the Agency 
to place inspectors where they are most needed. To maximize its limited 
inspector resources, FAA has been working toward risk-based safety 
oversight systems for air carriers, repair stations, and manufacturers. 
These systems target inspector resources to areas of greatest risk. 
However, unless FAA develops a reliable staffing model, it will not be 
able to effectively use its inspectors. At the direction of Congress, 
the National Research Council completed a study \18\ of FAA's current 
methods for allocating inspector resources in September 2006 and 
recommended that FAA develop a new staffing model.
---------------------------------------------------------------------------
    \18\ ``Staffing Standards for Aviation Safety Inspectors,'' 
September 20, 2006.
---------------------------------------------------------------------------
    It has been more than 1 year since the Council study, and FAA is 
still in the early stages of developing a new staffing method. FAA has 
established an interim target date to assess current staffing methods 
and begin identifying the elements of the next generation staffing tool 
by September 2008.
    FAA recently finalized milestones to develop and implement the new 
model and plans to begin using it by October 2009. Making measurable 
progress toward a new staffing model is a key watch item, and we will 
continue to monitor this important initiative.
    That concludes my statement, Mr. Chairman, I would be happy to 
address any questions you or other Members of the Subcommittee may 
have.

    Senator Rockefeller. Thank you very much.
    And now Mr. Chealander.

   STATEMENT OF HON. STEVEN R. CHEALANDER, MEMBER, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Mr. Chealander. Thank you and good morning, Chairman 
Rockefeller, Ranking Member Hutchison, Chairman Inouye, and 
Vice Chairman Stevens. Thank you for allowing me the 
opportunity to present testimony on behalf of the National 
Transportation Safety Board.
    Let me begin by discussing runway safety and, in 
particular, runway incursions and excursions because of the 
number and potential seriousness of these events.
    Improper or misunderstood instructions, human error, 
continues to place aircraft vehicles and their passengers in 
danger despite ongoing improvements. As an example of human 
error, the world's deadliest runway incursion, which remains 
the world's deadliest aviation accident, occurred in March 
1977, and 583 lives were lost in a collision between two jumbo 
jets on a runway at Tenerife in the Canary Islands. Human 
error.
    Since October 1, 2007, all surface incidents are being 
classified as runway incursions. From January 2007 through 
March 31st of 2008, 441 runway incursions were reported. More 
importantly, since October of 2007, there have been 15 A or B 
categorized incursions, which are the most serious. This is 
more than double the amount during the same time last year.
    In July 2000, the Safety Board made recommendations to 
address the issue of providing direct warning to flight crews. 
This direct warning is crucial because it gives both flight 
crews and controllers increased time to react. Until a system 
is in place that provides direct warning to pilots, the 
potential for this type of a disaster will continue to be high.
    Since 2005, the FAA has been conducting field tests on 
Runway Status Lights at the Dallas-Fort Worth and San Diego 
airports. Initial test results have been promising and the FAA 
is extending these tests to more complex airports such as 
Boston, Chicago O'Hare, and Los Angeles International.
    The FAA's NPRM on Automatic Dependent Surveillance 
Broadcasts, better known as ADS-B, published in 2007 mandates 
all aircraft be equipped with ADS-B Out although not until the 
year 2020. Moreover, the FAA does not plan to mandate ADS-B In 
at all. For ADS-B to provide the maximum safety benefit, the 
system should support both ADS-B Out and ADS-B In. ADS-B In 
provides surface conflict warnings directly to pilots in the 
cockpit while ADS-B Out provides basic aircraft separation 
information.
    The Safety Board is encouraged by the FAA's progress in 
areas such as lighting and improved signage at airports. 
However, implementation of other technologies has been slow.
    In 2000, the Safety Board recommended that all runway 
crossings be authorized only by specific air traffic control 
clearance and that controllers issue a takeoff clearance only 
after the previous runway has been crossed. Yet, the FAA has 
not implemented either procedural change. If those procedures 
had been implemented, the Comair accident in Lexington, 
Kentucky, which claimed 49 lives, may not have occurred.
    The Safety Board also investigated several runway 
excursions, including an accident involving a Southwest Boeing 
737 that killed one person at Chicago's Midway Airport in 2005.
    The Safety Board has been focusing on FAA oversight and 
surveillance of operators and aircraft maintenance for over 20 
years.
    For example, in the Alaska Airlines Flight 261 accident off 
the coast of California with 88 fatalities, FAA oversight of 
the carrier's maintenance program was an issue.
    In the Chalk's Ocean Airways Flight 101 accident in Miami 
Florida, with 20 fatalities, FAA oversight of the carrier's 
maintenance program was an issue.
    Additionally, American Airlines Flight 1420 accident in 
Little Rock, Arkansas, which claimed 11 fatalities, is an 
example of an issue with operations oversight.
    The Safety Board has examined FAA oversight during all of 
its accident investigations. For instance, in the past 10 
years, the Board has issued 29 recommendations on maintenance 
activities alone.
    That concludes my testimony. Thank you for the opportunity. 
I would be happy to answer any questions you may have.
    [The prepared statement of Mr. Chealander follows:]

       Prepared Statement of Hon. Steven R. Chealander, Member, 
                  National Transportation Safety Board
    Good morning, Chairman Rockefeller and Ranking Member Hutchison. 
Thank you for allowing me the opportunity to present testimony on 
behalf of the National Transportation Safety Board. I am privileged to 
represent an agency that is dedicated to the safety of the traveling 
public.
    As you know, the Safety Board is charged with investigating 
aviation incidents and accidents, determining their probable cause, and 
making recommendations to prevent similar accidents from happening 
again. The Board is concerned about key safety issues including: runway 
incursions, runway excursions, icing conditions, fuel tank inerting, 
human fatigue, and maintenance of aircraft.
    The world's deadliest runway incursion accident, which remains the 
world's deadliest aviation accident, occurred in March 1977 when two 
passenger jumbo jets collided on a runway at Tenerife, Canary Islands, 
causing the deaths of 583 passengers and crew. The deadliest U.S. 
runway incursion accident involving two aircraft was a collision 
between a USAir 737 and a Skywest Metroliner commuter airplane at Los 
Angeles International Airport (LAX) in February 1991, which killed 34 
people. Another accident, involving a Comair Bombardier CL600 that 
departed the wrong runway on August 27, 2006, killed 49 people in 
Lexington, Kentucky. The Safety Board has also investigated several 
other runway excursions including the accident involving a Southwest 
Boeing 737 that killed one person at Chicago's Midway Airport.
Runway Incursions
    On October 1, 2007, the Federal Aviation Administration (FAA) 
adopted the International Civil Aviation Organization's definition of 
runway incursion. Prior to that date, the FAA classified events that 
did not result in a loss of required separation as ``surface 
incidents,'' not incursions. Incursions required a loss of separation 
with another aircraft, person, object, or vehicle. Since October 1, 
however, all surface incidents are now classified as runway incursions 
and are categorized based on the severity of the incident. Category A 
and B incursions represent the highest likelihood of a collision. From 
January 2007 through March 31, 2008, 441 runway incursions were 
reported, with 15 of those classified as a category A or B. That's more 
than twice as many as were reported during the same time last year (7).
    Between May and October 2007, the Safety Board investigated seven 
serious runway incursions involving 792 people onboard those airplanes. 
Most notably, in May 2007, there was a runway incursion that occurred 
about 1:30 in the afternoon at San Francisco International Airport 
involving a Republic Airlines Embraer 170 and a Skywest Embraer 120 
Brazilia. These two aircraft, carrying 92 people, nearly collided in 
the intersection of runways 1 left (L) and 28 right (R). The tower 
controller forgot about Skywest when he cleared Republic for takeoff 
from an intersecting runway. Skywest came to a stop in the runway 
intersection and Republic lifted off and overflew Skywest by about 35 
feet. Another incident occurred on July 11, 2007 at about 2:30 in the 
afternoon when a United Airbus A320 and a Delta Airlines Boeing 757 
almost collided in the intersection of runway 9L and taxiway M at the 
Fort Lauderdale-Hollywood Airport, Florida. Delta was inbound for 
landing on runway 9L and United was taxiing for departure on the same 
runway. The United crew missed a turn, and was heading toward the 
runway when the tower controllers told United to stop and Delta to go 
around. Although Delta touched down briefly, the crew was able to 
initiate a go-around and a collision was averted by less than 100 feet. 
Alert controllers and quick actions by the crews saved 307 people from 
a catastrophic accident. Incursions occur because both pilots and 
controllers make mistakes. Improper or misunderstood instructions 
continue to place aircraft, vehicles, and their passengers in danger--
despite improved signage, more visible painted runway markings, ongoing 
safety briefings and seminars for controllers and pilots, and 
informational brochures. The reason is simple and complex--human error. 
Pilots may misunderstand a clearance or read it back incorrectly and 
controllers fail to catch the error. Pilots may take a wrong turn when 
they are taxiing. Controllers may clear an aircraft to take off or land 
on a runway already occupied by a vehicle or another aircraft.
    There isn't any one single solution that will eliminate the problem 
of runway incursions. In July 2000, the Safety Board made 
recommendations to attack the issue in a variety of ways, including 
procedural changes, educational efforts, and technology improvements 
that provide a direct warning to the flight crews. This direct warning 
is crucial because it gives both controllers and those operating the 
aircraft increased time to react. Information needs to be provided 
directly to the flight crews as expeditiously as possible to prevent 
runway accidents. The issue is one of reaction time. Safety Board 
investigations have found that AMASS/ASDE-X are not adequate to prevent 
serious runway collisions, because too much time is lost routing 
valuable information through air traffic control. After an alert, the 
controller must determine the nature of the problem, determine the 
location, identify the aircraft involved, and determine what action to 
take. Only after all of these determinations have been made can 
appropriate warnings or instructions be issued. The flight crew must 
then respond to the situation and take action. Simulations of AMASS 
performance using data from actual incursions show that alerts may 
occur as little as 8 to 11 seconds before a potential collision. In 
recent incidents, AMASS did not alert controllers in time to be 
effective, and the situations were instead resolved by flight crew-
initiated actions. An example of this was the San Francisco accident 
previously mentioned. Until there is a system in place to control 
ground movements of all aircraft with direct warning to pilots, the 
potential for this type of disaster will continue to be high.
    Since 2005, the FAA has been conducting field tests of Runway 
Status Lights at the Dallas/Fort Worth International Airport and San 
Diego International Airport since 2006. Red lights activated on the 
runway when an aircraft was taking off, landing, or crossing an active 
runway giving information directly to the pilots. Initial test results 
have been promising and the FAA is extending those tests to more 
complex airports such as Boston, Chicago O'Hare and Los Angeles 
International Airports. The FAA is also testing final approach runway 
occupancy signals that alert pilots on final approach when the runway 
is occupied. It is also reviewing a flight deck-based direct warning 
system. The Safety Board has provided favorable assessments of that 
technology.
    Although the Board has been encouraged by the recent progress, it 
has been over 7 years since these recommendations were issued. Yet it 
has been only in the past few years that the FAA has started evaluating 
technologies that provide direct warnings to the cockpit. Further, 
while these technologies may offer added safety, they are many years 
away from possible national implementation.
    Additionally, since 2007, the FAA has stated that ADS-B (Automatic 
Dependent Surveillance-Broadcast) would mitigate the number and 
severity of runway incursions. On September 9, 2005, the FAA officially 
committed to establishing ADS-B as the basis for air traffic control in 
the future. On October 5, 2007, the FAA published a Notice of Proposed 
Rulemaking (NPRM) that proposed performance requirements for certain 
avionics equipment on aircraft to facilitate the use of ADS-B. 
According to the NPRM, ADS-B will be available nationwide in 2013 for 
aircraft surveillance by FAA and Department of Defense air traffic 
controllers. ADS-B will be very beneficial for expanding surveillance 
coverage to areas of the United States that are not covered now, such 
as the Gulf of Mexico, Hawaii, and Alaska. However, in order for ADS-B 
to provide maximum safety benefits, the system should support both ADS-
B Out and ADS-B In. ADS-B Out provides basic aircraft information 
(location, altitude, etc.) to air traffic controllers in order to 
provide traffic separation. ADS-B In would permit users to use 
additional services such as obtaining datalinked weather and traffic 
information, and would also provide a means of transmitting surface 
conflict warnings directly to pilots via the ADS-B In communications 
link. However, the NPRM states that aircraft are not required to be 
equipped with ADS-B Out until 2020 and the FAA will not mandate ADS-B 
In at this time because, according to the NPRM, it ``has not been 
identified as a requirement for maintaining the safety and efficiency 
of National Airspace System (NAS) operations.'' The NPRM further states 
that operators may equip their aircraft with ADS-B In ``if they so 
choose.''
    The Safety Board is disappointed that this NPRM does not require 
ADS-B In which would be instrumental in providing additional safety 
information that would prevent incidents such as runway incursions. All 
of the runway incursion prevention technology being developed and 
tested by the FAA that would give a direct warning to the cockpit, such 
as Runway Status Lights and the final approach occupancy signal, and 
ADS-B are years from being installed and they will not be installed at 
all airports with passenger service. The Safety Board believes that the 
ability of ADS-B In to support data sharing between aircraft and 
controllers would be a major contributor to improved situational 
awareness and would reduce the likelihood of both airborne and surface 
conflicts.
Actions Remaining
    The FAA has made progress with lighting and improved signage at 
airports, but some basic improvements in air traffic control procedures 
are needed. In July 2000, the Safety Board recommended that all runway 
crossings be authorized only by specific air traffic control clearance 
and that controllers issue a takeoff clearance only after the previous 
runway has been crossed. Both of those recommendations are contained in 
the Manual on the Prevention of Runway Incursions prepared by the 
International Civil Aviation Authority and is the guidance material 
used internationally for implementing national or local runway safety 
programs. Yet, the FAA has not implemented either procedural change. If 
those procedures had been implemented, the Comair accident in 
Lexington, Kentucky may not have occurred.
    The Safety Board supports the use of ADS-B and believes that ADS-B 
Out will provide a safety benefit in the NAS in areas without 
sufficient radar coverage. However, the adoption of ADS-B In, direct 
delivery of warnings to aircraft pilots via datalink, and recommended 
procedural changes will increase the level of safety during ground 
operations and should be expeditiously incorporated in the FAA's 
development planning.
Runway Excursions
    Recent accidents, such as the December 2005 Southwest Airlines 
runway excursion at Midway Airport, indicated that the Safety Board 
should broaden its runway safety efforts to include runway excursions. 
Over the last 10 years, 73 accidents involving turbine-engined aircraft 
were reported resulting in 15 fatalities. Runway excursions only need 
to be reported to the Safety Board if there was substantial damage to 
the airplane, serious injury to a person, or if an emergency evacuation 
was required, so there are most likely additional excursions during 
this period that we are not aware of.
    Landing distance calculations are critical to flight safety, 
especially when runway conditions limit braking effectiveness. As a 
result of the Southwest Airlines accident, the Safety Board issued an 
urgent recommendation on January 27, 2006, asking the FAA to prohibit 
operators from using reverse thrust credit in landing performance 
calculations to ensure adequate landing safety margins on contaminated 
runways. The FAA responded that it would issue an Operations 
Specification that would establish mandatory actions by aircraft 
operators and meet the intent of the recommendation; however, it 
subsequently decided to issue only a Safety Alert For Operators (SAFO). 
SAFOs are not regulatory and compliance is therefore voluntary.
    On October 4, 2007, the Safety Board superceded the previous urgent 
recommendation, issuing a new recommendation asking that the FAA 
require crews to make a landing distance assessment with an adequate 
safety margin for every landing. To date the FAA has not made this a 
requirement.
    In the U.S. during the last 2 years, there were five runway 
excursion accidents involving turbine-powered aircraft, resulting in 
one fatality. However, these events involved 247 other crewmembers, 
passengers, or people on the ground who happened to be in the area when 
the excursions occurred. The NAS cannot continue to depend on the last 
minute alertness of pilots and controllers, whose actions have helped 
avoid several runway incidents that could have been catastrophic. We 
need the extra protection of additional procedures and advanced 
technology to compensate for human mistakes.
Action Remaining
  <bullet> Require operators to conduct arrival landing distance 
        assessments before every landing based on existing performance 
        data, actual conditions, and incorporating a minimum safety 
        margin of fifteen percent.
Reduce Dangers to Aircraft Flying in Icing Conditions
    The 1994, in-flight icing encounter and subsequent loss of control 
and crash of a commuter airliner in Roselawn, Indiana, which claimed 68 
lives, prompted the Safety Board to examine the issue of airframe 
structural icing and conclude that the icing certification process has 
been inadequate because the process has not required manufacturers to 
demonstrate the airplane's flight handling and stall characteristics 
under a realistic range of adverse ice accretion/flight-handling 
conditions. The FAA did not have a systematic and proactive approach to 
the certification and operational issues of turbine-engine-driven 
transport-category airplane icing.
    The consequences of operating an airplane in icing conditions 
without first having thoroughly demonstrated adequate handling/
controllability characteristics in those conditions are sufficiently 
severe that they warrant a thorough certification test program, 
including application of revised standards to airplanes currently 
certificated for flight in icing conditions.
    As a result of the Roselawn accident, the Safety Board called on 
the FAA to revise the icing criteria and icing testing requirements 
necessary for an airplane design to be approved within the United 
States, and the operational requirements that specify under what icing 
conditions it is permissible to operate an aircraft.
    On July 25, 2007, the FAA issued a final rule titled ``Airplane 
Performance and Handling Qualities in Icing Conditions,'' which became 
effective October 9, 2007. On September 10, 2007, the FAA issued 
Advisory Circular (AC) 25-25, ``Performance and Handling 
Characteristics in the Icing Conditions Specified in Part 25, Appendix 
C.'' The AC provides detailed guidance on acceptable means of 
compliance with the new requirements. These actions were responsive to 
some aspects of the recommendations from the Roselawn accident. The FAA 
still needs to take the following actions:

  <bullet> Revise Part 121, applicable to airplanes with takeoff 
        weights less than 60,000 pounds, to address when to activate 
        the ice protection system and when the flight crew should exit 
        icing conditions.

  <bullet> Develop Part 25 rules that include requirements to 
        demonstrate that an airplane can safely operate in certain 
        super-cooled large drop (SLD) conditions for an unrestricted 
        time or can detect SLD and enable the flight crew to exit icing 
        conditions; and

  <bullet> Development of similar Part 23 rules after completing the 
        Part 25 rulemaking.

    The ARAC is still working on regulations concerning SLD and mixed-
phase icing for both Part 25 and Part 23. The Safety Board has learned 
of FAA activities in response to recommendations concerning icing 
issued as a result of the February 16, 2005, crash of a Cessna Citation 
560 during approach to landing in icing conditions at Pueblo, Colorado. 
This accident occurred in SLD conditions, and FAA and Cessna flight 
testing in response to the investigation used procedures and tests 
suggested by the ARAC to analyze airplane handling characteristics in 
SLD conditions. This suggests that the FAA may be near developing and 
issuing regulations concerning SLD. However, the FAA has not provided 
any projected dates for development and issuance of an NPRM and final 
rule. The pace of the FAA's activities in response to these 
recommendations remains unacceptably slow, despite recent encouraging 
action.
Actions Remaining
  <bullet> Complete efforts to revise icing certification criteria, 
        testing requirements, and restrictions on operations in icing 
        conditions; and

  <bullet> Evaluate all aircraft certified for flight in icing 
        conditions using the new criteria and standards.
Eliminate Flammable Fuel/Air Vapors in Fuel Tanks on Transport-category 
        Aircraft
    Center wing fuel tank explosions have resulted in 346 fatalities. 
Operating transport-category airplanes with flammable fuel/air vapors 
in fuel tanks presents an avoidable risk of explosion. A fuel tank 
design and certification philosophy that relies solely on the 
elimination of all ignition sources, while accepting the existence of 
fuel tank flammability, is fundamentally flawed because experience has 
demonstrated that all possible ignition sources cannot be predicted and 
reliably eliminated. As a result of the TWA Flight 800 accident that 
occurred in July 1996, the Safety Board asked the FAA to develop and 
implement both long-term and short-term solutions to the fuel tank 
issue. Previously, fuel tank explosions occurred somewhere in the world 
approximately once every 52 months, but two explosions in the last 3 
years have changed the average for the worse. In the 10 years since the 
TWA flight 800 accident, there have been three additional fuel tank 
explosions, illustrating the continuing need for reforms in this area.
    In response to the long-term solution preventing flammable fuel/air 
vapors in fuel tanks the FAA commissioned the ARAC to evaluate design 
modifications, such as inerting, that would satisfy this 
recommendation. In its July 1998 final report, the ARAC concluded that 
inerting would achieve this goal, but at a cost of over $20 billion. 
The ARAC also concluded that inerting systems would be very difficult 
to retrofit into existing airplanes and recommended that the FAA 
continue to investigate a more cost-effective approach to reducing 
explosive vapors. A 2001 follow up study also concluded that the 
benefit of inerting could not be reasonably balanced by its cost. In 
May 2002, in contrast to the ARAC's reports, the FAA developed a 
prototype inerting system that required no moving parts, weighed less 
than 200 pounds, and could be retrofitted into existing airplanes at a 
fraction of the industry-estimated cost: the cost of this prototype 
system was only $100,000. The system has been flight tested by the FAA, 
NASA, Boeing, and Airbus, and the results indicate that fuel tank 
inerting is both practical and effective.
    Although 11 years have passed since this recommendation was issued, 
the FAA's recent actions indicate positive movement, particularly in 
the development of a practical fuel tank inerting system. Boeing is 
making a flammability reduction system a basic feature in the design of 
the new 787 Dreamliner aircraft. Boeing has also designed a 
flammability reduction system and delivered these systems on production 
models of the 747 and 737 NG. Although the first B-737 equipped with a 
flammability reduction system was delivered on December 8, 2005, to 
Southwest Airlines, this system is an option, and many 737's currently 
being delivered are not equipped with this system. The next design to 
receive a flammability reduction system will be the B-777.
    The FAA has developed a final rule to do some, but not all, of what 
the Safety Board has recommended. The proposed final rule is somewhat 
controversial and received close scrutiny from OST and OMB. The latest 
word is that OMB's review of the final rule will be completed by May 
2008.
Action Remaining
  <bullet> Complete rulemaking efforts to preclude the operation of 
        transport-category airplanes with flammable fuel/air vapors in 
        the fuel tank on all aircraft.
Cockpit and Flight Data Recorders/Require Cockpit Video Recorders
    Flight recorders have proven themselves invaluable in providing 
crucial information during accident and incident investigations. Last 
month, the FAA issued a final rule, titled ``Revisions to Cockpit Voice 
Recorder and Digital flight Data Recorder Regulations.'' The Board was 
pleased to see that all larger passenger airliners will be required to 
carry 2-hour cockpit voice recorders (CVRs), greatly expanding the 
current 30-minute requirement. But the rule stopped short of what the 
Board has recommended by not requiring that older 30-minute CVRs be 
replaced on existing commuter and corporate jet aircraft. The FAA did 
require that newly manufactured commuter and corporate jets come 
equipped with 2-hour CVRs.
    The Board had asked that airliners be retrofitted with cockpit 
voice recorders that had an emergency 10-minute power supply in case of 
an electrical interruption, such as occurred on ValuJet Flight 592 in 
1996 and Swiss Air Flight 111 in 1999. The FAA rule will require that 
newly manufactured airliners be so equipped, but declined to require 
retrofits again as recommended by the Board. The Board also called for 
certain configurations of microphones and dedicated channels in 
airliner cockpits, and for dual combination recorders, one in the front 
and one in the back of the plane, however those items are not addressed 
in the new rule. The FAA also did not address the Board's 
recommendations concerning cockpit video recorders.
    The new rule calls for increased flight control position sampling 
rates on flight recorders, which should improve the quality of data 
available to investigators. Improvements in flight recorders has been 
on the Board's list of Most Wanted Safety Improvements since 1999.
Reduce Accidents and Incidents Caused by Human Fatigue
    The Safety Board has long been concerned about the issue of 
operator fatigue in transportation and has stressed its concerns in 
investigation reports issued throughout the 1970s and 1980s. In 1989, 
the Board issued three recommendations to the Secretary of 
Transportation calling for research, education, and revisions to 
existing regulations. These recommendations were added to the Board's 
Most Wanted list in 1990, and the issue of fatigue has remained on the 
Most Wanted list since then. The Safety Board's 1999 safety study of 
DOT efforts to address operator fatigue continued to show that this 
problem was widespread. Operating a vehicle without the operator's 
having adequate rest, in any mode of transportation, presents an 
unnecessary risk to the traveling public. The laws, rules, and 
regulations governing this aspect of transportation safety are archaic 
in many cases and are not adequate to address the problem.
Flight Crews
    In December 1995, the FAA issued an NPRM to update the flight and 
duty regulations for airline pilots; however, in the intervening 12 
years, the regulations have not been revised. The FAA has attempted on 
three occasions to reach consensus with the industry on a proposed rule 
but has not succeeded. FAA's ARAC upon reviewing Part 135 regulations 
has recently made some recommendations to simplify and improve the duty 
time regulations for flight crews covered by Part 135. The FAA recently 
advised the Safety Board that it is developing an NPRM that 
incorporates the ARAC's recommendations; the NPRM will include a 
fatigue risk management system that provides an alternative to 
prescriptive limitations.
    The Safety Board recommended 14 years ago that the FAA close a 
loophole in the regulations regarding hours of duty for flight crews 
that allowed crews to be on duty flying for much longer periods of time 
than allowed under Part 121 or Part 135. The 1995 NPRM proposed 
revisions that were responsive, however, those revisions resulted in 
considerable controversy and the FAA withdrew the NPRM. The Safety 
Board's concern that flight crew fatigue is a significant aviation 
safety issue continues today, yet little or no action has been taken by 
the FAA and they have not indicated any firm plans to take the 
recommended action.
Maintenance Personnel
    In 1999, the FAA issued a report entitled Study of Fatigue Factors 
Affecting Human Performance in Aviation Maintenance. The FAA completed 
the first phase of the expanded study and issued a report in April 2000 
entitled Evaluation of Aviation Maintenance Working Environments, 
Fatigue, and Maintenance Errors/Accidents. The expanded study looked at 
multiple and combined environmental factors of temperature, noise, 
light, vibration, and sleep, which are known to accelerate fatigue 
onset, as well as the effects of lifestyle habits on fatigue and human 
performance. The study was designed to collect data in the aviation 
maintenance work environment on known factors that affect human fatigue 
and performance. The data were intended for use in predicting 
situations that are conducive to fatigue, accidents, incidents and 
errors.
    The FAA's findings suggest that fatigue is an issue in this 
workforce. Data from ``mini-logger monitors'' that recorded data from 
the selected parameters of light, noise levels, and temperature; 
activity monitors that monitored physical activity, sleep, and sleep 
quality; and the answers to background questions that employees were 
asked clearly indicate that sleep durations are inadequate to prevent 
fatigue. For most aviation maintenance technician specialties, 30-40 
percent of respondents reported sleep durations of less than 6 hours, 
and 25 percent of respondents reported feeling fatigued or exhausted.
    The DOT stated that the findings of its studies indicate that the 
extreme complexity of the issue of maintenance crew fatigue and duty 
time do not present appropriate material for regulatory activity, and 
education and training in fatigue management are the most appropriate 
actions for the FAA to sponsor and foster. The FAA has consequently 
conducted education and training activities on fatigue management for 
aircraft maintenance personnel. The Safety Board reviewed Advisory 
Circular (AC) 120-72, ``Maintenance Resource Management (MRM) 
Training,'' which seems to be the primary focus of the FAA's education 
and training initiatives related to fatigue among aviation maintenance 
crews. We found little in AC 120-72 that provides guidance on human 
fatigue in maintenance crews other than generalized warnings that 
attention to fatigue is important and should be considered in MRM 
Training. AC 120-72 contains little guidance as to how an employer 
should design a program to ensure that maintenance crews are not 
fatigued. In addition, the website referenced in the reports to 
Congress (http://hfskyway.faa.gov) is in fact nothing more than a 
single page with a very general description of the FAA's aviation 
maintenance human factors research program. It contains no useful 
information to educate and train someone in the aviation community on 
the issues of fatigue management in aircraft maintenance personnel.
    The Safety Board disagrees that regulating hours of service for 
aviation maintenance crews is not appropriate. In addition, the Board's 
reviews of the FAA's education activities related to reducing fatigue 
among maintenance crews shows them to be limited and of questionable 
value.
Air Traffic Controllers
    In 2007, the Safety Board issued recommendations to the FAA and the 
National Air Traffic Controllers Association regarding air traffic 
controller fatigue. The Safety Board had investigated four incidents 
that provided clear and compelling evidence that controllers are 
sometimes operating in a state of fatigue because of their work 
schedules and poorly managed utilization of rest periods between shifts 
and that fatigue has contributed to controller errors. Controller 
fatigue decreases aviation safety. FAA policies and controllers' off-
duty habits can contribute to the problem. Although the FAA and other 
organizations have conducted a great deal of research on this issue 
resulting in an improved scientific understanding of the causes of 
fatigue, its effects on controller performance, and strategies for 
reducing controller fatigue, the FAA has been slow to change 
controller-scheduling practices.
    The FAA has convened a working group to develop shift rotation and 
scheduling guidelines, and it is our understanding that last month the 
National Air Traffic Controllers Association (NATCA) provided 
information on fatigue and scheduling practices. The FAA plans to 
develop and implement a fatigue awareness and countermeasures training 
program to be used by all FAA Air Traffic Organization operational 
service units. NATCA has informed the FAA and the Safety Board of its 
eagerness to participate in this group, and indicated its commitment to 
developing workable scheduling practices that minimize controller 
impairment due to fatigue.
Action Remaining
  <bullet> Issue regulations that establish scientifically based duty 
        time limitations for air carrier maintenance personnel and 
        flightcrews.

  <bullet> Develop a fatigue awareness and countermeasures training 
        program for controllers and those who schedule them for duty.
Maintenance Oversight
    In the course of Safety Board investigations--particularly those 
involving air carrier operations--Board investigators routinely examine 
issues related to regulatory oversight; policy and procedures; 
certification; and inspection and enforcement. Safety Board 
investigation reports typically include a characterization of 
regulatory policies and oversight as they relate to the circumstances 
of the accident or incident investigated. In some cases, deficiencies 
are identified in FAA regulation or oversight. In other cases, Safety 
Board investigations have identified local deficiencies in the actions 
of personnel responsible for enacting FAA policy. In those cases when 
the identified deficiencies were determined to have contributed to the 
circumstances in an accident or incident, the Safety Board has cited 
the FAA or FAA personnel as part of the probable cause of the accident. 
Therefore, a summary of the Safety Board's historic assessment of FAA 
oversight requires a review of the Board's findings of probable cause 
as well as the discussions of FAA policy and effectiveness in the text 
of Board reports.
    The Safety Board records its findings of probable cause for 
aviation investigations in its aviation accident and incident database. 
Database records include the Board's probable cause statement in its 
original narrative form as well as a categorically coding of the causal 
findings. Attached is a summary of records from the Safety Board's 
aviation accident database in which the FAA or FAA personnel have been 
cited with regard to oversight functions. [not printed] Included in the 
summary are cases from 1983 to the present in which the Board cited FAA 
oversight or functions associated with oversight of operators and 
aircraft maintenance. Excluded from this attachment are cases in which 
FAA functions not directly related to oversight, such as air traffic 
services.
    That concludes my testimony and I would be happy to answer any 
questions you may have.

    Senator Rockefeller. Thank you.
    Mr. Brantley?

  STATEMENT OF TOM BRANTLEY, PRESIDENT, PROFESSIONAL AVIATION 
                  SAFETY SPECIALISTS, AFL-CIO

    Mr. Brantley. Good morning, Chairman Rockefeller, Senator 
Hutchison, and members of the Subcommittee, and thank you for 
inviting PASS to testify today on FAA's aviation safety 
program.
    The recent incident involving Southwest Airlines has drawn 
attention to the FAA's current inability to provide adequate 
oversight of the airlines. The slew of aircraft groundings 
indicate that there are problems within the system that are not 
being addressed. PASS is extremely concerned that the agency 
has become so focused on working in partnership with the 
airlines that it has allowed its safety mission to become a 
lower priority, in many cases ignoring warnings from its own 
workforce. Because of the agency's internal pressure to 
collaborate with industry, inspectors are being forced to 
change inspection data in FAA databases, reprimanded or removed 
from oversight responsibility of a carrier, and encouraged not 
to pursue enforcement actions.
    PASS has also learned of cases in which FAA managers have 
allowed airlines to misuse FAA safety programs. The Voluntary 
Disclosure Reporting Program, VDRP, encourages airlines to 
self-disclose violations to avoid facing penalties. Inspectors 
report that the airlines are being allowed to self-disclose 
after an inspector has discovered a problem. In some cases, 
inspectors are being ordered by managers to hold off on an 
action to allow the airline to self-disclose. While self-
disclosure can work, the deterrent is eliminated when the 
program is abused.
    PASS concurs with many of the IG's recent recommendations 
regarding the program, including that the FAA implement a 
secondary review of self-disclosures before they are accepted.
    The customer service initiative, CSI, is another FAA 
program that is being misused. CSI gives the airlines the right 
to ask for a review of an inspector's decision. Again, the idea 
is valid, but the FAA is permitting air carriers to use the CSI 
to remove an inspector simply for doing his or her job.
    Guidance for the CSI actually directs the agency to treat 
the airlines as their customer. In PASS's view, the FAA should 
be focused on protecting aviation safety and treating the 
flying public as its customer rather than satisfying the 
aviation industry.
    PASS recommends that this program be suspended until there 
can be an independent review of the program to ensure that it 
can be used properly and it can achieve its intended results.
    With fewer inspectors out in the field, the FAA is touting 
ATOS as an effective way to prioritize the workload of safety 
inspectors based on risk. Yet, it is clear from the evidence 
over the last few months that ATOS data, the majority of which 
is provided by the airlines, cannot be relied upon without 
physical verification. Inspectors have informed PASS that the 
fundamental flaw of ATOS is that they are not performing enough 
hands-on surveillance. In fact, where inspectors used to spend 
most of their time in the field, they now tell us they are 
spending more than 70 percent of their time at their desks.
    The FAA's recent actions to improve the inspection program 
do little to address the concerns of aviation safety 
inspectors. It is clear to PASS that if those charged with 
inspecting the safety of the air carrier industry are not 
allowed to thoroughly examine and fully report potential safety 
issues, the FAA will fail in its mission of maintaining and 
enhancing aviation safety. It is time this became clear to the 
agency, and it is time for the FAA to once again make safety 
its top priority.
    I feel strongly that the FAA must stop trying to portray 
the current crisis as an isolated incident and admit that a 
systemic problem exists. The FAA must stop relying on the 
industry to police itself and resume its oversight 
responsibilities. Partnership is a fantastic way of doing 
business as long as the FAA does not lose sight of its 
responsibilities. I think they can work with the industry. It 
does not have to be adversarial, but at the end of the day, the 
buck has to stop with the FAA. And right now, they are not even 
seeing the buck.
    That concludes my comments, and I look forward to any 
questions you may have.
    [The prepared statement of Mr. Brantley follows:]

            Prepared Statement of Tom Brantley, President, 
           Professional Aviation Safety Specialists, AFL-CIO
    Chairman Rockefeller, Senator Hutchison and members of the 
Subcommittee, thank you for inviting PASS to testify on Federal 
Aviation Administration (FAA) aviation safety oversight. The 
Professional Aviation Safety Specialists, AFL-CIO (PASS) represents 
11,000 FAA employees, including approximately 2,900 Flight Standards 
field aviation safety inspectors located in 110 field offices in the 
United States as well as three international offices in Germany, the 
United Kingdom and Singapore. FAA safety inspectors are responsible for 
certification, education, oversight, surveillance and enforcement of 
the entire aviation system, including air operator and air carrier 
certificates, repair station certificates, aircraft airworthiness, 
pilots, mechanics, flight instructors and designees.
    A recent high-profile incident in which Southwest Airlines was 
allowed to continue flying several planes despite being in violation of 
an FAA Airworthiness Directive (AD) has drawn significant attention to 
the FAA's ability to provide aviation safety oversight. The fact that 
FAA employees had to seek help outside the agency in order to get these 
safety concerns addressed is an unfortunate indication of the overall 
culture at the agency. PASS and the FAA aviation safety inspector 
workforce we represent have serious concerns regarding the FAA's 
ability to fully and properly oversee aviation safety. Through the 
following testimony, PASS will outline significant challenges 
encountered by the inspector workforce, including the FAA's over 
reliance on a computer-based system, the excessively close relationship 
between the FAA and airlines, misuse of FAA ``partnership programs,'' 
oversight of outsourced maintenance, oversight of foreign repair 
stations and the critical need for increased inspector staffing.
Air Transportation Oversight System (ATOS)
    The Air Transportation Oversight System (ATOS) was developed in 
1998 as a ``system safety'' approach to oversight of the air carrier 
industry aimed at ensuring airlines comply with FAA safety requirements 
to control risk and prevent accidents. The creation of ATOS was a 
direct result of the 1996 ValuJet accident, in which it was discovered 
that outsourced maintenance was a causal factor. In theory, ATOS allows 
potential problems to be identified before they result in an incident 
or accident. The FAA's guidance on ATOS requires that a surveillance 
plan be implemented for each airline and standardizes the inspection 
and certification processes through automation tools.
    While prioritizing workload based on levels of risk and attempting 
to manage that workload through automated tasks are valid concepts, 
there are several problems with ATOS that prevent the agency from 
benefiting from the system. Of primary concern is the fact that ATOS is 
limiting a vital aspect of the inspection process: visual, hands-on 
inspections actually performed by an FAA inspector. PASS believes that 
the FAA is relying too heavily on a data-driven system, due in part to 
the diminishing number of safety inspectors. In other words, by 
transitioning to ATOS without an adequate number of inspectors, the FAA 
is increasing its reliance on limited data rather than a combination of 
visual inspections and statistical analysis to catch safety problems. 
Yet, FAA analysts have shared with PASS that they do not believe that 
there is enough statistical data to properly determine risk.
    Throughout its implementation, several industry groups and 
government bodies have expressed concern about ATOS. In 2002 and 2005, 
the Department of Transportation Inspector General (IG) identified 
system-wide problems with ATOS. Among the issues discovered included 
lack of inspector training on the system, incomplete inspections in 
recognized risk areas, inadequate data and not placing inspectors where 
they were most needed. The IG recommended that the FAA strengthen 
national oversight and accountability of ATOS. According to the IG, the 
FAA has yet to fully address these recommendations.\1\
---------------------------------------------------------------------------
    \1\ Department of Transportation Inspector General, Actions Needed 
to Strengthen FAA's Safety Oversight and Use of Partnership Programs, 
CC-2008-046 (Washington, D.C.: April 3, 2008), pp. 3-4.
---------------------------------------------------------------------------
    According to inspectors, prior to ATOS, they developed their own 
yearly surveillance plan with the ability to keep it fluid in order to 
address daily concerns or changes as they developed. The inspector 
spent most of his or her time at the airline or maintenance facility, 
meaning more surveillance was done on the actual operations and 
maintenance performed. Today, inspectors tell us that the fundamental 
flaw of ATOS is that they are not performing enough hands-on 
surveillance. Without actual visual inspections, inspectors are not 
able to validate the data provided by the airline and generate new data 
to input into the system. Moreover, when inspectors perform on-site 
visits, their presence alone serves as a deterrent. Unfortunately, the 
agency has restructured ATOS so there are fewer inspectors in the field 
and even eliminated the majority of remotely sited inspectors 
nationwide. Therefore, despite the increasing use of regional carriers 
and so much work being outsourced globally, the FAA appears focused on 
keeping its inspectors in a few central locations rather than where the 
actual work is taking place.
    In the wake of Southwest Airlines' noncompliance disclosure, the 
effectiveness of ATOS was called into question once again. Southwest 
Airlines is an ATOS carrier and has been since the inception of ATOS in 
1998. How effective is the FAA's ATOS process in identifying and 
managing risk if Southwest Airlines was able to become so lax in its AD 
compliance? In fact, ATOS inspectors are supposed to examine airlines' 
systems every 5 years to ensure compliance, yet Southwest's AD system 
had not been examined since 1999.\2\ PASS believes that one of the main 
reasons ATOS is not working as intended is because it has not been 
properly resourced and supported by the FAA. It is a mistake for the 
FAA to rely on incomplete data, the majority of which is provided by 
the airlines, and limited visual inspections to determine risk.
---------------------------------------------------------------------------
    \2\ Id., p. 13.
---------------------------------------------------------------------------
    With attention focused on AD compliance, the FAA issued Notice 
N8900.36 on March 13, 2008, directing a two-phased audit of Part 121 
air carrier compliance with ADs in order to reassure the flying public 
that the Southwest incident was not a system-wide issue. In phase 1 of 
the audit, which was due March 28, inspectors sampled 10 ADs for each 
of the air carriers' fleets. Phase 2 of the audit, which is due June 
30, will sample additional ADs to total 10 percent of the ADs 
applicable to the air carriers' fleets. While the original notice 
instructed inspectors to perform a visual inspection of the aircraft 
along with verification of records, the FAA released a broadcast 
message that FAA inspectors should only perform a records check due to 
the two-week time constraint for completion of Phase 1. In other words, 
the aircraft and/or its components were not required to be inspected. 
On April 2, the FAA released results from the first phase of the audits 
claiming a 99 percent rate of airline compliance with ADs.
    However, without FAA surveillance of an aircraft, the aircraft's 
physical AD compliance status is unknown despite what the records may 
indicate. While the FAA has hailed the first results of the audit as an 
indication that the overall program is working, PASS has serious 
concerns as to the validity of any results collected through this 
directive and whether a records check on so small a sampling of 
aircraft data will render meaningful results or assurance of 
compliance. Furthermore, PASS has learned that many inspectors were 
told to perform ``easy'' checks during this audit--items that would not 
require a considerable amount of time or result in many problems. One 
inspector told PASS that the airline he was responsible for checking 
was actually warned of which ADs would be checked a full 5 days before 
the FAA reviewed them.
    The IG recommendation for increased national oversight of ATOS, 
including a process to track field office inspections to ensure that 
they are conducted in a timely manner,\3\ is an important step forward 
in addressing some of the major issues that prevent the agency from 
benefiting from the system. However, without enough people--FAA 
inspectors who are trained to see and hear things not quantifiable 
through any database--any adjustments to the process will have little 
or no impact.
---------------------------------------------------------------------------
    \3\ Id., p. 16.
---------------------------------------------------------------------------
FAA Culture Impedes Work of Safety Inspectors
    The culture at the FAA has devolved into one in which the employees 
are criticized for their actions, questioned on their expert opinions 
and made to feel as if they are the only ones fighting for the safety 
of the system. As stated earlier, the creation of ATOS was the FAA's 
answer to providing reassurance in the wake of the ValuJet accident. 
National Transportation Safety Board (NTSB) hearings on the accident 
reveal that at least one employee expressed repeated concerns as to the 
safety of ValuJet prior to the accident, going so far as to file a 
report suggesting the FAA intensify its surveillance of the airline by 
increasing the number of inspectors assigned to the carrier. However, 
that report was ignored and not passed along to higher levels of 
management. During the hearing, it was indicated that the environment 
at the FAA was one in which the comments and observations of 
subordinates were regularly dismissed by those at the top. The lack of 
change in the culture at the FAA is striking. Although ATOS may have 
been conceived with the best intentions, it obviously does not address 
the underlying problems that continue to plague the agency.
``Cozy'' Relationships Between FAA Management and Airlines
    A 1996 act of Congress eliminated a portion of the FAA's ``dual 
mandate'' that directed the agency to promote air travel.\4\ Although 
legislation describing the FAA's mandate now instructs the agency to 
focus on maintaining and enhancing safety, there remains pressure from 
FAA management to promote the aviation industry even if it is at the 
sacrifice of safety enforcement. In fact, PASS has learned of numerous 
instances in which, due to collaboration between the FAA and industry, 
FAA safety inspectors were prevented from moving forward with 
enforcement actions after identifying a violation of the Federal 
Aviation Regulations. As a result, the role of inspector as safety 
enforcer is becoming increasingly overshadowed and inspectors are being 
pressured by FAA management not to pursue enforcement actions or to 
severely censor their evaluations.
---------------------------------------------------------------------------
    \4\ Public Law 104-264, Section 401: Elimination of Dual Mandate.
---------------------------------------------------------------------------
    There are many examples in which FAA management has ``looked the 
other way'' rather than seriously contemplating the safety inspector's 
professional opinion and taking immediate steps to ensure that the 
airline was in compliance with FAA regulations. One recent high-profile 
example in which safety violations were detected at an airline 
illustrates the FAA's cultural flaw all too clearly. In September 2007, 
the IG released a report on an incident involving a safety inspector 
for Northwest Airlines who, after identifying safety problems with the 
airline, was prevented from further access to the carrier and 
reassigned to administrative duties. After a thorough investigation, 
the IG determined that many of the inspector's findings were legitimate 
and that the FAA appeared to focus on ``discounting the validity of the 
complaints rather than determining whether there were conditions . . . 
that needed correction.'' \5\ The IG warned that a ``potential negative 
consequence of FAA's handling of this safety recommendation is that 
other inspectors may be discouraged from bringing safety issues to 
FAA's attention.'' \6\ PASS fully concurs with the IG's assessment. In 
fact, many safety inspectors with whom we spoke were hesitant even to 
discuss similar situations with the union in preparation for this 
testimony for fear that their managers would find out and put them 
under investigation or otherwise ``make work a nightmare.''
---------------------------------------------------------------------------
    \5\ Department of Transportation Inspector General, Actions Taken 
to Address Allegations of Unsafe Maintenance Practices at Northwest 
Airlines, AV-2007-080 (Washington, D.C.: September 28, 2007), p. 7.
    \6\ Id.
---------------------------------------------------------------------------
    Furthermore, PASS has learned of instances in which FAA management 
has urged or actually required inspectors to alter their information in 
FAA databases in order to diminish the seriousness of the inspectors' 
findings. Recently, two grievances were filed by inspectors involving 
incidents in which inspectors working at the Northwest Airlines 
certificate management office (CMO) were forced to change information 
they had entered into the ATOS database by their frontline managers. 
According to FAA policy, when there is a difference of opinion 
concerning critical assessment data captured in an FAA database, all 
information is supposed to be elevated to the principal inspector so 
that he or she has the necessary data in order to assess the safety 
risk. In one instance, however, management demanded a more generic 
version of the data that did not reflect as negatively on the airline 
to replace the inspector's actual findings. In another case, an 
inspector, after documenting observations of noncompliance, was told to 
change responses in the ATOS database. When the inspector refused, 
believing that this would significantly affect the quality of the 
safety information, the inspector was admonished. A recent change to 
FAA policy will allow FAA managers access to the system and permit them 
to alter the data without forcing the inspector to make the changes. 
Management will be required to identify the author of the change and 
provide the reporting inspector with a copy of the change. Although 
this will certainly limit the demand placed on inspectors to conform to 
management pressure, this process still has the potential to impact the 
safety of the system.
    Consider the following additional examples in which the 
disturbingly close relationship between FAA management and industry is 
highlighted:

  <bullet> In 2003, an inspector assigned to Continental Airlines 
        discovered that over 4,000 life vests had not been overhauled 
        by a certificated repair station in accordance with the 
        component maintenance manual. The inspector's supervisor did 
        not want to have the airline replace the life vests and, 
        according to the inspector, went so far as to accuse the 
        inspector of wanting to bankrupt the carrier. FAA management 
        allowed the airline to continue operating with these ``un-
        airworthy'' life vests for several weeks. Only after the 
        persistent efforts of the inspector did a higher level of 
        management insist the life vests be replaced immediately.

  <bullet> In October 2007, a safety inspector assigned to American 
        Eagle in Fort Worth uncovered training and operational issues 
        the inspector believed should be addressed by the agency. The 
        inspector wrote 11 letters on issues ranging from handbook 
        compliance to regulatory compliance and sent them to the 
        principal inspector assigned to the American Eagle CMO 
        operations unit, who then sent them on to the unit supervisor. 
        In November 2007 and again in January 2008, the inspector asked 
        the unit supervisor about the status of the letters. On both 
        occasions, the unit supervisor, who is a former employee of the 
        carrier, responded that sending all the letters at once would 
        overwhelm the carrier. After details regarding upcoming 
        hearings were released, the inspector was informed that the 
        unit supervisor had told the principal inspector to send the 
        letters to the carrier.

  <bullet> In 2007, inspectors assigned to the Hawaiian Airlines 
        certificate were advised that they could no longer perform 
        inspections on aircraft in service when the flight turnaround 
        time is only an hour and a half. When a plane is in service and 
        sitting at the gate on the ``ramp,'' it is considered an 
        excellent time to inspect the carrier to validate the airline's 
        assertion that the aircraft is ready for passenger-carrying 
        service, especially since most of these aircraft will be flying 
        over water for extended periods. An e-mail from management 
        emphasized that the airline had expressed concerns due to 
        delays caused by these inspections and that ``on-time 
        performance is a high priority item for Hawaiian.'' Inspectors 
        have been directed not to conduct detailed inspections of an 
        aircraft during ``quick'' turnaround in order for the 
        inspectors to ``be less apt to cause a disruption.'' The e-mail 
        specifically states that this change in procedure is to enhance 
        the working relationship between the FAA and the airline.

    Moreover, even if an enforcement action initiated by an FAA safety 
inspector makes it through all the procedural steps and results in a 
civil penalty, a process that can take up to several years, these fines 
or penalties are often dramatically reduced. A 2005 report by the 
Government Accountability Office (GAO) stated that from FY 1993 through 
2003, there was a ``52 percent reduction in the civil monetary 
penalties assessed from a total of $334 million to $162 million.'' \7\ 
Inspectors have told PASS, and the GAO report has confirmed, that the 
lessening of penalties for present violations has severely reduced the 
prevention of future violations. In other words, if punishment for 
violating safety regulations is not appropriately strict, penalizing an 
airline will have little or no impact on future actions.
---------------------------------------------------------------------------
    \7\ Government Accountability Office, Aviation Safety: FAA's Safety 
Oversight System Is Effective but Could Benefit from Better Evaluation 
of Its Programs' Performance, GAO-06-266T (Washington, D.C.: November 
17, 2005), p. 12.
---------------------------------------------------------------------------
    One case involving an FAA safety inspector working for the United 
Airlines CMO illustrates this prevalent practice of reducing the amount 
of civil penalties assessed on an airline found to be in violation. In 
2003, the inspector discovered a significant problem with improper 
accomplishment of work under an FAA AD on the United Boeing 777 
aircraft. The AD required that ``each backup generator must be serviced 
by different individuals before any subsequent flight.'' The inspector 
found that the air carrier had been systematically performing dual 
servicing contrary to the AD for years. As a result, an EIR was filed. 
The EIR sanctioning guidelines provided for a recommended civil penalty 
of $500,000, but the office manager would not endorse the EIR with that 
proposed amount. The office manager eventually approved the EIR with a 
proposed civil penalty of $195,000. The informal hearing regarding the 
case was held in December 2007, and the proposed sanction after the 
hearing was $32,000. The final amount appears to be a civil penalty of 
$28,000. In addition, while gathering records for the EIR, the 
inspector discovered falsification of records. Despite the efforts of 
the inspector, there was never any consequence to the falsification 
issue.
Customer Service Initiative (CSI)
    In 2003, FAA Aviation Safety Associate Administrator Nick Sabatini 
unveiled his Customer Service Initiative (CSI) program in order to 
allow certificate holders to ``request reconsideration of a decision 
made by an Aviation Safety office.'' \8\ The guidance on the initiative 
reads similar to what one may expect to encounter in any service-based 
industry where the emphasis is on satisfying the customer. In PASS's 
view, the FAA should be focused on protecting aviation safety and 
treating the flying public as the most important customer rather than 
satisfying the aviation industry. The CSI allows airlines to ask for 
review on any inspector's decision made in the regulatory or 
certification process. However, the FAA is permitting air carriers to 
use the CSI to make customer complaints and remove an inspector simply 
for doing his or her job. In essence, the CSI program finds the 
inspector guilty without a trial, granting the airlines an almost 
effortless way to clean the slate, as well as sending a disturbing 
message to any other inspector assigned to the carrier that if they 
attempt to hold the carrier accountable, they may be removed from the 
assignment or face other repercussions.
---------------------------------------------------------------------------
    \8\ Federal Aviation Administration. Customer Service Appeals & 
Petitions [updated August 3, 2005; cited February 2008]. Available from 
www.faa.gov/about/office_org/field_offices/fsdo/cs_initiative.
---------------------------------------------------------------------------
    PASS is aware of many incidents in which FAA management has allowed 
an air carrier to exploit the CSI process after an inspector attempted 
to hold the airline accountable. In some cases, air carriers have even 
requested that their certificate be transferred to another Flight 
Standards District Office (FSDO). Consider the following examples:

  <bullet> In 2005, an inspector working at the Northwest Airlines CMO 
        in Minnesota detected a problem with the airline's use of 
        temporary workers who were not properly trained and familiar 
        with the airline's maintenance operation. The inspector 
        repeatedly related concerns that the airline's use of temporary 
        workers who were not competent or properly trained could 
        jeopardize the continued operation of the airline. In response 
        to these findings, the airline contacted the FAA manager at the 
        CMO and accused the inspector of harassment. Without conducting 
        a proper investigation, the FAA removed the inspector from the 
        certificate. When the agency refused to address the system 
        issues regarding the use of temporary maintenance workers, the 
        inspector was forced to file a safety recommendation. This 
        safety recommendation was ignored, compelling the inspector to 
        elevate the issue to Congress and the Inspector General due to 
        serious safety concerns regarding the operation of the airline.

  <bullet> In 2005, a major helicopter company performing an external 
        lift operation in the FAA field office district of Fort Worth, 
        Texas, was found in noncompliance with the company's FAA-
        approved altitude restrictions and congested area limitations. 
        The reporting inspector had proposed severe sanctions against 
        the pilot and operator, and a letter was sent to the operator 
        detailing the proposed civil penalties. The operator complained 
        about the sanctions and the enforcement actions were dismissed. 
        The FAA responded by prohibiting inspectors in Fort Worth from 
        performing any future surveillance on the operator when it 
        operates in their district.

    Due to the repeated misuse of the CSI program, PASS recommends that 
the program be suspended until there can be an independent review of 
the program in order to ensure that it is being used properly and 
achieving intended results.
Voluntary Disclosure Reporting Program (VDRP)
    FAA management has allowed the culture at the agency to degenerate 
into one in which satisfying airlines has priority over aviation 
safety. In fact, FAA management is allowing airlines to use FAA safety 
programs to avoid enforcement action. The misuse of these partnership 
programs not only reduces the essential aviation safety inspector role 
to a mere nuisance, diminishing their credibility with the airline they 
are charged with overseeing, it forces inspectors to work in an 
environment where their expert warnings are often ignored or severely 
downgraded--a dangerously negligent approach to aviation safety.
    The Voluntary Disclosure Reporting Program (VDRP) allows 
certificate holders operating under Title 14 of the Code of Federal 
Regulations to disclose voluntarily to the FAA apparent violations of 
certain regulations. As a result of airlines self-disclosing a 
violation and presenting a plan for a ``comprehensive fix'' of the 
problem, entities will receive a letter of correction instead of a 
civil penalty. According to the FAA, this policy is intended to 
``encourage compliance with FAA regulations, foster safe operating 
practices, and promote the development of internal evaluation 
programs.'' \9\ However, in order for the VDRP to operate successfully, 
several steps must be rigorously enforced by the FAA, which is often 
not the case.
---------------------------------------------------------------------------
    \9\ FAA Order 8900.1--Flight Standards Information Management 
System (FSIMS), Volume 11: Flight Standards Programs, Chapter 1: 
Voluntary Disclosure Reporting Program.
---------------------------------------------------------------------------
    At a minimum, the FAA should enforce its requirement that the air 
carrier ``promptly'' disclose the violation upon its own detection and 
immediately terminate the improper conduct. According to the order, 
``In evaluating whether an apparent violation is covered by this 
policy, the responsible inspector will ensure . . . [the entity] has 
notified the FAA of the apparent violation immediately after detecting 
it before the agency has learned of it by other means'' \10\ (emphasis 
added). Furthermore, aside from specific exceptions, FAA policy states 
that the FAA ``will not forgo legal enforcement action if [the entity] 
informs the FAA of the apparent violation during, or in anticipation 
of, an FAA investigation/inspection or in association with an accident 
or incident.'' \11\
---------------------------------------------------------------------------
    \10\ Id.
    \11\ Id.
---------------------------------------------------------------------------
    The policy makes it clear that once an FAA safety inspector finds a 
safety violation, that discovery should result in an enforcement 
action--the airline is not supposed to be given a chance to self-
disclose at that point. If an inspector finds an apparent violation, it 
should be considered a significant event and should be treated 
accordingly. The important and safety-critical work of FAA safety 
inspectors must be taken seriously and their findings must be given 
proper attention and merit.
    Regardless of the explicit directions in the FAA policy, the 
intense focus of FAA managers on maintaining a positive relationship 
with the airlines is resulting in serious abuse of the VDRP. The IG has 
expressed belief that the FAA ``relies too heavily on self-disclosures 
and promotes a pattern of excessive leniency at the expense of 
effective oversight and appropriate enforcement.'' \12\ PASS has 
learned of many cases that validate this concern in which inspectors 
find safety violations but are being directed by their front-line 
managers to hold off on enforcement to allow the airline to self-
disclose the item. For example, in 2006, an FAA safety inspector 
assigned to conduct oversight of a major air carrier in the Southern 
region discovered problems when reviewing modifications made to a 
Boeing 737.\13\ The inspector discovered that the problems applied to 
several aircraft and promptly notified the principal inspector and 
operator. When following up on the incident the next week, the 
inspector discovered that the airline had been allowed to self-disclose 
the problem despite the FAA safety inspector discovering the problem 
first. According to inspectors in the field, this abuse of the self-
disclosure process occurs frequently, negating the purpose of the 
program and raising the chance that safety risks will not be captured 
appropriately.
---------------------------------------------------------------------------
    \12\ Department of Transportation Inspector General, Actions Needed 
to Strengthen FAA's Safety Oversight and Use of Partnership Programs, 
CC-2008-046 (Washington, D.C.: April 3, 2008), p. 3.
    \13\ Due to fear of retaliation, the inspector would not permit 
PASS to disclose the identity of the air carrier.
---------------------------------------------------------------------------
    Furthermore, the VDRP guidance does not penalize an airline for 
self-disclosing the same item repeatedly as long as it is determined 
that a ``comprehensive fix was satisfactorily completed and followed.'' 
\14\ While it is possible that a comprehensive fix was not successful, 
thus causing a repeat occurrence, this is something that should be 
determined prior to the case being considered closed. Allowing 
unlimited disclosure of the same issue further undermines the 
credibility of the program. In fact, the IG stated that ``a partnership 
program that does not ensure carriers correct underlying problems is 
less like to achieve safety benefits.'' Airlines are businesses with a 
focus on profit and, while safety is no doubt a priority, there must be 
government surveillance and accountability to ensure that profit does 
not overshadow the safe operation of the carrier.
---------------------------------------------------------------------------
    \14\ FAA Order 8900.1--Flight Standards Information Management 
System (FSIMS), Volume 11: Flight Standards Programs, Chapter 1: 
Voluntary Disclosure Reporting Program.
---------------------------------------------------------------------------
    PASS concurs with the IG's assessment that the FAA must implement a 
secondary review of self-disclosures before they are accepted and that 
guidance for the VDRP instruct the inspector to fully review the 
carrier's proposed solution for the reported problem and document that 
review prior to accepting the self-disclosure.\15\ In addition, PASS is 
concerned that the VDRP database is not being monitored on a local, 
regional or national level to identify trends that may impact several 
airlines. If this analysis is not being performed, PASS suggests that 
the FAA take action to ensure that the VDRP database is examined on an 
ongoing basis in order to identify and address widespread risks as well 
as determine whether the program is achieving the desired results.
---------------------------------------------------------------------------
    \15\ Department of Transportation Inspector General, Actions Needed 
to Strengthen FAA's Safety Oversight and Use of Partnership Programs, 
CC-2008-046 (Washington, D.C.: April 3, 2008), p. 21.
---------------------------------------------------------------------------
Oversight of Foreign Repair Stations
    Another problem on which this committee has focused attention is 
airlines increasing their reliance on outsourced maintenance work 
performed at facilities within this country and abroad. Whereas much of 
this work was once done at the air carrier's facility, according to the 
IG, air carriers' use of outsourced repair stations has grown from 37 
percent of air carriers' maintenance costs in 1996 to 62 percent in 
2005, or nearly $3.4 billion of the $5.5 billion spent on maintenance. 
During the first three quarters of 2006, the amount of outsourced 
maintenance had already increased to 64 percent.\16\
---------------------------------------------------------------------------
    \16\ Department of Transportation Inspector General, Aviation 
Safety: FAA's Oversight of Outsourced Maintenance Facilities, CC-2007-
035 (Washington, D.C.: March 29, 2007), p. 1.
---------------------------------------------------------------------------
    A large portion of this work is being performed at facilities in 
foreign locations, and many inspectors say that they are not confident 
with the level of oversight of foreign repair stations and that serious 
safety issues are not being addressed. The regulations governing 
foreign repair stations have also been called into question. For 
example, as opposed to domestic airline or repair station employees, 
workers at contract foreign repair stations are not required to pass 
drug and alcohol tests. There also continues to be major concerns 
regarding security at these facilities, with many of the repair 
stations lacking any security standards. If a foreign repair station 
wants to work on U.S.-registered aircraft or any aircraft that operate 
in this country, those repair stations should be required to meet the 
same safety standards as domestic repair stations.
    Another concern is that the FAA continues to expand the use of 
bilateral agreements with foreign countries to oversee repair of U.S. 
carriers. The Bilateral Aviation Safety Agreement (BASA) with 
Maintenance Implementation Procedures (MIPs) allows foreign authorities 
to provide oversight of the work performed at repair facilities without 
any involvement from FAA inspectors. This eliminates the need for the 
inspector to travel to the repair station at all and entrusts 
responsibility entirely to a foreign entity. According to the IG, 
however, foreign authorities do not provide the FAA with sufficient 
information on what was inspected, the problems discovered and how 
these problems were addressed. The IG has recently stated that despite 
some additional efforts, the concern remains that the ``FAA is still 
not regularly visiting the facilities in the countries where agreements 
exist with other aviation authorities.''  \17\ The IG cited an example 
in which FAA inspectors for one air carrier had not visited a major 
foreign engine repair facility even though the repair station had 
performed maintenance on 39 (74 percent) of the 53 engines repaired for 
the air carrier. Furthermore, FAA inspectors had not conducted any spot 
inspections of this facility in 5 years.\18\
---------------------------------------------------------------------------
    \17\ Id., p. 9.
    \18\ Id.
---------------------------------------------------------------------------
    In order to ensure that the work performed at foreign repair 
stations meets FAA and air carrier standards, PASS believes that all 
certificated foreign repair stations should be inspected at least twice 
a year by an FAA inspector and all workers working on U.S. aircraft 
should be drug and alcohol tested. In addition, the increasing use of 
foreign repair stations has been drawing even more attention to the 
inspector staffing problem. Clearly, the inspector workforce must be 
expanded in order to meet the demands required by work performed on 
U.S. aircraft overseas.
Use of Non-Certificated Repair Facilities
    With airlines increasing their use of outsourced maintenance work, 
there has been a significant increase in the use of non-certificated 
repair stations. ``Non-certificated'' means that the repair facility 
does not possess a certificate issued by the FAA to operate under 
Federal Aviation Regulation Part 145 and is therefore not subject to 
direct FAA oversight. A certificated repair station meets the standards 
as outlined in the Federal Aviation Regulation and is therefore subject 
to direct FAA oversight to ensure that it continues to meet those same 
standards. The differences in regulatory requirements and standards at 
the two facilities are extremely troubling. For example, in an FAA-
certificated repair station, it is required that there be designated 
supervisors and inspectors and a training program. These items are not 
required at non-certificated repair facilities.
    Effective oversight of non-certificated repair facilities gained 
attention in the aftermath of the January 2003 Air Midwest crash in 
Charlotte, N.C. The National Transportation Safety Board determined 
that incorrect rigging of the elevator system by a contractor 
contributed to the accident and pointed to ``lack of oversight'' by Air 
Midwest and the FAA. \19\ The airline contracted out the work to an 
FAA-certificated repair station, which then subcontracted to a non-
certificated repair facility. Under Federal regulations, the airline is 
ultimately responsible for ensuring that the work is performed in 
accordance with FAA standards and requirements.
---------------------------------------------------------------------------
    \19\ National Transportation Safety Board, Loss of Pitch Control 
During Takeoff, Air Midwest Flight 5481, Raytheon (Beechcraft) 1900D, 
N233YV, Charlotte, North Carolina, January 8, 2003, Aircraft Accident 
Report NTSB/AAR-04/01 (Washington, D.C.: 2004), p. x.
---------------------------------------------------------------------------
    According to the IG, the FAA does not know how many non-
certificated maintenance facilities air carriers currently use, but the 
IG identified ``over 1,400 non-certificated repair facilities 
performing maintenance and more than 100 of these facilities were 
located in foreign countries.'' \20\ The IG also discovered that there 
are no limitations to the amount of maintenance work non-certificated 
facilities can provide, and that these facilities are performing far 
more work than minor services, including much of the same type of work 
FAA-certificated repair stations perform, such as repairing parts used 
to measure airspeed, removing and replacing jet engines, and replacing 
flight control motors. Some of these non-certificated facilities are 
even performing critical preventative maintenance.
---------------------------------------------------------------------------
    \20\ Department of Transportation Inspector General, Aviation 
Safety: FAA's Oversight of Outsourced Maintenance Facilities, CC-2007-
035 (Washington, D.C.: March 29, 2007), p. 13.
---------------------------------------------------------------------------
    Despite the fact that these facilities are performing safety-
critical work, FAA oversight is practically nonexistent. In other 
words, these facilities are performing work pivotal to aviation safety 
with no guarantee that it is being done in line with FAA and air 
carrier standards. It is obvious that there must be changes made 
regarding air carriers' use of non-certificated repair facilities. As 
such, PASS believes that all air carrier maintenance work (substantial, 
regularly scheduled or required inspections items) should only be 
performed by an FAA-certificated repair station.
FAA Must Ensure Adequate Inspector Staffing
    PASS is extremely concerned about staffing of the FAA safety 
inspector workforce. Whereas decades ago, FAA safety inspectors were 
regularly on location performing visual inspections, the agency has 
undergone dramatic changes and inspectors now report spending more than 
70 percent of their time at their desks. The FAA has shifted its focus 
to a risk-based, data-driven system due to the decreasing number of FAA 
aviation safety inspectors. With the increased outsourcing of 
maintenance work in this country and abroad, growing number of aging 
aircraft, the emergence of new trends in aviation (such as very light 
jets, unmanned aircraft and regional carriers) and the expansion of the 
FAA's designee programs--all of which require additional inspector 
oversight--it is imperative that there are enough inspectors in place 
to monitor the safety of the system.
    Making this situation even worse is the fact that nearly half of 
the inspector workforce will be eligible to retire in the next 5 years 
and many areas are already severely understaffed. Considering the 
recent Southwest incident, it is even more critical that the FAA have 
enough inspectors to ensure proper identification of airline safety 
violations and adequate follow-up. Unfortunately, in its FY 2009 budget 
request, the FAA has not requested any funding to hire additional 
Flight Standards aviation safety inspectors. Since it is critical that 
there are enough inspectors in place to adequately oversee the growing 
industry and ensure the safety of the aviation system, sufficient funds 
must be authorized to hire more inspectors.
Conclusion and Recommendations
    Following the Southwest Airlines incident, the FAA, claiming that 
it was now ``wide awake,'' released a series of improvements to the 
agency's inspection program. The highlight of these improvements is the 
creation of the Safety Issues Reporting System (SIRS) to provide 
employees an ``additional mechanism to raise safety concerns if they 
feel they are not receiving the necessary airing or response from 
supervisory and management personnel.'' \21\ This hotline is in 
addition to hotlines already in existence that were used by FAA 
inspectors in the Southwest Airlines incident to no avail. Inspectors 
have told PASS that these hotlines serve no real purpose other than to 
bring negative attention to the inspector using the hotline. In fact, 
one inspector informed PASS that after not receiving an appropriate 
response from management, the inspector elevated concerns through one 
of these hotlines. The responsibility for responding to the hotline 
report was shifted through layers of management until it was directed 
back to the very same managers about whom the inspector had complained 
in the first place. The inspector, who did not conceal his identity 
when using the hotline, revealed that the problems never were 
adequately addressed.
---------------------------------------------------------------------------
    \21\ Federal Aviation Administration, ``FAA Announces Improvements 
to Inspection Program,'' April 2, 2008.
---------------------------------------------------------------------------
    Clearly, another hotline is not a solution to the pervasive 
problems at the FAA. The IG has stated that the FAA needs to make 
``immediate and comprehensive changes to its oversight of air 
carriers.'' \22\ While a hotline may be immediate, it is in no way 
comprehensive. Another hotline is nothing more than lip-service to a 
field of aviation experts attempting to raise aviation safety issues 
that require immediate attention. It may indeed be necessary to create 
another avenue through which inspectors can express concerns, but this 
plan cannot be successful if it is another FAA project. PASS believes 
that any such program must be independent of the FAA if it is to 
succeed.
---------------------------------------------------------------------------
    \22\ Department of Transportation Inspector General, Actions Needed 
to Strengthen FAA's Safety Oversight and Use of Partnership Programs, 
CC-2008-046 (Washington, D.C.: April 3, 2008), p. 16.
---------------------------------------------------------------------------
    In addition, there is no doubt that the relationship between the 
FAA and the airline industry needs to change to ensure safety issues 
are given appropriate attention. PASS agrees with the concept of 
rotating managers in order to prevent these types of ``cozy'' 
relationships from developing. Those with the ultimate responsibility 
for oversight of FAA safety inspectors and the carrier should be the 
group that is rotated among facilities. As such, PASS recommends that a 
plan be executed to rotate all first- and second-level managers on a 
regular basis. This rotation will help to discourage management from 
becoming too closely connected with the airlines. While this rotation 
may be a good start, PASS also concurs with the U.S. Office of Special 
Counsel in that since ``the culture of complacence and cover up goes 
very high in management circles'' at the FAA, there needs to be ``a 
serious discipline and shakeup of the FAA in order to send the proper 
message inside what appears to be a very insular organization . . . .'' 
\23\
---------------------------------------------------------------------------
    \23\ U.S. Office of Special Counsel, Statement of the Honorable 
Scott J. Bloch, Special Counsel, U.S. Office of Special Counsel 
(Washington, D.C.: April 3, 2008), pp. 6-7.
---------------------------------------------------------------------------
    According to the FAA's website, aviation safety inspectors are the 
``FAA's on-site detectives.'' \24\ While this statement was once true, 
the FAA has become an agency where a limited inspector workforce facing 
a constantly increasing workload is prevented from pursuing safety 
concerns by a management culture focused on pleasing the industry. The 
FAA's customers are the flying pubic, not the airlines, and its most 
critical role is to protect the safety of these customers. Safety is 
always the primary focus of the FAA safety inspector workforce--their 
contributions and the safety of the aviation system should never be 
anything but the agency's top priority as well.
---------------------------------------------------------------------------
    \24\ Federal Aviation Administration. Aviation Safety Inspectors 
[updated January 4, 2007; cited February 2008]. Available from 
www.faa.gov/about/office_org/headquarters_offices/ahr/jobs
_careers/occupations/av_safety_insp.

    Senator Rockefeller. Thank you.
    Mr. Barimo?

         STATEMENT OF BASIL J. BARIMO, VICE PRESIDENT,

              OPERATIONS AND SAFETY, AIR TRANSPORT

                  ASSOCIATION OF AMERICA, INC.

    Mr. Barimo. Good morning, Mr. Chairman, Senator Hutchison, 
members of the Committee. This morning's hearing is important 
and timely and it provides us with the opportunity to take 
stock of commercial aviation safety in the United States, and 
more specifically, it provides us the opportunity to review how 
we got here and to discuss how best to improve that remarkable 
safety record. Let me highlight a few basic considerations.
    First, the bedrock principle in aviation is safety first. 
Congress has said in the Federal aviation law that assigning, 
maintaining, and enhancing safety and security are the highest 
priorities in air commerce. That Congressional mandate says it 
all, and we are committed to doing our part to achieving it.
    Second, we did not get to where we are today by being 
lucky. We have worked very hard to achieve our safety record, 
which last year saw no fatal accidents in air carrier accidents 
in the United States. While we recognize clearly that FAA is 
the regulator and airlines are the regulated entity, we also 
recognize with equal clarity that aviation safety is a 
collaborative undertaking.
    Third, you never rest on your laurels in this business. The 
safety record of the Nation's airlines is so impressive because 
of the unrelenting commitment of everyone involved, Congress, 
the FAA, the NTSB, manufacturers, airports, maintenance 
organizations, the employees and their unions, and airlines, to 
improving civil aviation safety. That commitment has not 
flagged.
    I would like now to discuss where things stand in three key 
areas that the Subcommittee has identified: regulatory 
oversight, maintenance, and runway safety.
    The FAA's responsibility to regulate airlines to achieve 
the highest degree of safety, which Congress has mandated, has 
not diminished, nor has the airlines' responsibility to fulfill 
that mandate diminished. Both are immutable.
    What has changed, though, are the tools that are available 
and, I would emphasize, necessary to meet those 
responsibilities. Instead of being reactive and establishing 
safety goals based on the most recent accident or incident, the 
industry and FAA have learned to use the wealth of data from 
all stakeholders to guide the safety agenda so that not only 
existing, but potential risks are identified and solutions to 
them developed in the most effective way. FAA's ATOS system, we 
heard described earlier, embodies this principle, and we 
believe that the concept of ATOS is sound, although as the 
Inspector General has pointed out, some refinements are needed.
    This analytical and more predictive approach has paid 
tremendous dividends. It is the key to future safety 
improvements. Commercial aviation safety is a much more 
forward-looking endeavor today than in the past. Data in 
amounts and detail unimaginable a decade ago and collaborative 
risk analyses have become indispensable. Make no mistake. That 
does not mean that FAA inspectors should not be kicking the 
tires and touching metal. It means, however, that the historic 
means of regulatory oversight simply are not enough today.
    Airline maintenance issues have been front page news for 
the past few weeks, including today. Airline maintenance 
programs are carefully designed, comprehensive, and 
continuously refined. Today's headlines have not changed any of 
that. The maintenance system being scrutinized today has 
delivered unprecedented levels of mechanical reliability, which 
in turn contribute to overall safety. The chart in my written 
statement illustrates the exceptional performance of the Boeing 
fleet, and I will note that the Airbus fleet is comparable. The 
chart shows that regardless of where maintenance is done, it is 
being done and done well.
    But it is a complicated business and we are not perfect. As 
we have seen recently, tracking hundreds of thousands of 
individual maintenance tasks is challenging. Even though a 
recent FAA audit of AD compliance revealed a compliance rate of 
better than 99 percent, airlines are committed to further 
improving an already robust system. And this recent experience 
underscores airlines will ground aircraft when there is any 
doubt about a maintenance issue.
    Runway safety remains a high priority for the industry, but 
there is no single fix when it comes to eliminating runway 
incursions. The solution is a layered one that integrates 
technological advances, improved procedures, taxi and runway 
improvements, better understanding of human factors in 
performance. ADS-B mentioned earlier will ultimately provide 
much better situational awareness for flight crews whether in 
the air or on the ground.
    In the interim, we are pleased that FAA, working with 
airport operators, is deploying new systems like ASDE-X and 
AMASS and Runway Status Lights and adding perimeter taxiways, 
and all that, combined with heightened flight crew awareness 
and training, will certainly help reduce collision risks. We 
recognize, though, that this is an ongoing effort.
    In summary, we realize how unsettling the news about 
maintenance and regulatory oversight practices has been lately. 
There is no getting away from that. Whatever shortcomings may 
ultimately be identified in these episodes, the unchangeable 
reality is that airline maintenance and operation practices 
have produced the safest period of flying that our industry has 
ever experienced. In the coming weeks and months, we should 
prudently evaluate suggested changes to that system. Change can 
be very good, but change for its own sake rarely is. That is 
particularly so when it involves the safety of our customers 
and our crews.
    That concludes my statement. I am happy to answer your 
questions.
    [The prepared statement of Mr. Barimo follows:]

 Prepared Statement of Basil J. Barimo, Vice President, Operations and 
           Safety, Air Transport Association of America, Inc.
Introduction
    The Air Transport Association of America, Inc. (ATA), the trade 
association of the principal U.S. passenger and cargo airlines,\1\ 
appreciates the opportunity to submit these comments for the record on 
the state of aviation safety in the U.S. airline industry. ATA member 
airlines have a combined fleet of more than 4,400 airplanes and account 
for more than 90 percent of domestic passenger and cargo traffic 
carried annually by U.S. airlines.
---------------------------------------------------------------------------
    \1\ ABX Air; AirTran Airways; Alaska Airlines; American Airlines; 
ASTAR Air Cargo; Atlas Air; Continental Airlines; Delta Air Lines; 
Evergreen International Airlines; Federal Express Corp.; Hawaiian 
Airlines; JetBlue Airways; Midwest Airlines; Northwest Airlines; 
Southwest Airlines; United Airlines; UPS Airlines and US Airways.
---------------------------------------------------------------------------
    ATA was founded in 1936 by fledgling U.S. airlines for two 
fundamental reasons: to improve and promote safety within the industry 
and to advocate for a legal and regulatory environment that would allow 
the U.S. commercial airline industry to grow and prosper. What was true 
then is true today: Safety is the foundation of this industry. U.S. 
airlines will thrive only if the industry in fact is safe and only if 
the public recognizes and believes it is safe. For this reason, our 
members take their safety responsibilities very seriously. ``Safety 
first'' is more than just a catchphrase--it is the core principle of 
this industry.
Airlines Fuel Our Nation's Economy
    The U.S. airline industry is not simply an important sector of our 
national economy; its services fuel our entire economy. Air 
transportation is an indispensable element of America's infrastructure 
and our Nation's economic well-being. Individuals, businesses and 
communities depend on the national air transportation system. U.S. 
airlines transport more than 2.1 million passengers on a typical day 
and directly employ over one-half million persons to do so; they 
provide just-in-time cargo services; they are the backbone of the 
travel and tourism industry; and airlines link communities throughout 
our Nation and to the world.
    Moreover, the airline industry is the foundation of the commercial 
aviation sector, which is comprised of airlines, airports, 
manufacturers and associated vendors. According to the Federal Aviation 
Administration (FAA), U.S. commercial aviation ultimately drives $1.1 
trillion in U.S. economic activity and nearly 10 million U.S. jobs. By 
any measure, the U.S. airline industry is a valuable national asset and 
its continued economic health should be a matter of national concern.
Safety Above All Else
    The challenges facing the U.S. airline industry are widely known. 
Once lucrative international markets are softening, jet fuel prices are 
at an all-time high with no relief in sight and, by all accounts, the 
United States has entered an economic recession. Since Christmas Eve, 
five airlines have fallen victim to these challenging conditions. Yet 
despite entering this new era of volatility, airline safety has 
remained rock solid.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In 2007, Part 121 carriers transported 750 million passengers more 
than eight billion miles and logged 19 million flight hours on 11.4 
million flights. According to the NTSB, 2007 saw no passenger 
fatalities or major accidents. The trend continues in 2008 and without 
question, scheduled air service is incredibly safe and working hard to 
be even safer.
A Performance-Based, Data-Driven Approach
    While there are many reasons for the industry's excellent safety 
record, in our opinion two key developments stand out as having a 
significant positive impact. First, we have progressed from a 
prescriptive, conduct-based regulatory philosophy that focuses on what 
to do and how to do it, to one that looks to set performance standards 
first and the manner of achieving the desired performance second. This 
has shifted the focus to where it should be--on the safety objective, 
allowing carriers and the FAA to better define and implement 
appropriate procedures and requirements. Second, instead of being 
reactive and establishing safety goals based on the most recent 
accident or incident, the industry has learned to use the wealth of 
hard data accumulated by all stakeholders--FAA, NTSB, manufacturers and 
air carriers--to drive the safety agenda so that the most serious risks 
are identified and solutions developed in an orderly, efficient and 
effective manner. This data-driven, risk-assessment approach to safety 
has paid tremendous dividends already. It is the key to future safety 
improvements and continued accident prevention.
Voluntary Programs Are Raising the Bar
    FAA and airline safety programs reflect and implement the 
regulatory philosophy and data-driven approach to safety previously 
described. In particular, the development of voluntary programs that 
encourage the reporting of operational data that would otherwise be 
lost has expanded the data set and enhanced the value of the analytical 
products. Working with the FAA and other stakeholders, U.S. airlines 
have developed flight operational quality-assurance programs--known as 
FOQA programs,\2\ aviation safety action programs,\3\ voluntary 
disclosure programs \4\ and line operations safety audit programs.\5\ 
These programs have provided valuable data that have yielded insights 
into the precursors of accidents. FAA and the airlines have used this 
information to jointly identify and effectively mitigate risks that 
might otherwise have resulted in accidents. This view is shared not 
only by the airlines and FAA, but by independent safety experts 
worldwide including Flight Safety Foundation President and CEO William 
R. Voss. In a March 2008 statement, Mr. Voss states:
---------------------------------------------------------------------------
    \2\ FOQA programs involve the collection and analysis of data 
recorded in flight to improve the safety of flight operations, air 
traffic control procedures, and airport and aircraft design and 
maintenance.
    \3\ ASAP involves collection and analysis of safety concerns 
reported by employees.
    \4\ VDRP allows a certificate holder to disclose a case of 
noncompliance without facing a civil penalty, provided the entity 
promptly and comprehensively corrects the noncompliance.
    \5\ LOSA involves the collection of safety data through in-flight 
observations of flight crews by specialists; Airlines use this 
information to assess the effectiveness of their training programs.

        ``The commercial aviation system in the United States is the 
        safest in the world, and both the FAA and industry should be 
        justifiably proud of their record. As in any safety management 
        system, there is always room for continuous improvement, but we 
        cannot allow isolated breakdowns, which the FAA and industry 
        are moving swiftly to address, to ruin partnership programs 
        that have demonstrably contributed to aviation's sterling 
        safety record. Nor can we afford to dry up the free flow of 
        information that allows professionals to identify problems 
        before they become safety threats. We cannot create a wall 
        between the FAA and the airlines that will stop the flow of 
        information and set aviation safety back 20 years.'' \6\
---------------------------------------------------------------------------
    \6\ Flight Safety Foundation Press Release dated March 3, 2008.

    In fact, the DOT Inspector General recently testified as to the 
---------------------------------------------------------------------------
value of voluntary programs, stating that:

        ``Such programs (Voluntary Disclosure Reporting Program and 
        Aviation Safety Action Program), if properly implemented, can 
        add value by identifying issues that might not otherwise come 
        to light . . . We support the concept of self-disclosure 
        programs and recognize the challenge they present to FAA--
        carefully balancing a collaborative relationship with effective 
        oversight and appropriate enforcement actions.'' \7\
---------------------------------------------------------------------------
    \7\ Statement of the Honorable Calvin L. Scovel III, Inspector 
General, U.S. Department of Transportation before the House Committee 
on Transportation and Infrastructure, April 3, 2008.

    In addition to data-driven programs, aviation safety can be viewed 
as the cumulative outcome of numerous other activities by the FAA, 
NTSB, airlines and their employees, and airframe and engine 
manufacturers. The most obvious of these is the approval and 
surveillance by the FAA of air carrier training programs. Training 
programs for flight and cabin crews are critical to safe operations. 
Airlines employ a rigorous selection and training process that includes 
comprehensive initial and recurrent training. Most major airlines today 
utilize the Advanced Qualification Program, which enables each airline 
to tailor its curriculum to its unique operating environment and 
thereby maximize crew-member proficiency. We believe these and other 
similar programs will produce further improvements in aviation safety.
    One of the most important programs affecting safety has been the 
joint industry-government Commercial Aviation Safety Team (CAST). CAST 
was established in 1997 to develop a comprehensive strategy to identify 
and prioritize risks based on past accidents and then develop solutions 
to reduce commercial aviation fatalities in the United States. Using a 
data-driven process, the CAST initiative identifies accident precursors 
and contributing factors to ensure that resources are applied to 
improve safety where needed most and where most effective. Over time, 
CAST has successfully addressed several types of accidents, such as 
controlled flight into terrain, approach and landing accidents, runway 
incursions, maintenance management, icing and uncontained engine 
failures. As of 2007, 39 different safety enhancements had been 
accomplished, and 26 were underway. Through these 65 enhancements, the 
industry is approaching its goal of reducing the fatality risk by 80 
percent.
    But CAST doesn't stop there. While the original CAST approach 
looked back at accidents to better understand them and prevent future 
accidents, the next generation of CAST efforts will look forward to 
future risks. Compiling a wide range of safety indicators, CAST will 
identify risks to aviation safety before they result in accidents. The 
key to our success will be our ability to confidentially aggregate 
sensitive, industry-wide safety data and mine it for trends. The 
Aviation Safety Information Analysis and Sharing (ASIAS) system \8\ was 
launched in October 2007 to enable the exchange and analysis of safety 
data on a national level. We will continue to support the ASIAS system 
and look forward to the benefits it offers.
---------------------------------------------------------------------------
    \8\ The Federal Aviation Administration (FAA) developed the 
Aviation Safety Information Analysis and Sharing (ASIAS) system to 
enable users to perform integrated queries across multiple databases, 
search an extensive warehouse of safety data, and display pertinent 
elements in an array of useful formats.
---------------------------------------------------------------------------
    As noted, the CAST strategy is first and foremost data driven. It 
relies on comprehensive analysis of past accidents/incidents to 
identify accident precursors and then develop specific safety 
enhancements to address those precursors and related contributing 
factors. But the CAST process does not stop there. It is a fully 
integrated process that includes airlines, manufacturers, maintenance 
providers, commercial pilots, National Aeronautics and Space 
Administration (NASA) and other stakeholders, so that once the 
solutions have been identified, the affected parties implement the 
safety enhancements and track their implementation for effectiveness. 
Ultimately, the knowledge gained is used to continually improve not 
only the U.S. aviation system, but aviation safety worldwide. Canadian 
and European authorities also participate in CAST.
Current Safety Issues
    Current safety issues being addressed by our industry include 
runway safety, maintenance, fuel tank flammability, FAA oversight, air 
traffic controller staffing, operational errors and the safety of our 
employees.
    Runway Safety.\9\ Several high-profile events over the last 2 years 
have drawn attention to the issue of runway incursions, but runway 
safety has always been a high priority for the industry. For decades, 
airlines have recognized the challenges they face on the airport 
surface and have invested significant resources to ensure the safety of 
their passengers and crews. Unfortunately, there is no silver bullet 
when it comes to eliminating runway incursions. The solution is a 
layered one that integrates technological advances, better signage and 
markings, robust flight crew and ATC procedures and a better 
understanding of human factors and performance. ADS-B, a fundamental 
component of NextGen, will ultimately enable better situational 
awareness for flight crews, allowing them to see all traffic around 
them whether in the air or on the ground. Combining this real-time, 
highly accurate positional information with moving map displays will 
yield real safety benefits. In the interim, we are pleased that FAA is 
deploying several new systems designed to reduce the risk of runway 
incursions at our busiest airports. Enhanced automated surveillance 
tools like AMASS and ASDE-X, Runway Status Lights, perimeter taxiways, 
and EMAS, combined with heightened flight-crew awareness, streamlined 
taxi procedures and refined training, will help to reduce collision 
risk. We look forward to working with the FAA and airports to implement 
these new safety improvements.
---------------------------------------------------------------------------
    \9\ ATA testified on February 13, 2008, before the House Aviation 
Subcommittee on the issue of runway safety. Written testimony included 
details about the causes of runway incursions as well as specific 
actions taken and underway to reduce the risk of runway incursions. The 
testimony is available at www.airlines.org.
---------------------------------------------------------------------------
    In addition to runway incursions, the industry is focused intently 
on reducing the risk of runway excursions. ATA members, as well as 
pilot associations and the airport community, are actively 
participating in the recently formed Takeoff and Landing Distance 
Aviation Rulemaking Committee. The ARC will review current practices 
for determining runway distance needed under various conditions and 
revise the regulatory guidance accordingly.
    Maintenance. The recent FAA announcement of a large civil penalty 
against Southwest Airlines and the subsequent audit of Airworthiness 
Directive compliance has attracted significant attention to the subject 
of airline maintenance. Despite the isolated shortcomings highlighted, 
it is important to note that the U.S. commercial airline fleet is 
maintained to impeccable standards, which are reflected in mechanical 
reliability performance. As shown in the chart below for Boeing models 
(and noting that Airbus models perform comparably), airline maintenance 
programs are yielding unprecedented levels of mechanical reliability 
which, in turn, contribute to overall safety performance.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Effective and efficient maintenance programs play a central role in 
making air travel safe. Maintenance is a 24/7 function that requires 
careful organization, tight control, diligent oversight and robust 
quality assurance. Airlines have developed comprehensive--although not 
perfect--oversight systems to ensure that aircraft are maintained 
properly in accordance with FAA regulations and manufacturers' 
standards. As we have seen recently, tracking the accomplishment of 
hundreds of thousands of individual maintenance tasks is challenging. 
Even though a recent FAA audit of AD compliance revealed a compliance 
rate better than 99 percent, airlines are committed to further 
enhancements that will further improve an already robust system.
---------------------------------------------------------------------------
    \10\ Data reflects technical delays greater than 15 minutes for 
Boeing 717, 737, 747, 757, 767, 777, MD11, MD80 and DC 10 models.
---------------------------------------------------------------------------
    Beyond the scope and frequency of individual maintenance tasks is 
the contentious issue of who actually performs maintenance tasks and 
where those tasks are performed. Contract maintenance continues to be 
scrutinized with critics alleging that the practice is unsafe, yet the 
industry's safety record tells a different story. Repair stations 
(third-party maintenance providers certificated under Part 145) have 
and will continue to play a vital role in air carrier operations and 
enable U.S. airlines to compete effectively worldwide.
    Fuel Tank Flammability. After the tragic loss of TWA Flight 800 in 
1996, FAA initiated a multiyear research and development effort to 
address flammable vapors in fuel tanks. The effort produced a design 
that would reduce the amount of time that vapors are in a flammable 
state. The FAA proposed a regulation that would incorporate this new 
concept for commercial airliners, or other methods for preventing or 
mitigating fuel vapor explosions. The reduction concept does not 
diminish the need to eliminate ignition sources that could ignite the 
vapors. To prevent ignition sources, the FAA adopted sweeping 
regulations requiring improved design standards for fuel tank systems, 
reviews of existing systems with respect to the new standards, system 
modifications, specific operational procedures, and more exacting 
maintenance procedures. Industry continues to coordinate with the FAA 
and manufacturers as a stakeholder in developing these upgrades, which 
FAA has, since 1996, mandated through issuance of 170 Airworthiness 
Directives. Further, two ATA member airlines independently developed 
and gained FAA approval for a modification that may prove to be the 
single most progressive ignition-prevention measure developed to date. 
For both economic and safety reasons, airlines have, when practical, 
reduced their use of auxiliary power units while on the ground--a 
measure that can provide relatively modest reductions in the amount of 
time that vapors are flammable. Our studies indicate that a retrofit of 
currently available flammability reduction systems cannot be justified 
under government guidelines for rulemaking, and that actions taken to 
prevent ignition sources exceed FAA standards and are the most 
effective approach to mitigating fuel tank explosion risk.
    FAA Oversight. FAA Inspectors work where `the rubber meets the 
road' and are the central component of the FAA safety oversight system. 
They enforce regulations and standards concerning civil aviation 
safety, including the airworthiness of aircraft, the competence of 
personnel, and safety aspects of aviation facilities, equipment and 
procedures. The way in which they fulfill their mission continues to 
evolve with changes in oversight philosophy. FAA's risk-based Air 
Transport Oversight System (ATOS) leverages air carriers' internal 
oversight programs and advanced data-collection tools to create 
customized surveillance plans. Instead of searching randomly for 
deficiencies, FAA can efficiently identify and target potential areas 
of risk and work with the carrier to mitigate that risk. Make no 
mistake, ATOS does not preclude the need for FAA to conduct regular 
surveillance of air carrier operations. It is, however, one of many 
tools available to FAA and endorsed by the DOT Inspector General \11\ 
to ensure that the operations of certificate holders conform to Federal 
regulations.
---------------------------------------------------------------------------
    \11\ ``We have always supported the concept of risk-based oversight 
as the only way FAA will be able to effectively oversee a large and 
rapidly changing aviation industry.'' Statement of the Honorable Calvin 
L. Scovel III, Inspector General, U.S. Department of Transportation 
before the House Committee on Transportation and Infrastructure, April 
3, 2008.
---------------------------------------------------------------------------
    While ATOS remains a valuable component of FAA's oversight effort, 
airlines do not rely on ATOS to keep them safe. Airlines are 
responsible for ensuring that they operate safely and cannot delegate 
that responsibility.
    Air Traffic Controller Staffing. Air traffic controllers make 
today's world-class aviation system work. They struggle to move growing 
numbers of aircraft through our Nation's airspace without the benefits 
of state-of-the-art technologies. Forecasted demand from a broad range 
of users will exceed the capability of our system despite the best 
efforts of our skilled controller staff. Unfortunately, today's system 
is not scalable--adding more towers, TRACONs, or centers full of 
controllers will not work. We must provide today's controllers with 
tools that enable them to safely increase the number of aircraft that 
they manage at a given time.
    Operational Errors. Creating a safety culture that embraces 
voluntary reporting of safety information while effectively managing 
individual performance is challenging. The Air Traffic Safety Action 
Program (ATSAP), FAA's version of the ASAPs used so effectively within 
airlines, is a step in the right direction. We are optimistic that the 
ATSAP will generate valuable insight into the challenges air traffic 
controllers face and ultimately contribute to the safety and efficiency 
of the ATC system.
    Operational errors have long been a contentious issue for 
controllers and FAA management. A minimum separation limit for 
aircraft, coupled with punishment for even slight violations provides a 
disincentive for controllers to optimally space aircraft. On the 
contrary, controllers are incentivized to add a buffer to ensure that 
the limit is not violated. This wastes valuable airspace and reduces 
airport throughput. We are encouraged that FAA is changing their 
approach to aircraft separation by adopting the concept of proximity 
events. The proximity event approach establishes a window within which 
the controller keeps the aircraft. This approach gives the controller 
an optimal separation target along with a buffer ahead and behind the 
aircraft to absorb fluctuations in airspeed. We believe that this 
approach ensures continued safe separation of aircraft, optimizes 
airspace usage and will reduce the risk of operational errors.
    Employee Safety. Airlines continuously strive to make the work 
environment safer and more comfortable for employees, regardless of 
whether that environment is on the ground or in the air. Flight crews 
as well as passengers benefit from advancements in technology, such as 
the hospital-grade HEPA air filters and ozone converters now installed 
on most long-range aircraft, which improve cabin air quality. Better 
data about cosmic radiation provided by the FAA CARI-6 computer program 
allows flight crews to monitor their cumulative exposure to radiation 
and make changes where necessary to protect their health. A close 
partnership with the Centers for Disease Control and Prevention (CDC) 
has ensured that airlines can pass along to employees up-to-the-minute 
information on disease outbreaks and precautionary measures.
    Ramp employees face a myriad of threats as they load, service and 
move aircraft. ATA members collect and analyze detailed data related to 
employee injuries, as well as aircraft and equipment damage. This data-
based approach enables carriers to identify risks and take specific 
actions to mitigate those risks. ATA collaborates with other key 
stakeholders to lead industry-wide changes, such as publishing safety 
guidelines/best practices, redesigning ground support equipment to make 
it more user friendly, incorporating advancements in personal-
protection technologies, and establishing safety protocols for ramp 
personnel.
Conclusion
    Notwithstanding the challenging environment in which airlines 
operate, the U.S. airline industry has experienced the safest period in 
its history. While hearings like this allow us to proudly reflect on 
this accomplishment, we understand that we cannot become complacent and 
rest on our accomplishments. Aviation safety demands constant 
vigilance, review and improvement. For this reason, we will continue to 
work with the FAA, the NTSB and the many parties with a stake in the 
continued safety of our industry. ``Safety first'' will continue to be 
our core principle.

    Senator Rockefeller. Thank you very much.
    We do have 10 minutes left. So, Kay Bailey Hutchison and I 
have decided that we are going to give our opening statements, 
which will be brief. We will then have our votes, and we will 
come back loaded for bear.
    First of all, it was very interesting for me to hear the 
difference between the panelists. Everything is just wonderful 
from FAA's point of view. I have to point out that I assume 
that your testimony was vetted by OMB before you gave it.
    Mr. Sabatini. Yes, sir, it is.
    Senator Rockefeller. So that means that you are not 
speaking what you may think, but you are speaking what the 
administration wants you to say. I say that not to embarrass 
you or humiliate you, but simply to say this is what always 
goes on and it is important that people understand that.
    Mr. Sabatini. Well, if I may, Mr. Chairman, I believe what 
I said.
    Senator Rockefeller. Yes, I am sure.
    I also want to say that it is frustrating to me that during 
this time in which things, I think, have been spiraling 
downwards--I agree very much with you, Mr. Scovel and Mr. 
Chealander--that there remains this terrible tension between 
FAA and its unions. Neither side can put out enough press 
releases in order to downgrade the other more. Now, I have 
worked with lots of government agencies, but I have never seen 
anything close to this. One of our witnesses today has an 
upcoming contract, and yet, I cannot remember seeing that 
witness in my office, or in my staff's office or his 
predecessors in my office talking about some of the problems 
which he spoke about. This is not a way of functioning. If you 
want to deal with the Commerce Committee and the Aviation 
Subcommittee, you have got to do it straight up.
    So I think the Federal Aviation Administration's lax 
oversight of Southwest Airlines is terrible--and, as you 
indicated, now we have American Airlines and others laying off 
employees, canceling flights day after day after day. It is 
almost like we stopped reading the headlines except that it is 
a horrible situation. It is a perfectly dreadful situation. I 
think it is our job today to find out if these are just 
isolated incidents, as some at the FAA and Southwest contend, 
or part of a large, systemic problem facing both the agency and 
the industry.
    When it comes to safety of the air traveling public, the 
American people put their trust in you all. In recent weeks, I 
think that trust has been put to a severe test. I know it has 
in my case, with the disturbing reports surrounding the lack of 
FAA oversight with Southwest, all of these cancellations that 
are taking place by American and others, and the revelations 
involving the FAA's Southwest Regional office.
    Almost nightly there are news stories of major commercial 
airlines grounding hundreds of flights for maintenance 
inspections. All of a sudden, hundreds of flights. I do not 
know how you measure the damage caused to people with the 
inconvenience of you doing your work a little bit earlier so 
that this does not happen. But I know that you would come out 
on the losing side of that balance.
    Bottom line. Each passing day brings more questions and no 
answers. Despite the growing questions surrounding FAA's 
oversight of the airline industry--and excuse me for saying 
this, it is not meant to be political, it was probably true in 
the previous administration--the White House and the Department 
of Transportation remain unbelievably and inexplicably silent. 
Silent. They just leave it up to you to take the blame. The 
administration should be assembling a task force to investigate 
this issue. It should have done so weeks ago and make 
recommendations for improving aviation safety. But they do not 
seem to be interested.
    The FAA has taken some steps to rebuild the public's 
confidence in the Agency's core mission of maintaining the 
safety of the Nation's aviation system, and moving forward, the 
FAA needs to take a real good look at itself. The FAA is an 
agency spiraling downward and I think is losing the confidence 
of the American people and the Congress. So I think you have to 
take a look at yourself, and you have to figure out your 
external relationships with commercial air carriers and how 
that contributed to the current situation.
    Many, including myself, have long criticized the Agency for 
being too close to the industry it regulates, a point that Mr. 
Brantley made. It started in 1996 with the privatization of the 
Agency. Congress grudgingly accepted provisions that would 
allow the FAA to operate more like a business in the hope that 
it would cost less to compete and to operate.
    Well, the FAA is not a business. It is a government agency. 
The FAA does not provide commercial services. It provides 
public goods, which are air traffic control, aircraft 
certification, and safety oversight. We pay taxes for these 
services. You are not private. You are the result of our 
taxpayers' funds and, hopefully, our oversight.
    Clearly, it is time to start thinking about FAA 
differently. Toward that end, we need the FAA to operate as a 
most efficient and effective government agency. It is a subtle 
distinction but one that I think is incredibly and deeply 
important. Bringing about institutional change is never easy, 
but when you have crises or near crises facing us it is 
necessary. Mr. Sabatini talked about how everything was getting 
better on incursions. Then you should look at the last 6 
months, and you would find that incursion rates are headed 
right back up. So I do not have confidence in your analysis 
that everything is going well and you are striving for even 
higher achievements. I do not buy that for 1 second.
    The air traveling public wants solutions. They want to be 
reassured that our Nation's aviation system is still the safest 
in the world. No doubt, many of the witnesses will remind the 
Committee that there has not been a fatal airline accident in 
almost 2 years. This argument makes me mad because you have 
mentioned an over 99 percent rate. We are working hard toward 
that last 1 percent. No. You have got to get a 100 percent 
right. You have got to be 100 percent right every single day. 
And you say this is statistically the safest time to fly. Well, 
let us hope it stays that way.
    I have very serious concerns that there are an increasing 
number of safety challenges facing the FAA and the industry 
that, if left unaddressed, could lead to catastrophic 
accidents. Mr. Chealander mentioned this. For instance, the 
number of serious runway incursions remains unacceptably high, 
and they are trending in a troubling direction, i.e., 
downwards. We have all read and seen stories of near misses at 
our Nation's airports. Let us be honest. Had it not been for 
the quick thinking and actions of a few air traffic controllers 
and pilots, our Nation would have had one, if not several, 
major incidents claiming hundreds and hundreds of lives.
    So 99 percent does not impress me. Only 100 percent 
impresses me, and that is all you should be talking about.
    I do not mean to be dramatic. I am being long. I will, 
therefore, conclude my statement and turn to Kay Bailey 
Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    Let me say that I do think that things could be worse than 
they are right now. I do think things are bad. But worse would 
be if we had had a terrible accident and that is how all of 
this came to light. I am glad that it was not a terrible 
accident, but nevertheless, it has all come to light and I 
think it means all of us have to work together to make sure 
that the oversight is proper.
    I am looking at the cancellations of flights. I have 
certainly talked to the airlines that are canceling these 
flights. And I know they are doing it out of an abundance of 
caution and safety should be first. Nevertheless, the 
inconvenience to passengers has to be addressed very, very 
promptly, and when the safety inspections are made and it is 
safe, the airlines need to do everything in their power to help 
the passengers who have been stranded. And I have imparted that 
to them.
    So I think we are now looking at a couple of things. First 
of all, this is the Committee that has the capability to pass 
the FAA reauthorization bill. There are some very important 
parts of that bill that we need to have put in place. There are 
very tough negotiations not yet able to be had because there 
are such disagreements between the House and Senate, some 
disagreements between the Senate and the Senate, but mostly the 
House and the Senate.
    I know Senator Rockefeller and I have met with the Acting 
Administrator and with the Secretary of Transportation 
together. We are both committed to going forward on that bill. 
But we are not going to move forward on the bill if it is going 
to do more harm than good, and some of the House provisions in 
our opinion would make it worse than it is now to just extend 
it. So we will be grappling with that issue.
    When I was on the NTSB, the mission of the FAA was almost 
at cross purposes in some ways because it was the promotion of 
aviation as well as safety. That is no longer the case. Today 
it is a very clear mission of the FAA, and that is safety.
    I do not disagree with the concept of the voluntary coming 
forward approach rather than the sort of crime and punishment 
approach because I think in some ways it has worked well. 
However, it will only work well if there is a real safeguard in 
the system so that if there is a lessening of the companies' 
vigilance on safety, that that would be captured very quickly 
and we would be able to address it within the system, meaning 
the FAA would be able to address it within the system.
    So I think what I would be looking for from the FAA is that 
safeguard because I think having the collaborative culture has, 
in the main, been a good thing, and I think most companies 
realize that safety is in their best interest as well as in the 
public's best interest. So I think everyone has the same goal, 
but when you have a problem that we have seen happen just in 
the last few months come to light, then it is not just letting 
people come forward and be whistleblowers more readily--that is 
good--but we need something that catches it in the system 
earlier than that so that you would be able to detect if there 
was not a proper oversight.
    So I think that what I am going to ask and what I would 
like to hear from you is how you think we can address this 
issue. Mr. Brantley brought it out. I think everyone on the 
panel has acknowledged that we need to do more to assure that 
the system works, but let us look at the ways we can do it and 
see what the FAA is going to propose and move forward together. 
That would be my goal.
    So I thank all of you for coming, and I will look forward 
to having questions to see if we can do what is Congress' 
responsibility and then what the FAA proposes to do to police 
itself.
    Thank you.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Chairman Rockefeller, thank you for convening the hearing this 
morning. I would also like to welcome our panel. As a former Vice Chair 
of the NTSB, I intimately understand the crucial mission the FAA has in 
overseeing the Nation's airlines and aviation system. Aviation safety, 
and the public trust that goes with it, is the bedrock of our national 
aviation policy and we simply cannot allow for any degradation of 
service to the flying public.
    As we will hear from the FAA, the U.S. commercial aviation industry 
is experiencing the safest period in history. I commend the FAA and the 
air carriers for an excellent accident safety record, but there is 
still much room for improvement. Fortunately, the recent incidents have 
involved oversight issues, not accidents or the loss of life. Everyone 
here today knows the stakes, and the loss of even one life is too many. 
There is always room for improvement in aviation safety, and the FAA 
needs to take that message seriously.
    The collaborative safety system between the FAA and the air 
carriers has been effective; however, it is time for that system to 
evolve into the next generation of the Air Transportation Oversight 
System (ATOS). The FAA must make an earnest assessment and review of 
the safety foundation it has made and make some dramatic improvements 
no matter how difficult they may be.
    This Subcommittee understands there is a fine line between 
voluntary disclosure of safety violations and the effective use of 
traditional regulatory enforcement. I think the Subcommittee also 
understands the movement away from a simple ``blame and punishment'' 
culture to a no penalty collaborative culture has allowed for 
significant strides in aviation safety. However, the FAA needs to be 
vigilant and take quick and corrective action whenever necessary, and 
the agency needs to strengthen its current regulatory role and 
processes.
    Whether they are cultural, policy, or procedural changes, the FAA 
needs to be open to change and progress. I am increasingly concerned 
that the FAA will not learn from this situation and will maintain a 
``bunker mentality'' instead of making the safety changes necessary to 
improve the system. I believe the FAA needs to heed the recommendations 
made by the Inspector General and work with the IG to revamp and 
improve FAA safety policies.
    Finally, the recent incidents that occurred between the FAA and the 
noncompliant air carriers were an absolute failure on both the FAA and 
air carriers' part. Those directly responsible should be held 
accountable; such poor decisions by critical employees are not 
acceptable in today's safety culture. The recent incidents are an 
aviation safety wake-up call and everyone involved should use this 
opportunity to improve the operation of the aviation safety system.
    Thank you, Mr. Chairman; I look forward to the testimony and to 
working with you on these important issues.

    Senator Rockefeller. Thank you, Senator Hutchison.
    I think it would be wise if we went down and voted because 
by the time we get down there, it will be time. Let us come 
back, and then as I said, members will be given 7 or 8 minutes 
for questioning as opposed to 5, and they can include parts of 
their statements in their questioning if they so choose. So we 
stand in recess.
    Senator Stevens. Senator, I cannot come back. I would like 
to make a comment, if that is all right.
    Senator Rockefeller. Yes, please.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. I am a pilot and I have been a pilot for a 
long time. I think one of the things that the Inspector General 
and those who are checking these systems ought to examine is 
the updating of the diagnostic systems. For instance, I was 
just reminded of the number of times that we have gotten onto 
an airplane and oncoming pilots check the systems. The 
diagnostic system shows there is a light on, and everybody sits 
and waits for that to be checked. Why should that not be the 
job of the people who just left the airplane? The last pilot 
operating a plane ought to go through the systems and certify 
that there are no lights and no reason to have any maintenance.
    Second, it does seem to me that what we need to do is 
develop the concept that one of my friends told me about, and 
that is that we have this paradigm now in the United States 
that we manufacture to perfection. Motors are built to be 100 
percent perfect, and that is what the Chairman wants. But the 
way you check it is with diagnostic systems.
    You mentioned the Alaska Airline catastrophe off of 
California. I had friends on that plane. I went out to check 
that myself. The jackscrew was the responsible item, and that 
did not have a diagnostic system on it. There was no way for 
the pilot to tell that that was fouling up. In normal 
operation, it could foul up.
    Now, I do think what we ought to do in terms of this 
concept of the ongoing interest in the operation of our 
airlines is to assure that we do have the diagnostic systems 
that maintain the requirement for 100 percent perfection.
    We are all talking about inspections. Very plainly--and I 
apologize for it--I do not think that the inspections are what 
we ought to be concerned with. I think we ought to be concerned 
with the diagnostic systems being in place and everyone 
knowing, before they get on that airplane, that the systems 
show that the operation is perfect. It does seem to me we ought 
to catch up with technology and rely on technology a great deal 
more than we do today in this maintenance system.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    Good morning, my thanks to Senators Rockefeller and Hutchison for 
holding today's hearing on aviation safety. Given the recent high 
profile maintenance incidents and the continued economic woes of the 
airline industry, it has never been more crucial that our aviation 
safety system is operating at its highest level.
    The U.S. aviation safety system is a complex and redundant system 
that includes layers of coordination between many stakeholders 
including the FAA, air carriers, manufacturers, pilots, inspectors and 
controllers, amongst others. When the ``safety first'' culture breaks 
down, as in the Southwest Airlines incident, it is not acceptable.
    The FAA and all the aviation stakeholders involved have a 
professional and moral responsibility to maintain the utmost level of 
aviation safety. In Alaska, the aviation community has worked hard to 
create an ever improving culture of safety. As I have told this 
committee many times, Alaska is dependent on aviation more than any 
other state. With the vast spectrum and sheer amount of commercial, 
cargo, combi, and general aviation in our state, it has been a 
challenge to continually improve our accident rates.
    Through programs like Capstone, Alaska has been able to make 
dramatic strides in the area of aviation safety. The FAA and Alaska 
aviation industry stakeholders have set a long-term goal of equipping 
Alaska-based aircraft and installing ADS-B ground infrastructure to 
cover 90 percent of the operations in our state. By working 
collaboratively to reach that goal, the FAA estimates there will be a 
33 percent reduction in fatal accidents over the next 27 years.
    In addition, because Alaska has 6 times the number of pilots per 
capita compared to the Lower 48 and 14 times the number of aircraft, 
the aviation community initiated the medallion foundation. Medallion is 
a voluntary program for air carriers and pilots in Alaska that 
establishes safety standards that exceed regulatory requirements that 
help the Alaska aviation community detect safety trends or needs before 
actual accidents occur.
    The benefits of Capstone and Medallion would not have been realized 
without the collaboration between the Alaska aviation stakeholders and 
the FAA. The FAA can learn a valuable national lesson from the Alaska 
example.
    While the process of change is almost always difficult for both the 
FAA and the stakeholders involved, the safety benefits far outweigh the 
angst it took to get them. The FAA needs to take a renewed look at the 
way it implements its aviation safety partnership programs. FAA needs 
to thoroughly review the recommendations of the DOT IG and take quick 
corrective action to address the problems.
    Mr. Chairman, at this time, I also have a copy of prepared written 
testimony from the Alaska Air Carriers Association that I would like to 
submit for the formal record. I ask that it be included as part of 
today's hearing [published in the Appendix of this hearing record]. 
Thank you, I look forward to the testimony.

    Senator Rockefeller. Thank you, Senator Stevens.
    Senator Inouye has some comments.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. I thank you very much.
    Perfection may be impossible to achieve, but I agree with 
Chairman Rockefeller that it should be our goal, even knowing 
that perfection cannot be reached.
    Having said that, my first flight on an aircraft was in 
1944 in Italy. It was a thrilling experience. Since then I have 
done much flying. Two weeks ago, I received a certificate from 
one of the major airlines congratulating me on 3 million miles 
flying. And I suppose if you add the other airlines that I have 
flown on, together with military aircraft, it must have 
exceeded 4 million miles, close to 5 million.
    The only problem that I remember, during all these hours of 
flying, was landing in Honolulu from Los Angeles on two 
engines. Two engines were put to rest and we landed on two. It 
was a perfect landing. No one got hurt.
    I want to say that I have concluded that the safest way of 
traveling is by air. I think it is much safer than going from a 
residence to the shopping center or traveling to and from work.
    But having said that, I would hope that we will be able to 
do what the Chairman suggested and strive for better 
statistics, not 1 in 15 million flights, but maybe 1 in 50 
million flights.
    So with that, I would like to thank all of you for having 
done your best to give us safe travel. I have other concerns 
which I will ask when my time comes around.
    I do not know why, but I suppose it is culture and 
tradition that we frown upon snitches and whistleblowers. But 
in this day and age, whistleblowers play a very important role, 
and I hope you take them seriously.
    Thank you very much.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    The traveling public has been very fortunate that despite the 
recent publicized lapses in safety inspections and maintenance, we are 
currently experiencing the safest period in the history of aviation.
    Safety is the paramount consideration upon which our commercial 
aviation system was built. It should be the highest priority for air 
carriers and the core value for pilots. This single-minded focus on 
safety has served the U.S. aviation industry well. And it must always 
serve as the primary guide for all the decisions made by the FAA.
    Unfortunately, the aviation industry's safety reputation has been 
recently tarnished. Last year, this Committee's hearing on the FAA's 
oversight of repair stations raised significant questions about whether 
the agency has the ability and the resources necessary to keep track of 
the complex, global operations of many air carriers.
    Equally disturbing are the recent revelations that airlines have 
not complied with a number of Airworthiness Directives. Over the past 2 
days, American Airlines was forced to cancel approximately 2,100 
flights in order to re-inspect wiring on their MD-80 aircraft. As a 
result of the incidents reported over the last few months, I have 
serious concerns about the FAA's ability to maintain a vigilant safety 
oversight program.
    It is my hope that this hearing will provide us with a better 
understanding of how these recent lapses in safety occurred and what 
the FAA is doing about it. The Congress will not tolerate poor 
oversight of the safety of air travelers.
    As we proceed with the reauthorization of the FAA, we must ensure 
that Congress provides the agency with the resources necessary for 
effective oversight of our commercial aviation system. We must also 
consider what additional authorities may be necessary for the FAA to 
ensure that safety remains the hallmark of the U.S. aviation system.
    At the same time, the FAA must vigorously ensure that commercial 
air carriers are complying with their safety mandate in a thorough and 
timely manner.
    The traveling public may be assured that this Committee will 
continue to monitor the FAA's and the aviation industry's efforts to 
improve on its safety record.

    Senator Stevens. Mr. Chairman, we could do a lot if we just 
got that renewal of our aviation bill, the FAA bill out. I 
think some of the changes that are mandated in that bill would 
be very helpful in this discussion.
    The Chairman. Yes, sir.
    Senator Rockefeller. We stand in recess.
    [Recess.]
    Senator Rockefeller. Members are returning. We had three 
different votes, which is a lot of time, and we apologize.
    I am going to go ahead with my questioning. I will start 
with Mr. Chealander. I made the comment in my opening statement 
that I believe that the U.S. aviation system may be operating 
on borrowed time before another major accident. Do you share 
that view?
    Mr. Chealander. I will say that, as we pointed out in our 
testimony, the runway incursion issue is one of our hottest and 
major topics. I was asked a question just a day or so ago that 
goes along with your question, Senator, and that is, where do I 
expect the next major accident or incident to happen. And I 
believe it is in that area.
    We are working very hard on that. I would not say that we 
are all standing around waiting for the next shoe to drop, but 
we are working very hard on, as was pointed out earlier, the 
layers of safety and protection that we can recommend be put in 
place to stop those runway incursions from being a catastrophic 
accident. So runway incursion I believe is the direction that 
we are looking at the hardest to try to prevent an accident 
from happening.
    Senator Rockefeller. A question for Mr. Sabatini. You know, 
American Airlines canceled 1,000 yesterday, 900 today. I do not 
know what all the other scores are because I did not really 
have a chance to read the newspapers. But it is catastrophic 
economically, and it is an embarrassment to the Nation. I 
cannot imagine what people in Indonesia or Japan are thinking 
about this. Some people would say I do not care. I do care 
because it is who we are as a Nation, and it does not strike me 
as impressive right now.
    American Airlines recently grounded its fleet of MD-80 
aircraft for a second time. Other carriers have done the same 
thing to make sure they were in full compliance with FAA 
regulations. This has, obviously, caused a volcanic disruption 
which, in and of itself, is unthinkably uncouth.
    If the FAA had conducted more regular and frequent 
compliance audits on the industry, would you have caught these 
problems earlier, and had you caught them, would there have 
been less disruption for consumers?
    Mr. Sabatini. Mr. Chairman, that of course, would be a 
speculation on my part, what would have happened.
    But I can tell you, Mr. Chairman, that this is a system 
where I have 3,800 FAA inspectors and there are hundreds of 
thousands of safety professionals in the industry who have the 
primary responsibility of the compliance. Our oversight system 
is one of assuring compliance. We have put in place the ATOS 
system, which is far more robust in identifying these areas. We 
identified them as areas of risk. And we are at a point in time 
talking about----
    Senator Rockefeller. You are not answering my question. You 
do understand that. I did not ask you about what you are doing 
to prevent this from happening. I am asking if you had done a 
better job before, would some of these cancellations have been 
forestalled?
    Mr. Sabatini.--if this had been identified at another point 
in time, I believe the outcome would have been the same. The 
carrier was not in compliance with an Airworthiness Directive. 
We brought that to their attention, and they made the right 
decision. They put those aircraft on the ground until they 
could demonstrate compliance.
    Senator Rockefeller. Yes, they did, but the fault did not 
all lie with them. I would just say that for the moment.
    Let me go on as you defend the FAA. You have stated that 
Southwest improprieties and safety violations, including 
missing structural inspections on 46 jets, resulted from a 
``failure on the part of the leadership at the regional 
level.'' That makes me want to ask a couple questions.
    What responsibility do you bear? What responsibility does 
the senior leadership of the FAA bear for letting this 
situation spiral out of control? Is this one of those things 
like Abu Ghraib where you sort of get rid of the people way 
down low, but nobody up top ever has to be accountable? What 
responsibility do you bear for this?
    Mr. Sabatini. I am ultimately responsible for the safety 
organization, sir, and I am taking all the action that I need 
to take to address what we have learned. That was a failure, as 
I have said, on the part of people, people who failed to 
discharge their duties as they are required to on both the FAA 
side and on the air carrier side.
    Senator Rockefeller. So you are responsible, but you do not 
have to take responsibility. You do not have to be accountable. 
You are responsible, you do not have to be accountable.
    Mr. Sabatini. I am accountable, sir.
    Senator Rockefeller. Well, if you are accountable, you 
should have been howling in my office and Kay Bailey 
Hutchison's office some time ago. It just gets into that whole 
syndrome of where punishment should occur. If you want to 
punish somebody, you punish individuals at a lower level and 
always refer to a regional problem. It is never your fault. It 
is a regional problem. Well, the regional problem is, in fact, 
FAA headquarters because you control the region. So I am not 
satisfied by your answer, but I will go ahead.
    What responsibility do you and the senior leadership of the 
FAA bear for letting this situation spiral out of control?
    Mr. Sabatini. I am not sure exactly what it is that you 
want me to say, Mr. Chairman. I am accountable and I am 
responsible, and I take my responsibilities very seriously. I 
have been a safety professional my entire adult life. I have 
been in public service and have been dedicated to public 
service and I accept that responsibility. And I want you to 
know that I take what has happened very, very seriously. I am 
not a theorist about safety. I have started in this 
organization as an inspector. I know the business from the 
bottom up and I take what happened very, very seriously, sir. 
And I do hold myself accountable.
    Senator Rockefeller. Sometimes when people have been in 
office for a very long time and they have worked very hard to 
work their way up through the bureaucratic ranks so they can 
get to be in a position as high as you, they have to make 
certain compromises. I am not saying that you have, but I am, 
nevertheless, putting that out there.
    Why did other senior leadership in Washington not step in 
and address the severe management problems at the Southwest 
Region office?
    Mr. Sabatini. We did, immediately upon it coming to our 
attention. When we became aware of what was going on and the 
gravity of what was taking place, we took the action that we 
could take.
    Senator Rockefeller. Well, Mr. Stuckey was the head of the 
regional Flight Standards office who supervised government 
inspectors assigned to Southwest. He works for the FAA, for 
you. You have removed him from all safety oversight 
responsibilities and transferred him who knows where. Yet, he 
remains on the FAA's payroll. Now that may be because you have 
due process in terms of terminating employees. So I also assume 
that once this process is completed, he will no longer be an 
FAA employee. Am I correct?
    Mr. Sabatini. Well, let me make a statement, sir, that does 
not prejudice any future outcome. We are looking into this and 
investigating it thoroughly. I would not want to prejudice a 
future outcome. As you well know, in civil service, everyone 
has rights, and we have got to honor those rights.
    Senator Rockefeller. It sounds very much like the 
Department of Defense where nobody at the top ever gets fired. 
No three stars, no four stars, just people lower down.
    My follow up question, then I will stop. Will the FAA act 
against any other senior managers in headquarters office? And 
if not, why not? You are accountable. You are responsible.
    Mr. Sabatini. I will say again, sir, that we will examine 
everything surrounding this circumstance and we will take 
whatever action needs to be taken.
    Senator Rockefeller. Yes. I have been told to move on.
    Senator Hutchison?
    Senator Hutchison. I want to clarify with Mr. Sabatini that 
the regional administrator of the FAA who was responsible for 
the incident with Southwest Airlines has been removed. Is that 
correct?
    Mr. Sabatini. He has been relieved of the duties he had in 
the Flight Standards Division, which would be the ranking 
senior person in the Flight Standards Division in the Southwest 
Region.
    Senator Hutchison. Correct. And there would be nothing that 
you could do that would overcome your legal requirements to 
give that person all of the due process that the law requires, 
which is why you could not say he has been fired or would be 
fired at this time. Is that correct?
    Mr. Sabatini. That is correct.
    Senator Hutchison. Let me ask you this because I think, 
from what I have learned, that the issue is being addressed 
after the fact with what happened between Southwest and the 
FAA. However, I do want to ask you to be more specific--and 
others on the panel may come in on this--about what would be 
the trigger in the procedures that would allow this to come 
forward much earlier than it did with the Southwest case?
    Mr. Sabatini. Well, Senator Hutchison, you made a very 
important comment in your opening statement. We are here today 
not post-accident, but at a point in time where the system is 
incredibly safe. And I also said it is that tiny little 
percentage that keeps me awake at night continuing to look for 
remaining risks.
    This is an opportunity that has been brought to our 
attention and which was a failure and requires attention. What 
we have realized about what happened at Southwest is that 
people who have a safety concern did not have a direct 
mechanism to elevate it to people like myself.
    I am putting in place a system where it is going to be 
documented with a control number. Any safety professional 
working at any level in our organization can feel free, without 
fear of repercussion, to come forward and document what it is 
that they want to have discussed, entitled to resolution, and 
if not resolution, then it continues to be elevated all the way 
up to me. It will be subject to a review and we will hold 
people accountable that this process works. It will be 
finalized by the end of April, and it will guarantee that 
people in a safety culture like ours will be encouraged to come 
forward to express their concerns. We have an organization of 
very experienced people who have safety backgrounds and have 
differences of opinion. We need to be sure that we resolve 
those differences of opinion in a constructive manner because 
we want to better serve the public.
    Senator Hutchison. I want to bring up one other point, and 
then I want to ask anyone else on the panel who would wish to 
speak on this. At this point, is it correct that a person who 
works for a company cannot go into the FAA system and oversee 
or be in the process of overseeing that same company for a 
period of 2 years? Is that correct?
    Mr. Sabatini. That is true.
    Senator Hutchison. Do you think that there should be a 
complete ban on that capability, or do you think there should 
be a different number of years beyond which a person could then 
go back and work with the company from which they came and are 
now on the other side of the safety inspection process?
    Mr. Sabatini. We are going to initiate a rulemaking project 
which will address that, Senator. We are going to basically 
have a rule that will prevent a person who would be a former 
FAA person to be hired by an air carrier and then have direct 
interface with the FAA. We are looking for a 2-year moratorium 
before that person can have interaction with the FAA if they 
have been a former FAA employee.
    Senator Hutchison. But are you looking at keeping 2 years 
as the time?
    Mr. Sabatini. Well, currently people that we employ who 
come from the industry have a 2-year moratorium before they can 
have any direct oversight responsibility of a previous 
employer. We are going to basically just have a mirror image of 
that when someone leaves the FAA.
    Senator Hutchison. And you think 2 years is the right 
amount of years?
    Mr. Sabatini. I believe it is. I think history has shown 
that that seems to be an adequate period of time.
    Senator Hutchison. I would like to have any other views on 
that. Mr. Brantley or Mr. Chealander?
    Mr. Brantley. Senator, yes. We do believe that having the 
same cooling-off period going both ways would be appropriate, 
and something in the 2- to 3-year time-frame would be adequate, 
yes.
    Senator Hutchison. And do you think that a complete ban 
would be not reasonable, not realistic?
    Mr. Brantley. By complete, are you referring to no 
timeframe, just----
    Senator Hutchison. Just that a person who comes either way, 
industry to FAA or FAA to industry, that it would not be the 
same company ever. Is that not realistic?
    Mr. Brantley.--to be honest, I had not considered that, but 
that is certainly a possibility. It is not as if there are not 
plenty of other companies to work for or to do oversight on. So 
I would consider that and get back to you.
    Senator Hutchison. We would have to think it through, I 
know, but I just wondered if there are enough professionals 
capable of going either way. But I think we ought to look at--
if you are going to do a rulemaking at 2 years, I think we 
should certainly look at comments on whether that is the 
realistic time.
    Mr. Chealander, did you have anything to add to that?
    Mr. Chealander. Only that in my own instance, which is 
about all I can draw on because from the NTSB's purview, we do 
not investigate accidents and find whether a moratorium on 
employment was an issue or not, nor do we any data to identify 
that. But in my situation, for instance, coming from private 
industry, an airline in specific, and coming to the Federal 
Government and the NTSB, I had to sign an ethics agreement that 
recused me from that airline for ethical reasons. So I can just 
only cite the example of myself and use that in the thinking as 
to whether or not that is a good idea.
    Senator Hutchison. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Rockefeller. Thank you, Senator Hutchison.
    Senator Lautenberg actually came in. So, Senator, you are 
up.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks very much, Mr. Chairman. I would 
like to proceed first with my opening statement. As I 
understand it, we will have the questions included in the same 
timeframe. So I thank you, Mr. Chairman.
    Since we are now discussing some things that I have talked 
about on a continuing basis, I appreciate the fact that we have 
got a chance to review some of the specifics. Some of them are 
so current that it is hard to believe that, though the reasons 
for the problems were obvious, so little was done at the FAA.
    Every day more than 2 million men, women, and children 
board planes across America with a trust and an expectation 
that those airplanes in our aviation system are safe.
    And Mr. Sabatini, I refer to some part of your testimony. 
You said a total 1,451 commercial operations were conducted by 
Southwest Airlines in violation of the law, putting thousands 
of people at risk. And I want to keep that in mind as we go 
further because that issue does not square with the activities 
of FAA and with the safety inspectors.
    The Bush administration's FAA has abused trust by putting 
people's time and their safety at unnecessary risk. Now, some 
may argue, as you said, that this has been one of the safest 
periods in aviation history. Thank goodness it has happened, 
but it has happened in spite of FAA policies, not because of 
them.
    Far too often we have had to rely on quick actions of 
pilots, air traffic controllers, other professionals, even 
people who are working for the airlines on the ground to keep 
our families safe. We also had the benefit of some improved 
technology over these last years, some of it fairly small in 
terms of increments, but nevertheless important, and we have to 
continue that.
    But we have seen record flight delays, increases in near 
collisions on our runways, understaffing of controllers and 
safety inspectors.
    And the FAA has mismanaged the redesign of the New Jersey-
New York airspace, and that has led to planes flying in the 
wrong direction over a highly congested region, creating 
potential safety problems.
    Recently we have seen disturbing reports about safety 
inspection failures, letting planes filled with passengers take 
off with cracks in their hulls. These failures were not 
isolated to just a few planes, as now we all know. In fact, one 
airline alone missed hull inspections on 47 different 
airplanes.
    Similar inspection failures have caused five of our 
country's largest airlines to cancel thousands of flights, most 
recently American Airlines, with over 2,000 flights canceled. 
The pattern is not only disturbing, but obviously, it is 
unacceptable. There are several pending investigations of these 
failures, including ones by the Inspector General, the FBI, and 
Congress. And I look forward to hearing their findings and to 
acting upon them.
    Mr. Chairman, I regret to say that this is a management 
failure at the highest level of the FAA, but instead of 
providing innovative leadership and changing the way the agency 
does business, President Bush is opting for more of the same. 
And he has nominated Robert Sturgell, FAA's second in command 
for the past 5 years, to take over at the agency. Now, I do not 
get that, I must tell you. Mr. Sturgell has to be held 
accountable, not promoted.
    And these recent problems also make it clear that we must 
pass a reauthorization bill for the FAA pretty soon. Chairman 
Rockefeller has worked hard on this subcommittee and the full 
Commerce Committee to accomplish this goal, and I applaud your 
efforts. And I am going to do my part to get that bill passed, 
which I hope will include runway safety legislation that I have 
proposed for some time now, and will soon introduce.
    I thank you, Mr. Chairman, for the opportunity to move 
along with this.
    Since 2003, Mr. Sabatini, the FAA's customer service 
initiative has let airlines blow the whistle on who they think 
are bad inspectors, but it took until last week for the FAA to 
create a way for its own inspectors to blow the whistle on bad 
airlines. Why has the FAA been putting the concerns of the 
airlines ahead of the concerns of your own safety inspectors? I 
do not get it. Please tell me why.
    Mr. Sabatini. Mr. Chairman, our primary motivation here is 
the safety of the public. We absolutely know that the public is 
our customer.
    And I believe there is a misunderstanding about the 
customer service initiative. I will be very happy to change the 
name of this initiative, but it was primarily designed, sir, so 
that we could have consistency. What was known about our 
organization is that you could have one decision made on the 
East Coast, for example, and on the very same regulation, a 
different decision made on the West Coast. And we need to be 
consistent and standardized. And that is the purpose of that 
initiative, that any decision made anywhere in our organization 
by the FAA needs to be consistently applied everywhere 
throughout the system. It was not intended nor ever designed to 
allow people to complain to have inspectors removed from their 
areas of responsibility.
    Senator Lautenberg. Well, it certainly has not encouraged 
people to blow the whistle, people who have no funded interest 
in these things.
    Mr. Brantley, do you have a comment to add on this?
    Mr. Brantley. Yes, thank you, Senator. I think regardless 
of the intent when it was developed, the customer service 
initiative has become a bit of a weapon rather than a tool for 
inspectors. And I would be hard-pressed to imagine how any kind 
of good is coming out of it at this point because people do not 
trust it, the inspectors that should be able to rely on it to 
help them.
    I think one big thing not to overlook--and I think you 
alluded to it, Mr. Chairman--there is a culture, a philosophy 
within the FAA right now that encourages this type of activity. 
And until that changes, all the programs, all the hotlines in 
the world will not make a bit of difference. People right now 
feel they do not have the right to speak out, and if they do, 
they will be targeted. And adding another hotline will not help 
that.
    Senator Lautenberg. Thanks, Mr. Chairman.
    Senator Rockefeller. Thank you, Senator Lautenberg.
    Senator Klobuchar?
    Senator Klobuchar. Are we going every other one? I am glad 
to go. I just wondered if it was Senator Snowe's turn.
    Senator Rockefeller. Do you want to fight?
    [Laughter.]
    Senator Klobuchar. No. I think in the proper order that 
perhaps she would go.
    Senator Rockefeller. Were you here first?
    Senator Snowe. Yes.
    Senator Klobuchar. Yes.
    Senator Rockefeller. Then Senator Snowe. The Chairman made 
a mistake.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. I thank the Senator. See, there are 
senatorial courtesies. Thank you, Mr. Chairman.
    I want to thank you all for being here.
    This is, obviously, a crucial hearing with respect to 
aviation safety, without question. I think we are all stunned 
by, I think, the breath-taking lapses in leadership in 
enforcing safety standards within the FAA.
    We have had this debate within this committee, I well 
remember, 10 years ago after the crash of ValuJet. We debated 
and I was championing the initiative about eliminating the dual 
mandate within the FAA charter to promote the aviation 
industry, but at the same time, it had the responsibility for 
being dedicated to upholding safety standards. And it seemed to 
be conflicting and contradictory missions and responsibilities, 
and I wanted them to transferred to other offices in the 
Department of Transportation so that the FAA could singularly 
focus on the question of safety.
    And I see a systemic breakdown here, as I think has already 
been illustrated in Mr. Scovel's, Mr. Chealander's, Mr. 
Brantley's testimony. I know, Mr. Sabatini, you indicated in 
your remarks that this is an isolated incident, but I certainly 
do not see it that way.
    I think at the heart of the problem is the culture at FAA, 
and hearing here today not only that--the whole idea on 
Southwest and then it is Northwest--I mean, the breadth of the 
problem and the dimensions of the problem and the fact that 
inspectors were fearful bringing to superiors' attention, and 
when they did, they feared penalties. They had to resort to 
whistleblower protections in order to do their jobs. I mean, 
that is unconscionable.
    So there is a breakdown. There is a breakdown within FAA, 
and the sooner that you and all the leadership at FAA recognize 
that, the better off we will be and, more importantly, the 
passengers who are flying across this country by the millions.
    I mean, that is what we have to deal with now because it is 
clear that passenger safety was put at risk. I mean, when 46 
Southwest Airline aircraft were flying even in spite of failing 
inspections and even was encouraged to fly by a supervisor, I 
think it is an indication of the depth of the problem within 
FAA. It is not an isolated incident.
    And in looking at the Inspector General's testimony and 
report, it seems to me it speaks volumes about the actions that 
need to be taken to reverse the situation within FAA. I would 
like to hear from you today that you are going to embrace those 
recommendations and going to reverse the situation within FAA 
because if it is a collaborative, cozy relationship which, by 
all indications, it appears to be and that safety was placed 
secondary to all other issues, whether or not to allow airlines 
to avoid penalties through the self-disclosure mechanism, 
whether or not to rely on self-disclosure, knowing full well 
that the FAA inspectors were not conducting those inspections. 
When more than 70 percent, I think Mr. Brantley indicated, were 
sitting at their desks rather than conducting the inspections, 
we truly have a major problem.
    And I think more than anything else, in order to rectify a 
problem, you have got to recognize it, acknowledge it, 
understand it, and do something about it. And I hope that in 
this hearing and the other hearings that you are a part of, 
that you will express that because if you do not, then we are 
going to continue to have the problems that are pervading FAA 
today. And that is just the beginning.
    I mean, we not only have a lack of inspectors, but we are 
also deficient in air traffic controllers. I know that has 
happened in Maine, but it is throughout the country. Many of 
them are going to be retiring and they are retiring in 
unprecedented numbers, and many of the trainees are being 
rushed through a program without understanding the 
comprehensive dimensions of the air traffic control system. If 
you have a lack of inspectors, which has basically been the 
backdrop for the safety regime within the FAA, and now that we 
are learning all that we are currently, clearly this is a 
crisis.
    So I would like to have you explain to me exactly how FAA 
is going to go about redressing these issues and accepting the 
Inspector General's recommendations. What steps are going to be 
specifically taken in order to address that? Because clearly, 
it is a cultural problem. Before it was promoting the aviation 
industry and also doing the dual responsibility of upholding 
safety standards.
    Now it is the customer service initiative that, obviously, 
is complicating matters here. It is one thing to have a working 
relationship with the aviation industry, but you can never lose 
sight of your primary mission and what the intent and purpose 
is of the FAA and what your responsibilities are designed to do 
and to uphold, given what is at stake.
    So what do you intend to do within your position at FAA to 
embrace the Inspector General's report and all the other 
recommendations that have been made here today with respect to 
what has happened within the FAA?
    Mr. Sabatini. Thank you, Senator.
    I would first like to say that my organization is the 
largest it has ever been, thanks to the help of the Congress in 
getting us to the size of an organization that we are today. 
Over the past 3 years, we have added over 400 people, about 430 
people, to the FAA inspector ranks.
    And I will tell you that what we see in terms of real 
evidence of what failed, it happened in the Southwest Region. 
Please do not take that to mean that I am discounting that it 
could potentially be happening elsewhere. No one today has 
provided me the objective evidence to, in fact, say it has.
    But having said that, I can assure you that I am addressing 
this from a systems perspective. I am going to put in place, as 
I mentioned earlier, a process. Some may not like it in terms 
of referring to it as just another hotline. It is not. I will 
hold myself and every person in the management chain of command 
accountable to assure that we have an atmosphere where 
inspectors, safety professionals can come forward and air their 
differences and have it resolved. And I will have a process in 
place that will assure regular review of these situations that 
arise. They will have control numbers and they will be known to 
me.
    I will also put in place, as I have mentioned, actually 
requesting a project for rulemaking, and that is, requiring 
that inspectors who are hired by an air carrier cannot have 
direct interaction with the FAA for a 2-year period.
    And we are going to change how a voluntary safety 
disclosure can be given to the FAA. We are going to require 
that only people who are officials, high level officials, in 
the airline can be the persons who can come forward to the FAA 
and submit a self-disclosure that has not been previously known 
to the FAA. And on the FAA side, we are going to require that 
only an office manager can accept that. And those will be 
subjected to review.
    As far as Airworthiness Directives, which, as you well 
know, are very technical and complex engineering documents, 
what we have learned here is that there are technical 
interpretations, but you have got to be fully compliant. You 
cannot just be a little bit compliant. And that is basically 
what you are seeing here with carriers canceling some flights. 
They must be in compliance.
    So we are going to review that entire process and have 
greater involvement so that we do not face this kind of a 
situation again.
    Senator Snowe. May I ask, Mr. Scovel? Because I think this 
is a critical issue as to whether or not you feel that FAA is 
on track to adopt many of the recommendations that you have 
made and many of the issues that you have disclosed within your 
report because this wink and a nod by inspectors and 
supervisors within the FAA is clearly disturbing when it comes 
to what the potential down side would have been for placing 
people in life-threatening situations.
    Mr. Scovel. Thank you, Senator. I appreciate that you have 
clearly read our testimony and endorsed our recommendations. 
They were very carefully planned as a ``road map'' for FAA to 
improve safety oversight. We believe the Agency can do so, but 
it requires will, and we have seen on too many occasions, as 
you just put it, a wink and a nod from FAA instead of a 
demonstration of true will.
    My testimony references a couple of our reports that 
examined the ATOS system and its nationwide implementation. In 
2002, we reported that CMOs were inconsistently applying the 
ATOS system across the country. We recommended that FAA provide 
stronger national oversight and implementation and we were 
assured in 2002 that the newly appointed Flight Standards 
Division Director would undertake that responsibility. It did 
not happen.
    In 2005, we again examined the ATOS system and found that 
26 percent of key inspections were not conducted and that half 
of those were in risk areas. Our recommendation was the same as 
in 2002: FAA needs to provide national oversight and should not 
push it down to the region or decentralize it to autonomous 
CMO's. Instead, FAA should bring it up to the national level 
and exercise some control. That recommendation from 2005 
remains open.
    Had FAA implemented our recommendations from 2002 and 2005, 
it is possible that we would not be here today because 
Southwest's AD compliance program would have been included in a 
robust national oversight program to help FAA follow its own 
procedures with regard to ATOS.
    Senator Snowe. Thank you, Mr. Chairman, and thank you.
    Senator Rockefeller. Thank you, Senator Snowe.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Mr. Chairman.
    This hearing comes at a critical time for the FAA with the 
recent GAO report that revealed that air travelers really do 
face a high risk of catastrophic collision on U.S. airport 
runways. It highlighted the malfunctioning technology. It 
highlighted the issues with the FAA, as well as overworked air 
traffic controllers.
    On top of the study, in recent weeks we have learned of 
aircraft skidding off of runways and crossed wire sections and 
pieces of airplanes falling off in mid-air.
    Most recently we learned of the Southwest issue with nearly 
50 planes in need of required inspections for fuselage cracks.
    And just yesterday, American Airlines grounded 1,000 
planes, and today they have canceled more than 900 additional 
planes. All of this in order to double back and conduct 
inspections that should have been done as a matter of routine.
    The disclosure of these safety lapses and the thousands of 
flight cancellations--you just turn on any news program today 
and you see the people stranded there--leads to questions about 
the current inspection policy.
    Now, as I understand it, this voluntary inspection policy 
has some merit, but it was designed to go hand in hand with 
rigorous enforcement. Unfortunately, in recent weeks we have 
heard, as Mr. Scovel described it, of an overly collaborative 
or, some might say, cozy relationship between the inspectors 
and those that they are supposed to enforce the law against. 
And to some inspectors' views, the FAA considered these 
airlines to be their customers. And I think one underlying 
principle that has to be clear here is the American public is 
the customer and not the airlines.
    So with that in mind, one of the things I wanted to know 
from you, Mr. Sabatini, is do you think it is time for some 
soul-searching like we had after some of the crashes in the 
mid-1990s to make some changes?
    Mr. Sabatini. The safety model is always subject to review, 
and it is an ongoing 24/7/365 activity not just by the FAA but 
the other safety professionals in the industry. And I want to 
make it clear we know that the public is our customer and that 
safety of that flying public is what we are addressing each and 
every day.
    And if you take a look at what happened since 1997, we have 
significantly reduced the accident rate to where we are today. 
And again, that is not to rest on our laurels. It is just that 
you have to know history to understand where you are going into 
the future, and the safety model is a very good model. Can it 
be improved? It absolutely can. I take this as an opportunity 
to learn more, and we are taking steps.
    And I would like to address what the Inspector General 
said. He has proposed certain initiatives to undertake. We are 
undertaking most of those, and I would also like to, for the 
record, say that we have made a change in one of those 
recommendations that were brought to our attention in 2002 and 
2005.
    Senator Klobuchar. But I think Mr. Scovel's point was--I do 
not want to put words in his mouth--that some of these 
recommendations were made before. They were not followed. I 
guess I would ask Mr. Scovel. You heard what Mr. Sabatini said. 
I went through all of your recommendations. One was that there 
should be a cooling-off period. Do you think that his proposal 
addresses that?
    Mr. Scovel. It will. Of course, we will need to examine the 
details. We think it is the key one because, again, it comes 
straight from the Southwest incident, in which an FAA inspector 
went to work for the airline he used to oversee in September 
2006. Shortly after that, there were AD overflights or 
violations reported to FAA under the Voluntary Disclosure 
Reporting Program.
    Senator Klobuchar. And how about this idea that you rotate 
where the inspectors are? Do you think Mr. Sabatini has 
addressed this?
    Mr. Scovel. We intend to work that out.
    Senator Klobuchar. So he has not addressed that yet.
    Mr. Scovel. We have discussed it. In fact, he and I have 
talked on the telephone at least twice in the last week since 
our appearance together over on the House side. We understand 
that there are union concerns and contract concerns with FAA 
when it comes to their inspectors.
    Senator Klobuchar. One of the things that I have heard 
about is this gaming of the inspection process. For instance, 
the FAA may tell the airline on Monday they are going to 
inspect it on Wednesday, and the airline then discloses its 
safety problems on Tuesday. And the airline then avoids the 
penalty under the Voluntary Disclosure Reporting Program.
    Do you see this as a problem? I guess I would like both of 
you to address that.
    Mr. Scovel. I can say that there is certainly the 
appearance of that at Southwest. We have not been able to 
determine that exact sequence. Customarily, I know that.
    Senator Klobuchar. But if it was occurring, would you see 
that as a problem?
    Mr. Scovel. Absolutely.
    Senator Klobuchar. Mr. Sabatini?
    Mr. Sabatini. If that was occurring, I would absolutely 
agree with the Inspector General. That is a problem. But the 
guidance is very clear, and we are going to reinforce that 
guidance that that is absolutely unacceptable.
    Senator Klobuchar. Another issue that has come up is that 
under the Voluntary Disclosure Reporting Program, airlines are 
not penalized for self-disclosing the same item repeatedly as 
long as it is determined that a comprehensive fix was 
satisfactorily completed and followed.
    To what extent do the airlines repeatedly disclose the same 
safety problem under the Voluntary Disclosure Reporting 
Program? In other words, does this allowance for the disclosure 
of repeated safety problems without penalty effectively 
encourage airlines to address the underlying safety problem? 
Mr. Scovel, first.
    Mr. Scovel. Yes, that certainly is a problem, as 
highlighted by the events at Southwest. We have not had an 
opportunity to examine the rest of the industry. We are 
anticipating a request from the House Transportation and 
Infrastructure Committee to do exactly that.
    In taking Southwest as a case study, however, we had eight 
violations of four ADs since December of 2006. Had there been 
comprehensive fixes to the entire AD compliance system within 
Southwest, there may not have been future AD violations 
including the one in March that brings us here today.
    Senator Klobuchar. Mr. Sabatini?
    Mr. Sabatini. Let me say that what happened in Southwest 
causes me to be outraged. I am absolutely outraged.
    Senator Klobuchar. But do you see it as an individual 
problem, or do you see it as systemic when you know that 
American Airlines has now grounded almost 2,000 flights? Is it 
not more than just one incident, but a systemic problem with 
the way the system is working?
    Mr. Sabatini. Well, the issue with American is not a 
voluntary disclosure. That was a finding by our own inspectors. 
But I would agree this is not what was intended, and I do not 
have any evidence that it is happening on a widespread basis. 
But having said that, we are going to take steps to make 
certain that that does not become a widespread circumstance.
    Senator Klobuchar. Thank you very much.
    Senator Rockefeller. I should be calling on Senator 
McCaskill, but I have to leave and Chairman Klobuchar will be 
running the deal.
    Senator Klobuchar. Now I am in real trouble.
    That is what I get for getting here late.
    Senator Rockefeller. Three points to make.
    The NTSB has 400 open recommendations that the FAA has not 
acted on. Comment?
    Mr. Sabatini. I will have to review that data, Mr. 
Chairman.
    Senator Rockefeller. Yes, I think you will.
    Second, you sort of credited yourself with getting more 
money into the FAA system. You did not do that. We did that. 
The President never requested it. The Congress injected that 
money. Keep that clear in your mind.
    Mr. Sabatini. I believe I acknowledged that.
    Senator Rockefeller. No. I do not think you did. Well, so 
be it. It is for the record. We did that.
    That is the whole pattern--I could ask you how many times 
has Mary Peters gone to the President of the United States to 
protest certain things. Why was there not any Presidential 
interest in all of this that is going on, except as exercised 
through the FAA, which some of us seem to be a little bit 
skeptical about?
    Third, this will seem like a self-serving point, and I 
therefore apologize. I believe that in big organizations--I 
believe this violently in the Department of Defense, and I am 
beginning to believe it in the FAA--that sometimes you have got 
to fire people to make a point. And I am going to give you two 
examples.
    I was a Governor for 8 years in West Virginia and I had a 
very good head of a department. He was doing a wonderful job. 
And he did something which was probably not criminal, but he 
went out hunting in Wyoming with a group of people who 
represented groups over which he had oversight jurisdiction and 
control. I fired him. I fired him in Wyoming. And nothing like 
that ever happened again.
    Second, I was president of a college for almost 4 years, a 
really good college. It was a private college in West Virginia. 
But everybody was afraid to dismiss students that were 
nonperforming or had sort of racial preconceptions that were 
not helpful to the nature of the institution. And I very 
quietly over a period of time did homework with my team, and 1 
day we dismissed 60 students, which was I think about 5 percent 
of the student body. The next day everybody was at their work 
stations teaching math, learning English, learning everything 
else at 200 percent of the intensity of the day before. They 
were relieved because somebody had put down a marker. I just 
want to leave that thought.
    I yield now to, well, the chairman, Senator Klobuchar.
    Senator Klobuchar [presiding]. Senator McCaskill?

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. I have two areas I want to cover. One is 
to follow up on what the Chairman talked about in terms of 
accountability, and the second is foreign repair stations.
    The head of the Office of Special Counsel, who represents 
Federal whistleblowers, has given a very damning indictment of 
the FAA in terms of accountability. And I want to read for the 
record what the Office of Special Counsel testified to in a 
hearing in the House. ``FAA lied''--no sugar coating here. 
``FAA lied to OSC and the Inspector General in the 2004-2005 
investigation, and during this new one, they disregard the 
seriousness of the charges that operational error numbers were 
lowered by covering them up and blaming the pilots instead. The 
more things change, the more they stay the same in FAA.''
    Also, the Special Counsel said, ``The culture of 
complacence and coverup goes very high in management circles.'' 
A serious discipline and shakeup of the FAA, in order to send a 
proper message inside what appears to be a very insular 
organization.
    Now, I have got to tell you that is an amazing testimony. 
That is amazing testimony, that the Office of Special Counsel 
has said that FAA lied. And what I would like someone to say to 
me today is that someone is going to be fired for lying to the 
OSC and to the Inspector General. Will anyone be fired for 
lying, or do you disagree that someone lied?
    Mr. Sabatini. Well, the Special Counsel has not brought any 
information to me personally about anyone lying. Certainly if 
someone lied, we would take the appropriate action.
    Senator McCaskill. Well, this testimony was given on April 
3rd. Now if I were in your position, Mr. Sabatini, and somebody 
with this job came in front of the House and said this about my 
agency, I would be asking them who lied. Have you asked them 
who lied?
    Mr. Scovel. Senator, if I may shed some light on that 
question. The head of Special Counsel, when he was testifying, 
was referring first to an investigation conducted by my office. 
We were referred to the case by the Secretary on a referral to 
her from the Office of Special Counsel. It had to do with 
operational errors at the Dallas-Fort Worth TRACON.
    Subsequent to that, there has been a renewal of problems 
within the same facility. We are now completing our 
investigation on that. I do not know that Mr. Sabatini has 
knowledge of the findings of our current investigation, and 
because it is ongoing I am unable at this point, to comment on 
the record.
    Senator McCaskill. I think you understand my concern, Mr. 
Scovel, that we would have someone in this position say to 
Congress that someone is lying in the investigation and 
immediately--I mean, this is pretty--that does not happen very 
often.
    Mr. Scovel. It certainly does not.
    Senator McCaskill. And for someone to make that statement, 
especially someone in this job, I think is something that 
everyone should react to. You talk about the red lights 
flashing and the sirens at full bore, it seems to me this is 
the moment that there needs to be a sense of urgency about 
accountability. And I wanted to begin with that.
    Let me ask you, Mr. Sabatini, can someone explain to me why 
certification of a repair facility is a valuable thing?
    Mr. Sabatini. Well, for many reasons. One, it requires that 
for people who apply for a repair station authorization, 
certification demonstrates that they have the competence and 
the qualifications, the facilities, the housing, et cetera to 
perform the work that they are going to perform.
    Senator McCaskill. And I am assuming the government incurs 
expenses in terms of the certification process and the 
oversight of the certification process.
    Mr. Sabatini. Yes, we do.
    Senator McCaskill. But yet, we do not require people to use 
FAA certified facilities.
    Mr. Sabatini. Well, an air carrier is going to either 
perform the work itself or it can require or engage with 
another facility like a repair station that is authorized to 
perform that work.
    Senator McCaskill. But not certified.
    Mr. Sabatini. An air carrier must deal with a certificated 
entity to have maintenance performed on its aircraft.
    Senator McCaskill. Well, you are aware of all the reports 
that have been done about foreign repair stations and the lack 
of certification thereof and the problems associated with those 
foreign repair stations, I assume.
    Mr. Sabatini. Well, yes, I am.
    Senator McCaskill. So what I am trying to get at is if 
certification is important and if the American taxpayers are 
spending money to get facilities certified, what is the point 
if you do not need to? I mean, why do it? Why do we not just do 
away with certification of repair facilities unless we are 
going to require the same standards of all the repair 
facilities?
    Mr. Sabatini. Well, certification is required for many 
reasons, one of which I stated. If an air carrier is traveling 
abroad--and certainly aircraft are global by their very 
nature--we have a requirement that any air carrier can only 
have repairs done or maintenance performed on its aircraft by 
an authorized repair station.
    If I may, what I think you are addressing is downstream, 
can a repair station contract out with an entity that is not 
necessarily certified by the FAA? And the answer to that is 
yes. However, that repair station or that air carrier that 
might have work outsourced to one of those entities, must 
assure that that work is done under the quality control system 
of the repair station or the air carrier. And we hold the 
repair station and the air carrier accountable to that.
    Senator McCaskill. Well, my understanding is--and correct 
me if I am wrong--that most major airlines in this country are 
having work done at foreign repair stations and that there is 
no requirement that those foreign repair stations be certified 
and that reports have indicated that although one person is 
required to be on site and know what needs to be done, a lot of 
the checking is being done by phone, that there is never an FAA 
inspector on site.
    I am just trying to figure out how many people are lined up 
wanting to be certified that we have not certified. Are there a 
number of foreign repair stations that have requested 
certification that we have not certified?
    Mr. Sabatini. Yes, there are. I do not have that number 
readily available, but I can tell you that there are applicants 
at different locations where we have FAA inspectors in-country 
in foreign locations that have a pending list.
    Senator McCaskill. OK. This is the second hearing where I 
have requested how many pending requests for certification does 
the FAA currently have, and your agency got this question 
yesterday. Your agency got it at a previous hearing.
    Should it worry me that nobody can give me the number of 
facilities that want to be certified that are waiting to be 
certified and cannot be certified? Should that concern me that 
nobody can come up with that number?
    Mr. Sabatini. Well, I can get you that number, Senator.
    Senator McCaskill. OK. I hope you can. I am a little 
skeptical at this point because I have been talking about this 
for a while now, and I have not yet got any sense of urgency 
from the FAA that you are concerned.
    As you know, they found a member of Al Qaeda working at a 
repair facility in Singapore. As you know, they had access 
issues that were cited both by IG's and GAO about access to 
facilities in terms of gaps in fencing, a lack of background 
checks. Then you have got the whole additional problem that the 
outsourcing of labor to foreign repair stations, those that are 
certified--the costs of that are being borne by the taxpayer.
    So I do not begrudge companies for a lower labor cost by 
going outside of the country, but I do begrudge taxpayers 
underwriting it. And I have asked for those numbers repeatedly. 
How much are taxpayers paying to help these companies have 
their airplanes worked on in other countries? If you can assist 
me in getting that information, I would be greatly 
appreciative.
    Mr. Sabatini. Well, Senator, I am actively engaged in 
addressing that question you raised last time, and I can tell 
you that we are actively reviewing how we assess foreign 
applicants for certification. So I will be able to give you 
that information--just give me a little bit more time, but I 
can assure you, Senator, we are actively engaged in looking at 
that.
    Senator McCaskill. I think we need to keep a central list, 
do you not?
    Mr. Sabatini. A pending list?
    Senator McCaskill. Yes. I mean, should you not be able to 
say how many people want to be certified that we have not 
certified? This is not a hard question.
    Mr. Sabatini. Well, you know, I will go back about 10 years 
when we started into basically certifying foreign repair 
stations. We were told by the Congress not to certify any more 
repair stations than we can properly surveil.
    So an example from the pending list is an applicant who is 
not a threat to safety. It is an applicant who is waiting to be 
certified as a repair station. So the pending list does exist. 
I do not believe we could ever eliminate that pending list. We 
simply do not have the numbers of people----
    Senator McCaskill. That is what I thought. So it is a 
matter of resources. It is a matter that we do not have enough 
inspectors to actually send to all these certified facilities.
    Mr. Sabatini.--well, we have them today in Singapore, in 
Frankfurt, in London, and we have a small group in Beijing, and 
we are adding people there. We have added 10 people in 
Frankfurt and 6 people in Singapore and 2 in Beijing. And I 
would tell you, you could give me a 1,000 people. There will 
always be a pending list, and we will not allow--an inspector 
to be responsible for any particular group or number of 
certificates than they can properly and adequately surveil.
    Senator McCaskill. I think that is a great position to 
take, and I appreciate it. I think it is the right position. 
But I am very confused that no harm, no foul if you use a non-
certified facility. So it is like we are saying we do not have 
enough people to really look at all these facilities, but that 
is OK. You can go to one that is not certified. It seems to me 
that is kind of counterproductive.
    Mr. Sabatini. Well, for clarity, those people who are on 
the pending list are not performing any repair station 
activity. That would be contrary to our rules, and we would not 
permit that. For example, a repair station or an air carrier 
can go to an entity that specializes in plating of blades or 
welding, which does not necessarily require FAA certification. 
But that air carrier or that repair station is responsible for 
assuring that the work that is done is done in accordance with 
the standard for which we apply and hold that entity, the air 
carrier or the repair station, responsible and accountable for. 
They bear that responsibility.
    Senator McCaskill. I think that is great for the 
subcontracting specialists, but we have facilities that are 
doing all kinds of repairs that are not certified where we are 
not certain of the background checks, the access issues, and 
all of those. And those are the ones I am concerned about, Mr. 
Sabatini.
    Mr. Sabatini. Well, I can tell you that we have put in 
place a requirement that the air carrier make available to an 
FAA inspector, upon request, those entities that they are doing 
business with, so that we know who they are and can determine 
whether they are performing the work in accordance with that 
carrier's procedures. And with regard to repair stations, any 
work that they extend to others outside the repair station, 
they must demonstrate to us through the repair station that we 
have access to those uncertificated entities.
    Senator McCaskill. And I appreciate that. I think you 
realize this is a problem and I think you are trying to deal 
with it. I think that the cow got out of the barn on foreign 
repair, and I think we have got some work to do in terms of 
credibility at this point. And I appreciate whatever 
information you can get to me as quickly as possible so we can 
begin to look at whether or not there is, indeed, a problem 
here that the American flying public needs to be concerned 
about.
    Mr. Sabatini. We will do that, Senator.
    Senator McCaskill. Thank you very much.
    Senator Klobuchar. Thank you, Senator McCaskill.
    Mr. Sabatini, when I ended my last questions, we were 
talking about the cozy relationship. In my time here now--I 
have been in the Senate for a year and a half, I have noticed 
that a lot of the issues that can arise--and you cannot always 
tag it on them--are due to regulators who have other interests 
and then they go and they work at the place that they were 
supposed to regulate. We have some issues with the Surface 
Transportation Board, the number of people working at 
railroads. We saw it in the Consumer Product Safety Commission 
in terms of a different problem with industry paying for trips 
while the regulation of these industries lagged.
    I just wondered if you had statistics and data on the 
number or percentage of FDA inspectors who later take jobs with 
the airlines.
    Mr. Sabatini. FDA?
    Senator Klobuchar. FAA. I misspoke. If you have numbers or 
statistics on the number of FAA inspectors who then go on to 
work at the airlines.
    Mr. Sabatini. Not readily at hand, but I will certainly get 
that information to----
    Senator Klobuchar. If you could get those for me for, say, 
the last 10 years, that would be very helpful.
    Mr. Sabatini.--I will, assuming those records exist. I will 
do my very best.
    [The information referred to follows:]

                          U.S. Department of Transportation
                            Federal Aviation Administration
                                      Washington, DC, July 11, 2008
Hon. Amy Klobuchar,
Member,
Commerce, Science, and Transportation Committee,
U.S. Senate,
Washington, DC.

Dear Senator Klobuchar:

    At a hearing held on April 10, you asked if the Federal Aviation 
Administration (FAA) keeps records of whether aviation safety 
inspectors go to work for airlines after leaving the FAA. At the time 
of the hearing, I did not know the answer to your question.
    I want to confirm that the FAA does not have records on where 
aviation safety inspectors, or any former employees, are employed after 
they leave the FAA. For those employees who have post-employment 
restrictions, they are informed of those restrictions before they leave 
the FAA and are expected to comply.
    At this time, aviation safety inspectors do not have any post-
employment restrictions. We have initiated a rulemaking project to 
propose that inspectors be prohibited from working with the FAA on 
behalf of an airline for a period of 2 years after they leave the FAA. 
This proposal would permit inspectors to be employed by an airline, but 
would not allow them to represent the airline. to the FAA for 2 years.
            Sincerely,
                                      Nicholas A. Sabatini,
                       Associate Administrator for Aviation Safety.

    Senator Klobuchar. Mr. Chealander, you have been nicely 
quiet. I thought maybe you would like a few questions over 
there. I was thinking of what you had said when you cited some 
of these past disasters or where things went wrong where it 
showed that there was a record of a lack of inspections. Was 
that right?
    Mr. Chealander. Yes, that is correct. We have been looking 
at maintenance oversight or oversight by the FAA for 25 years 
and making recommendations there.
    Senator Klobuchar. Yes, and a lot of it is based on lack of 
inspections, that if the inspections had occurred----
    Mr. Chealander. Correct.
    Senator Klobuchar.--and as I was sitting here listening to 
all this, I was thinking of my former life when I was a 
prosecutor, the murder rate would be low and everyone would be 
celebrating this great record, but then you would always see 
signs that problems were ahead when you saw an increase in drug 
dealing or an increase in property crimes. And then, sure 
enough, you would see the murder rate creep up shortly after 
that.
    As you listened to everything that the other witnesses have 
talked about in terms of these problems and Mr. Scovel's 
recommendations, could you talk about your reaction to all of 
this and if we just rest on our laurels and say, hey, we have 
not had a crash for 2 years? Or if you see the fact that we now 
have thousands of passengers that are grounded at these 
airports, the flights were not inspected, and you have pieces 
of airplanes falling off, and near collisions on runways, if 
that leads for you to have more concerns about what could 
ensue.
    Mr. Chealander. I will give it a shot. There are a lot of 
issues involved with what you just said.
    We have a different perspective at the NTSB than the IG has 
when they do audits and investigations from their perspective. 
We are an after-the-fact agency. We come in after the disaster 
happens. We investigate the accident. We determine the 
findings, conclusions, probable cause, and then make 
recommendations.
    Over the last 25 years, as I alluded to in my oral 
testimony, we have investigated accidents and determined that 
oversight, whether it be operational or maintenance oversight, 
has been an issue. And we have cited the FAA in that regard in 
a lot of our recommendations as well.
    As a matter of fact, we did a data search for this 
testimony, and in the written testimony that we gave you, you 
will see a table [not printed] in there that discusses that for 
the last 25 years gives you some numbers of how many times that 
has appeared in either our findings and conclusions, probable 
cause, or recommendations.
    As I said in my oral remarks, we have made recommendations. 
Over the last 10 years, we have made 29 of those on maintenance 
oversight alone to the FAA. Of those 29 recommendations that we 
have made, 75 percent of those are still open, still in the 
letter-writing campaign----
    Senator Klobuchar. Could you give me some examples of some 
of the ones you think are most important?
    Mr. Chealander.--well, if you will give me a second here, I 
can----
    Senator Klobuchar. And probably the ones that are most 
pertinent to what we have been talking about today.
    Mr. Chealander.--I can cite right now for you five aircraft 
accidents that have recommendations that have come from them in 
the last 10 years of these 29 that I am talking about. And the 
most recent for sure, but one that is really a characteristic 
example of what we are talking about was the Chalk's accident 
that I alluded to in my oral remarks. That was a Grumman 
Mallard airplane down in Miami where a wing came off and 18 
passengers were killed and 2 crew members. So 20 people were 
killed in this accident when the wing came off and it fell on 
the beach. You may recall the videos of that accident.
    In that accident, we found that maintenance was sorely 
lacking at the airline in question, but moreover, maintenance 
oversight of that airline was lacking.
    Again, we look at it in a different perspective than the IG 
does. We look at it after the fact. We look at it and see that 
possibly proper oversight of the maintenance of that airline 
would have prevented this accident from happening. They would 
have found the corrosion that was in these wings and the wing 
may not have come off. So that is where we lead in our 
investigations, our recommendations.
    There are other examples.
    Senator Klobuchar. So the implication here is that you made 
that recommendation and it was not taken.
    Mr. Chealander. Well, that is still ongoing. That one is 
still open because it is a recent one, and we are still in the 
campaign of writing back and forth with the FAA to determine 
how we are going to handle this recommendation. The way we do 
that, we write them a letter and tell them these are the 
recommendations we are making based on this accident, and they 
then write us back and tell us how they are going to implement 
our recommendation. So that stays open until we get 
satisfactory conclusion to that recommendation.
    And there are several others I can talk about. But one I 
also talked about in my testimony was the Alaska accident, 
Flight 261, off the coast of California where the jackscrew in 
the back that Senator Stevens talked about was lacking of 
maintenance and oversight by the FAA that would have caught 
that. So a lot of procedures have come out subsequent to that, 
but 88 people had to die so that we could make that 
recommendation.
    So that is where we come from as an agency, the NTSB, as 
opposed to where the IG comes from. And that is why I say we 
have 29 recommendations in the last 10 years on maintenance 
oversight, and 75 percent of those are still open in one way or 
another.
    Senator Klobuchar. Why is that, Mr. Sabatini, that 75 
percent of them have not been responded to?
    Mr. Sabatini. Well, we take the recommendations very 
seriously, and we evaluate them. As Mr. Chealander has said, on 
this most recent one, the Chalk, we are in the process of 
addressing what they have recommended and what we think is a 
proper solution to that.
    Senator Klobuchar. Well, my problem with the adverb 
``seriously'' is that he said that 75 percent of them have not 
been implemented. So it does not really seem like they are 
taken seriously. If they were taken seriously, maybe 70 percent 
of them would have been implemented.
    Mr. Scovel. Senator, can I interject briefly? Seventy-five 
percent of the NTSB recommendations remain open. That does not 
mean they have not been implemented. That means they are still 
open and awaiting a satisfactory or unsatisfactory conclusion.
    Senator Klobuchar. Do you think that they need to move more 
quickly?
    Mr. Scovel. In some cases, yes.
    Senator Klobuchar. Is there a specific case that is your 
worst example?
    Mr. Scovel. We can get you that data. There are reams of 
letter-writing campaigns that have gone on. I have got, as a 
matter of fact, our recommendations expert sitting right behind 
me, and we can get that answer for you and get it pretty 
quickly, if you like.
    Senator Klobuchar. Thank you.
    Mr. Brantley, you indicated maybe in your prepared remarks 
that inspectors--spend more than 70 percent of their time at 
their desks. This, of course, means that for more than two-
thirds of their week, these FAA inspectors are not in the field 
performing actual hands-on inspection. What do you think is the 
right mix of work, and are we operating under the right mix 
today?
    Mr. Brantley. Well, I think the right mix may very well 
differ from case to case. It depends on the type of oversight 
they do and the particular job. But I think it has to be more 
than 30 percent of their time in the field.
    I think the inspectors are very experienced. They are very 
knowledgeable. And I think there needs to be a lot more trust 
in not just their instincts but their experience and allow them 
to determine how often they need to go out.
    I think systemically it needs to be a greater part of the 
agency's oversight program. They need to emphasize the hands-on 
checking.
    One of the things that I am very concerned about is I hear 
a lot that the airlines or a repair facility are responsible 
for ensuring compliance, and that is true. But in the end, they 
seem to be accountable for it, and the FAA is not. I think the 
FAA is not accountable for tracking compliance. They are 
accountable for ensuring it. And without getting out and 
looking at things, kicking tires--I do not like the phrase, but 
I will use it because it is easy and everyone understands it. 
They need to be able to get out and kick the tires.
    Senator Klobuchar. Well, also we talked earlier about this 
gaming the system, whether or not we have the facts to support 
this, but there is some thought that what sometimes goes on is 
people are told that they are going to show up and inspect and 
things like that. It would seem to me if you had a higher 
percentage, even a slightly higher percentage, out in the 
field, you could do more surprise inspections.
    Mr. Brantley. Yes, ma'am, absolutely. And I think 
unannounced inspections are one of the most important tools 
that an inspector has to ensure compliance. But even that is 
very much frowned upon because if they show up unannounced, an 
airline can--and not all do all the time, but the airline or 
repair facility can complain and say they showed up without 
notice. They are asking people questions. It is slowing us 
down. It is costing us money. And they will be told not to do 
it.
    We have an example where in Hawaii, Hawaiian Airlines had 
complained to the local FAA management, and they instructed 
their inspectors to no longer do a ramp inspection unless the 
turnaround time was at least 90 minutes or more because they 
did not want to impact their operations.
    Senator Klobuchar. Now, Mr. Sabatini, is this consistent 
with what the policy should be of the FAA inspectors?
    Mr. Sabatini. Senator, if you would just bear with me for 
just a few minutes, I would like to put this in perspective.
    Senator Klobuchar. Sure. You and I are the only things that 
come between everyone's lunch. So that is OK.
    Mr. Sabatini. I apologize for a late lunch, but I think 
this is critically important for everyone to understand.
    Senator Klobuchar. That is why I am asking the questions. I 
mean, I think earlier you talked about how it was important 
that we not have all these planned inspections the day before. 
And then Mr. Brantley just gave me some actual examples of 
where airlines have pushed back and said, ``oh, you have got to 
give us enough notice.''
    Mr. Sabatini. Well, I would suggest that if Mr. Brantley 
were to bring forward the actual evidence, the objective 
evidence concerning what he just stated, I think the facts 
would prove to be a little bit different. But let us put that 
aside.
    What I would like to share with you--I am not a theorist. I 
am an actual practitioner of this business. I started as an FAA 
inspector in Charleston, West Virginia. And back then, I was 
left to my own devices to determine--and I was a principal 
inspector--I was left to my own devices to decide how I would 
inspect that carrier. I would also say that during that time, 
there were 110 field offices, and anyone applying for an air 
carrier certificate could be certificated in 110 different 
ways, all in accordance with the rules, but the degree of the 
depth of what was required to meet the regulation had variation 
to it.
    We now have an ATOS system. Thank goodness for that. It is 
far more robust than we ever had. It has produced for us what 
we now know to be a very safe system. And I will say again I do 
not rest on that laurel.
    But what is important to know and is clearly stated in the 
guidance--and it is open to anyone who wishes to know about it 
to read it--it clearly says that an FAA inspector in the 
conduct of--let us just take what just happened: Airworthiness 
Directives. In the conduct of that oversight, that assessment 
of the performance of the carrier, that inspector can look at 
the airplane as many times as they want. There is no 
limitation. There is no requirement to be at your desk 70 
percent.
    And let me again draw a comparison. When I was an 
inspector, I went out into the field and it was random. Today 
what we are doing is collecting data so that before you go out 
to conduct an inspection, you need to be well informed. You 
need to download the information that pertains to your carrier 
so that you know exactly what it is that you will be looking 
for. And while you are out there, let us take an evening 
surveillance of maintenance. When you are conducting 
maintenance, no one says you cannot look someplace else. You 
have a duty and obligation to report everything that you see, 
and inspectors are free to do that. Again, they can touch as 
many airplanes as they like within the construct of the 
performance assessment of whatever it is that has been 
determined to be an area to be examined.
    Senator Klobuchar. Well, it is just this really concerns 
me, though, about the surprise visits. I think about like if I 
know my mother-in-law is coming over with 4 hours' notice, my 
house is cleaner than if she just shows up. So what Mr. 
Brantley has been pointing out here is that when you have 
advance notice, it is a lot different situation than if you 
just randomly show up.
    Would you be troubled if you found out that what Mr. 
Brantley was saying was true, that there was what Mr. Scovel 
called an overly collaborative relationship to the point where 
there was much advance notice of when these inspectors would 
show up?
    Mr. Sabatini. There is no requirement for advance notice.
    Senator Klobuchar. I just wondered if it would--I am not 
saying there is, but it sounds like it is possible that it has 
been going on. So does it trouble you if it has been going on? 
That is my question.
    Mr. Sabatini. Not necessarily because what that would imply 
is that people on an ongoing basis are in noncompliance and 
because the FAA inspector shows up, suddenly they are going to 
be in compliance. This is a very complex business. You cannot 
fix something in just a few hours because you heard an FAA 
inspector is coming. It is clearly obvious. We have very 
experienced safety professionals, our inspectors. They can tell 
the difference whether someone is hiding something or whether 
it is as a matter of routine and is embedded in the system. And 
our processes today clearly identify whether you are faking it 
or whether it is ongoing on a regularized basis.
    Senator Klobuchar. Mr. Scovel, do you think that is true?
    Mr. Scovel. Mr. Sabatini talked about faking it or hiding 
it. I think in one of your earlier questions, you made the 
point that this is really not the issue. It is whether the 
carrier is going to use the opportunity to voluntarily self-
disclose and perhaps avoid a penalty that FAA might levy had 
they----
    Senator Klobuchar. Because of that advance notice.
    Mr. Scovel.--perhaps. Right.
    Let me make one more point. We are talking about requests 
by carriers back to FAA for advance notice. That is certainly 
troubling, but what is even more troubling to me is what we saw 
happen in the Southwest and Northwest cases, both of which I 
referred to in my testimony. In these cases, a carrier either 
used subterfuge, made an anonymous complaint to FAA, or simply 
pulled credentials from an inspector so that he was unable to 
access maintenance facilities. In effect, carriers were 
deciding which inspector was going to get to do their 
inspections. That is very troubling.
    In his House testimony last week the whistleblowers called 
that ``cherry picking.'' I called it putting an inspector on 
the bench with FAA's complicity. That is troubling. It is a 
dismissive attitude on the part of the carriers, and, as I 
mentioned last week, it signals a regulator that no longer 
commands the respect of the regulated entity. That should be 
very troubling to all of us.
    Senator Klobuchar. Mr. Sabatini, are you troubled by that?
    Mr. Sabatini. Absolutely. I am outraged.
    Senator Klobuchar. What are you going to do about it?
    Mr. Sabatini. Well, I have taken steps already with the 
individuals concerned, and I am putting steps in place to make 
sure that does not happen again.
    Again, we are a learning organization. We are in that level 
of that chart where we keep identifying remaining risks. Those 
are risks, and we are actively and proactively addressing 
those.
    Senator Klobuchar. Mr. Barimo, as we have this hearing and 
we are all sitting here comfortably asking questions, we have 
got thousands of airline passengers that are stranded because 
routine inspections were not taking place, and instead it was 
just suddenly the flights were stopped so that things could be 
looked at. I do not think anyone questions that we should have 
safety inspections, but clearly members of this committee 
question know how this was handled.
    What is going on for these passengers right now? Are they 
going to get redemption coupons? Are they going to get expenses 
paid? What is happening?
    Mr. Barimo. I will address that as best I can, and then I 
would like to add a comment just to what we talked about 
earlier.
    Each carrier will determine what is appropriate from a 
customer service standpoint. I am not up to speed on the 
specifics of how each carrier in this particular instance is 
going to address taking care of their customers. I am certain 
that they will. Some have already announced plans on how they 
will address their customer issues.
    So just if I could take a step back, let me just point out 
that airlines do not rely on the FAA or the ATOS system to keep 
them safe. Airlines are not safe because they are trying to 
avoid a fine, and they are not cleaning house because they hear 
that tomorrow the FAA is coming over. Safety is good business 
for airlines. It is essential for airlines. It is taken very 
seriously. And we recognize that. As we talked about earlier, 
the goal is 100 percent and we will not stop until we get 
there.
    But let us keep in mind that this is a collaborative 
effort, and the last thing we want to do is rebuild the wall 
that existed a couple of decades ago between airlines and the 
regulator. What scares me is that we return to an era where we 
had accident rates that at today's volumes would generate a 
fatal accident every month. I do not want to go there. I know 
that there are changes that need to be made to the tools that 
we are using today and we will absolutely support those 
changes.
    Senator Klobuchar. Well, thank you, Mr. Barimo, for 
pointing that out.
    I will say this. I believe that things have tilted too far 
in the other direction. I believe you that there have been 
improvements made to safety. Our State of Minnesota has 
Northwest Airlines, and we are proud of the work that they do. 
And they have not grounded any flights yet as of this moment. 
That is a knock on wood for the record.
    But I will say this. Just as we saw with the tainted dog 
food or the toys from China or a bridge that falls down in the 
middle of the Mississippi River, perhaps we have gone too far 
in terms of the collaboration being on one side, and that is 
the side of industry. And I agree there should be 
collaboration. I think that is the way to go, but the whole 
system was set up so that there is backup enforcement.
    I can tell you that Target and Toy-R-Us did not want these 
toys to come over. They have a market reason to want to do 
well. But they most likely, like the rest of us, thought that 
there were going to be inspectors that were looking at things, 
just like I would assume the airline CEOs believe that there 
are going to be competent inspectors that really balance the 
system that are going to call their employees that they cannot 
watch every day just to make sure things are going well.
    And I think that is what seems to have broken down here, 
not that we want to throw out the whole system, but that we 
want to talk intelligently about what we need to do with some 
of the recommendations that Mr. Scovel has made to try to move 
in the right direction.
    And then I just have one more question related to the air 
traffic controllers and whether some of the things that we have 
been talking about today with the FAA inspectors are some of 
the same issues where they have voiced their concerns, whether 
they were whistleblower concerns or whatever, that some of 
their concerns are not moved up the chain, so to say, so that 
people at the top can find out about things, which is all we 
are talking about.
    Mr. Krakowski, do you want to comment on that?
    Mr. Krakowski. Thank you, Senator. I think this has been a 
very important couple of weeks in that effort with air traffic. 
As you may know, I come from industry as a chief safety officer 
of one of the largest airlines during a time where the airline 
had its worst time in 5 years in the company's history. Two 
airplanes lost on 9/11, bankruptcy, a lot of churn in the 
organization.
    There are some techniques there that we used that were very 
effective in actually improving our safety. One of those 
techniques, the Aviation Safety Action Program, or ASAP, for 
air traffic was signed by Acting Administrator Sturgell and Pat 
Forrey from NATCA 2 weeks ago, and we are going to begin 
rolling this program out. This is going to give us some insight 
into the human factors and the real issues, whether fatigue is 
real or not, what should we do about it, what are the human 
factors issues around incidents, operational errors, runway 
incursions.
    I believe in my heart that my former company would not have 
achieved the safety record it had without an effective program 
in this area, and it is my fervent passion to make this program 
successful.
    Senator Klobuchar. Very good.
    Anyone else like to comment on this?
    [No response.]
    Senator Klobuchar. Well, thank you very much. I will say 
that I think the general consensus up here, whether it is 
Democrats or Republicans, is that the FAA needs to do more than 
just trust these airlines, that we have to have a collaborative 
effort, but they need to be vigilant in ensuring that the 
airlines comply with the regulations and, when necessary, take 
the enforcement action. We have some good ideas on the table, 
and I think we need to go beyond the letter writing back and 
forth and get into action. Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 1:24 p.m., the hearing was adjourned.]
                            A P P E N D I X

     Prepared Statement of Karen E. Casanovas, Executive Director, 
                    Alaska Air Carriers Association
    To the Honorable Chairman Inouye and Vice Chairman Stevens and 
members of the Committee:

    My name is Karen Casanovas and I am the Executive Director for the 
Alaska Air Carriers Association. Our Association (AACA) was founded in 
1966 and represents over 160 commercial airlines and aviation 
businesses throughout Alaska and the world. Our organization's mission 
is to provide educational training, advocate for the interests of 
aviation in the public process, and act as a facilitator of aviation-
related information. Additionally, we provide resources for safety, 
security, air-space, insurance, or weather-related issues, and act as a 
conduit between government and industry leaders. It is an honor to 
comment on crucial safety issues. I'll address the challenges facing 
commercial air carriers in our state, along with the successes of 
Alaskan aviation safety.
    Since air travel is a way of life for Alaskans, we are dependent on 
aviation for activities that are normally accomplished by using the 
existing road system in the Lower 48 states. As a consequence, per 
capita there are 6 times the number of pilots, 14 times the number of 
aircraft, and 76 times as many commuter airline flights. As a pilot, 
Senator Stevens, you are aware of the wide variety of services provided 
by the aviation industry. Because commuter airlines and air taxi 
operations need to provide highly reliable service for rural area 
medevac and economic purposes (oil, fishing and tourism) in an 
environment of unpredictable weather and high terrain, they need an air 
traffic system that enables them to communicate, navigate and manage 
operational control of their aircraft.
    Alaska has been an ideal location to implement key new 
communication, navigation, and surveillance technologies that improve 
safety. These new technologies have allowed pilots to more effectively 
handle navigation, terrain, traffic and weather hazards and enabled the 
Federal Aviation Administration (FAA) to provide more efficient and 
cost effective services.
    The FAA Capstone Program was a technology-focused research and 
development (R&D) safety program in Alaska, which sought near-term 
safety and efficiency gains in aviation by accelerating implementation 
and use of modern technology. The Capstone Program linked multiple 
programs and initiatives under a common umbrella for planning, 
coordination, focus and direction. ADS-B was a major component of the 
Capstone Program and much success was achieved in the developmental 
phase of ADS-B technology. On September 9, 2005, the FAA selected ADS-B 
as the preferred alternative for meeting the future surveillance needs 
of the agency. ADS-B is a critical component for meeting the Next 
Generation Air Transportation System (NGATS) goals, now known as 
NextGen. In December 2006, the Capstone Program transitioned to the 
Surveillance and Broadcast Services (SBS) Program Office and 
assimilated into the National ADS-B Program.
    The Surveillance and Broadcast Services Capstone Statewide Plan is 
a joint industry-FAA plan with a goal of equipping Alaskan-based 
aircraft and installing ground infrastructure such that 90 percent of 
Alaskan air operations would be covered by the FAA NextGen aviation 
technologies. Doing so will expand the Capstone Program's demonstrated 
47 percent safety improvement record across Alaska. FAA estimates a 33 
percent reduction in fatal accidents statewide and $824 million in 
combined public benefits from reduced aircraft accidents, enhanced 
rural area medical evacuation, and more effective accident search and 
rescue operations (over the next 27 years).
    While the FAA will make an investment in this NextGen airspace 
system in Alaska, the funding will be limited or delayed unless Alaskan 
commercial operators and general aviation airplane owners equip 
approximately 4,000 aircraft. Currently, the increase in the FAA 
investment in Alaska is estimated to be $493 million, much of which 
will be used for ground system installations over the next 5 years in 
accordance with the Statewide Plan.
    This substantial investment by the FAA in Alaskan based aviation 
infrastructure is directly tied to equipage of Alaskan-based aircraft. 
In other words, the Federal investment of nearly one-half billion 
dollars is contingent upon aircraft equipage. While most commercial 
operators will equip their aircraft, currently, these avionics are not 
affordable for the private pilot and Alaska will not be part of any 
Federal mandate to equip. Without incentives, equipage may never happen 
or will be many years after the Lower 48 is enjoying NextGen aviation 
capabilities. Alaska desperately needs to be an accelerated part of the 
nationwide airspace modernization plan.
    Recently, Alaska's 25th State Legislature unanimously approved a 
revolving loan program to provide assistance for avionics equipage. 
This low-interest loan program, if signed by Governor Palin, will be 
administered by the Department of Commerce, Community and Economic 
Development, Division of Investments. With future additional funding 
from the private sector and/or the Federal Government, this could 
result in 90 percent of all flight operations across the entire state 
of Alaska enjoying safety and reliability capabilities proven by the 
Capstone R&D Program in southwestern and southeast Alaska.
    I launched my career in this industry 33 years ago and can 
personally verify the widely diverse types of commercial operations in 
Alaska and the need for improving aviation access and economic 
viability of our rural communities. There are many different and unique 
aviation companies conducting business under Parts 91, 121 and 135 of 
the Federal Aviation Regulations (FARs). There are single engine 
airplanes up to turbo prop equipped aircraft, wide-bodied jets, 
rotorcraft and float plane operators. The Alaska Air Carriers 
Association is committed to assisting all of them in maintaining safer 
operations; that's why our Safety Committee initiated the idea of the 
Medallion Foundation, a voluntary program based on best practices that 
has changed the culture of aviation in Alaska.
    The Medallion Five-Star Program established standards that exceed 
regulatory requirements for participating air carriers and pilots. 
Maintenance Resource Management and Safety Officer training are just a 
few of the valuable courses offered by the program managers. By 
providing system safety attributes and showing participants how to 
collect, analyze, and share data in the Air Transportation Oversight 
System (ATOS) program--trends can be spotted before accidents occur. 
Data analysis has revealed that Medallion participants have a 
significantly lower accident rate. The Medallion Foundation has 
partnered with the FAA on several initiatives that have measurably 
improved aviation safety in Alaska, which resulted in a 27-month period 
with no fatal air carrier accidents. Although fatalities for last year 
were not zero, the numbers are still considerably lower than pre-
Medallion years.
    Medallion's leadership and the FAA have worked together to develop 
a detailed roadmap, which has assisted air carriers in implementing 
system safety tools. Used by their principal inspectors to monitor 
processes, this integration has aided in assessing aviation risks, 
perform root cause analysis, and improve pilot training. By taking a 
business-like approach to Risk Management and Safety, the Medallion 
Foundation provides a framework and guidance for the development of a 
proactive corporate safety culture.
    Furthermore, Medallion performs as an objective third party for 
administering an FAA-industry program that allows aviation employees to 
report safety issues without fear of punishment. This has allowed the 
FAA and industry management to solve safety or operational issues that 
would not have come to light had the employees not made the reports.
    The Alaska Air Carriers Association encourages continued 
improvement of accident rates through programs such as the Medallion 
Foundation and the Surveillance and Broadcast Services Capstone 
Statewide Plan. We thank you, Senator Stevens, for your continued 
support of both programs, which have improved performance, safety and 
efficiency for air operations. This has allowed the delivery of goods 
and services to communities in a reliable manner through the use of 
technology in concert with a precise risk management philosophy.
    We've made great strides in Alaskan aviation safety through 
Capstone, the Medallion Foundation, the Surveillance and Evaluation 
Program, (which uses principles of system safety to identify risk-based 
inspections of airlines) and through operational control audits. In 
order to continue improving aviation safety, however, we need monies 
directed toward a Safety Equipage Incentive Program (SEIP) for the 
Capstone Statewide Plan to step up aircraft avionics equipage 
statewide. Alaska urgently needs to be an accelerated part of the 
national airspace modernization plan. A State-Federal-Private 
investment through a public-private partnership will foster economic 
development and aid in equipping as many aircraft as possible with 
navigational, communications, surveillance and weather information. 
Avionics in airplanes can save lives.
    Thank you for the opportunity to comment today and do not hesitate 
to call on the Alaska Air Carriers Association as a resource for 
aviation issues in the future.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Nicholas A. Sabatini
    Question 1. Beyond the ATOS program, what are the other keys 
aspects of the FAA's activities for ensuring system safety?
    Answer. FAA's approach to system safety is based on the statutory 
requirement of an air carrier to demonstrate that it can operate safely 
in order to hold an air operator certificate. This means that the 
systems an air carrier uses to conduct its business must be capable of 
managing the risks in the operating environment. This concept underpins 
FAA's safety regulations, which are risk controls that must be 
implemented by air carriers. FAA certification and surveillance are 
structured to determine compliance with safety regulations, thereby 
ensuring system safety. The following programs supplement certification 
and surveillance activities:

  <bullet> Aviation Safety Action Program--identifies systemic problems 
        and implements corrective actions.

  <bullet> Flight Operations Quality Assurance--provides data to 
        validate effectiveness of operational procedures and to 
        identify hazardous operational trends requiring intervention.

  <bullet> Advanced Qualification Program--enables air carriers to 
        tailor pilot training to fit unique operating environments and 
        the individual needs of pilots.

  <bullet> Voluntary Disclosure Reporting Program--identifies 
        inadvertent regulatory violations and implements comprehensive 
        corrective measures.

  <bullet> Safety Management System Pilot Project--assists air carriers 
        and repair stations in implementing voluntary safety management 
        systems.

    Question 2. What were the results of the FAA's recent performance 
audits of air carriers' compliance with Airworthiness Directives?
    Answer. The special-emphasis validation of FAA's Airworthiness 
Directives (AD) oversight, ordered on March 13, is to validate our 
system for overseeing air carrier AD management. The audit consists of 
two phases. In their aggregate, the two phases include a broad sample 
of the air carrier's program to comply with ADs. The results of the 
audit will allow us to determine whether or not each air carrier's 
program is in compliance with our rules and whether or not our system 
for determining compliance is adequate or needs adjustment. Results of 
Phase 1 validated both the airlines AD management system and FAA 
oversight of that system.
    Phase 1 of the audit required a sample of 10 ADs for each of the 
air carriers' fleets, including AD-2002-07-08 (to find cracking of the 
lower skin at the lower row of fasteners in the lap joints of the 
fuselage, and repair of any cracking found) and AD-2004-18-06 (to find 
fatigue cracking of certain upper and lower skin panels of the 
fuselage, and follow-on and corrective actions) for the Boeing 737 
aircraft, if applicable.
    Our audit revealed a 99 percent compliance rate with the ADs 
audited. We have begun investigations into those airlines where there 
was a question as to AD compliance.
    Phase 2 of the audit requires inspectors to sample additional ADs, 
to total 10 percent of the ADs applicable to the air carriers' fleets. 
Phase 2 will end June 30. As of May 28, 2008, FAA inspectors had 
reviewed operator management of 1,597 ADs, revealing a 98 percent 
compliance rate. Again, we will pursue investigations where AD 
compliance is questionable.
    A copy of Notice N 8900.36, Special Emphasis Validation of Air 
Carrier Airworthiness Directives Oversight is attached.

    Question 3. Is it accurate that compensation for supervisors and 
managers in the safety unit is based on performance measures that 
include on-time arrival and customer satisfaction?
    Answer from Mr. Krakowski. Yes, they are included in the many 
metrics that we use to assess our performance. Our mission is to 
provide the safest, most efficient aerospace system in the world. In 
line with this mission, we have established both safety and efficiency 
metrics by which we are measured and compensated.
    As a safety organization, our first priority is always safety, and 
we pride ourselves on our safety record. With more than 7,000 takeoffs 
and landings per hour, and more than 660 million passengers and 37 
billion cargo revenue ton miles of freight per year, the men and women 
of our organization safely guide roughly 50,000 aircraft through the 
National Airspace System every day.

    Question 4. If so, are these performance measures consistent with 
the agency's top priority of safety?
    Answer from Mr. Krakowski. Yes, they are consistent with our top 
priority of safety. The FAA's mission is to provide the safest and most 
efficient aerospace system in the world. The FAA's 5 year strategic 
plan (the Flight Plan) provides the foundation for achieving this 
mission based on four goal areas: Increased Safety, Greater Capacity, 
International Leadership, and Organizational Excellence. The FAA 
strives for excellence in each of its four performance measures as they 
are each a fundamental part of success.
    Safety and capacity in particular are inextricably linked, and 
critical to performance management. As passengers continue to fly in 
ever-increasing numbers, and as more planes continue to fill the skies, 
performance measures are specifically designed and implemented to 
handle that growth safely and efficiently. These measures involve 
constantly increasing the level of safety by implementing new 
technology and procedures while simultaneously working to increase 
capacity, reduce airspace congestion and meet projected demand.

    Question 5. Are on-time arrivals really an adequate basis on which 
to judge those charged with ensuring aviation safety?
    Answer from Mr. Krakowski. The metric of on-time arrivals is but 
one of many measures in our performance management system.
    Our safety professionals are charged with ensuring aviation safety 
as their highest priority. The FAA's mission is to provide the safest 
and most efficient aerospace system in the world. Through the Flight 
Plan, we focus on implementing measures that are designed to 
accommodate aviation growth both safely and efficiently. We have worked 
to increase the level of safety by:

  <bullet> Reducing commercial air carrier fatalities.

  <bullet> Reducing the number of fatal accidents in general aviation.

  <bullet> Reducing the risk of runway incursion and collision risks.

  <bullet> Ensuring the safety of commercial space launches.

  <bullet> Enhancing the safety of FAA's air traffic systems.

  <bullet> Implementing a Safety Management System (SMS) for the FAA.

    Question 6. Does the FAA respond to all whistleblower complaints 
that are filed?
    Answer. Yes, if FAA is notified of the complaint, it opens an 
investigation. Complaints may be brought to the attention of the FAA 
from the Office of the Special Counsel or by other government agencies. 
These agencies determine whether the complaint has merit and may 
conduct their own initial investigation before alerting the FAA. The 
Whistleblower Protection Program covers external complaints by 
employees of air carriers, contractors, and subcontractors. The 
Whistleblower Protection Act covers internal complaints by government 
employees, which are initially filed with the Office of Special 
Counsel.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                             Hank Krakowski
    Question 1. How does the FAA track and investigate runway 
incursions and operational errors?
    Answer. Operational errors are investigated primarily by FAA 
management at the facility-level where the operational error occurred. 
The findings and corrective actions from these investigations are 
approved by regional and headquarters FAA safety personnel. All 
operational errors result in an in depth final report that includes 
causal factors and corrective action plans. These reports are retained 
in electronic databases that may be searched for trends and 
commonalities that may be indicators of areas for system-wide 
improvement.

    Question 2. What is the FAA doing to reduce near misses?
    Answer. Investigative reports of operational errors and pilot 
deviations provide data that may be mined for trends and commonalities 
in root causes to many of the reported losses of separation within the 
National Airspace System (NAS). FAA safety personnel implement 
procedural and technical improvements to the NAS to correct identified 
recurrent causes to separation losses. Recent improvements include a 
revision to a graphical depiction of an approach procedure to a major 
airport that was the source of multiple misunderstandings by pilots, 
and a current effort to revise air traffic controller/pilot 
communication procedures for acknowledging altitude clearances.

    Question 3. How will the implementation of NextGen improve safety 
in the National Airspace System?
    Answer. NextGen provides several operational changes that will 
improve safety. Some of these directly target safety; others target 
improved situational awareness, which support safety, capacity, and 
efficiency. A prime example of the first is the traffic and flight 
information broadcast services, which are part of the Automatic 
Dependent Surveillance--Broadcast (ADS-B) program. This information 
service will provide pilots with real-time traffic display and weather 
information that will help pilots to avoid other aircraft and hazardous 
weather.
    Examples of changes that support both safety and efficiency 
include: providing digital taxi-clearance for display in the flight 
deck, which will improve the efficiency of traffic on the surface while 
reducing pilot errors and deviations; data communications between 
controllers and pilots, which will greatly reducing readback/hearback 
errors while improving the efficiency of flight management; and 
integration of weather into controller tools supporting the strategic 
reroute of traffic, improving both efficiency and safety. Across the 
board, most improvements to flight efficiency or airport access will 
provide safety benefits through increased situational awareness and 
improved flight path management.

    Question 4. Why does the current rulemaking process that will 
require the use of ADS-B technology exclude a requirement for the use 
of ADS-B ``in'' technology that would satisfy one of National 
Transportation Safety Board's top safety concerns?
    Answer. Currently, the ``ADS-B In'' requirements are only partially 
defined. The FAA is working collaboratively with industry through the 
Aviation Rulemaking Committee (ARC) to decide the appropriate way to 
move forward with mandating ``ADS-B In''. Below is an outline of the 
options that were discussed:

        1.``ADS-B Out'' compliance in 2020; ``ADS-B In'' effective in 
        20XX (to be articulated in the NPRM).

        2.``ADS-B Out'' compliance in 2020; ``ADS-B In'' voluntary 
        equipage (current FAA strategy).

        3.``ADS-B Out'' and ``ADS-B In'' effective in 2010.

    The ARC currently believes that option 3 is not possible because 
``ADS-B In'' cannot be defined at this time. Therefore, at the present 
time, option 1 seems to be the best solution for one of the draft ARC 
recommendations (final recommendations will be submitted in August 
2008). Also as a potential draft recommendation, the Committee would 
like the FAA to make a decision by 2012 as to how to proceed with 
``ADS-B In''.
    In summary, the FAA is working collaboratively with industry and 
various congressional committees to define and move forward with a 
potential ``ADS-B In'' mandate. Additionally, the FAA has already been 
investing in the development of standards to define the symbols for 
pilot's displays and is working to accelerate activities for surface 
alerting, which directly aligns with the NTSB recommendation for ``ADS-
B In''.
Notice: N 8900.36
                          U.S. Department of Transportation
                            Federal Aviation Administration
                                            National Policy
                                           Effective Date: 03/13/08
                                        Cancellation Date: 06/30/08
Subject: Special Emphasis Validation of Airworthiness Directives 
        Oversight
    1. Purpose of This Notice. This notice directs an audit of Title 14 
Code of Federal Regulations (14 CFR) Part 121 air carrier compliance 
with Airworthiness Directives (AD). The audit is necessary to validate 
our system for overseeing air carrier management of ADs.
    2. Audience. The primary audience for this notice is Flight 
Standards District Office or certificate management office principal 
maintenance inspectors (PMI) and principal avionics inspectors (PAI) 
responsible for the approval/review and surveillance of air carrier AD 
management programs. The secondary audience includes Flight Standards 
branches and divisions in the regions and in headquarters.
    3. Where You Can Find This Notice. Inspectors can access this 
notice through the Flight Standards Information Management System 
(FSIMS) at http://fsims.avs.faa.gov. Operators and the public can find 
this notice at http://fsims.faa.gov.
    4. Background. Current events involving one air carrier's 
noncompliance with ADs make it necessary to validate our system for 
overseeing air carrier management of this regulatory requirement.

        a. In December 2007, all Federal Aviation Administration (FAA) 
        Certificate Management Teams (CMTs) for 14 CFR Part 121 air 
        carriers completed their transition to the Air Transportation 
        Oversight System (ATOS)-a systems-based approach to ensuring 
        air carrier compliance with regulations. ATOS requires 
        systematic, risk-based surveillance of all of the processes 
        that an air carrier uses to comply with regulations and deliver 
        its product. ATOS structures air carrier processes into 97 
        elements. Inspectors use detailed data collection tools to 
        assess the design and performance of the processes represented 
        by each element. Inspectors use Safety Attribute Inspections 
        (SAIs) to collect data for design assessments and Element 
        Performance Inspections (EPIs) for performance assessments. The 
        SAI and EPI for element 1.3.6, Airworthiness Directive 
        Management, provide specific references to regulations and FAA 
        policy and guidance for an air carrier's management of 
        compliance with ADs.

        b. Element 1.3.6 is extremely complex. Multiple ADs affect 
        every aircraft used in air transportation. Literally inspecting 
        each of these aircraft for compliance with all ADs affecting it 
        far exceeds FAA resources. Therefore, ATOS emphasizes the 
        importance of an air carrier's responsibility to have a process 
        that effectively manages the regulatory requirement to comply 
        with ADs.

        c. ATOS requires a performance assessment of element 1.3.6 
        every 6 months. Many recently transitioned CMT have not yet 
        completed an assessment of element 1.3.6. For this reason, as 
        well as the highly publicized noncompliance of one air carrier, 
        this special emphasis audit is necessary to validate our system 
        of oversight.

    5. Action. PMIs and PAIs shall determine their assigned air 
carriers' compliance with ADs by auditing a sample of ADs applicable to 
their air carriers' fleets, in conjunction with a retargeted 
performance assessment of element 1.3.6. The audit consists of two 
phases. Phase 1 of the audit shall sample 10 ADs for each of the air 
carriers' fleets, including AD-2002-07-08 and AD-2004-18-06 for the 
Boeing 737 aircraft, if applicable. Phase 2 of the audit shall sample 
additional ADs to total 10 percent of the ADs applicable to the air 
carriers' fleets.

        a. PMIs and PAIs shall complete Phase 1 of the audit by March 
        28, 2008 and Phase 2 as soon as possible but no later than June 
        30, 2008.

        b. The audit shall:

           (1) Validate the air carrier's work instructions (e.g., task 
        cards, engineering authorizations, engineering orders, 
        engineering change orders) to accomplish the AD by verifying 
        that the instructions correctly describe the method of 
        compliance contained within the AD and any referenced service 
        information (e.g., service bulletins, service letters) or any 
        related alternative methods of compliance; and

           (2) Validate the proper performance of the AD by reviewing 
        the complete work instructions ``package'' on at least one 
        aircraft.

        c. For Phases 1 and 2, PMIs and PAIs shall audit a different 
        aircraft, to the extent practicable, for each AD. This review 
        should also ensure that entries into the AD tracking system 
        were performed correctly. Give emphasis to sampling those ADs 
        which involve required inspections of fuselage, empennage, and 
        wing areas for cracking or similar issues.

        d. To initiate Phase 1 of the audit, complete the following 
        steps:

           (1) Use ATOS automation to create a Constructed Dynamic 
        Observation Report(s) (ConDOR) for airworthiness element 1.3.6.

           (2) In the Local/Regional/National use field enter N8900.36.

           (3) In the Requested Completion Date field enter March 28, 
        2008.

           (4) Select EPI question 1.2.

           (5) Determine and document data collection requirements in 
        accordance with the instructions above.

           (6) Document the results of each AD sampled in the comment 
        field associated with the yes/no response.

        e. To initiate Phase 2 of the audit, complete the following 
        steps of the ATOS version 1.2 business process:

           (1) Step 2.4, adjust the due date of the next performance 
        assessment of element 1.3.6 to June 30, 2008.

           (2) Step 2.6, determine data collection requirements in 
        accordance with the instructions above.

           (3) Step 2.7, document data collection requirements in 
        accordance with the instructions above. Include instructions 
        for specific ADs to be sampled and deadlines to save EPI 
        activities to ``final'' in ATOS automation to comply with Phase 
        1 and 2 completion dates.

           (4) Step 5.1, use the comment field to document the results 
        of each AD sampled.

           (5) Step 7.4 or 7.5, complete the performance assessment of 
        element 1.3.6. Include ConDOR data collected in Phase 1.

        f. If the audit affirms the performance of element 1.3.6, take 
        no further action.

        g. If you cannot affirm performance, follow the ATOS business 
        process to initiate required action, including scheduling a 
        design assessment if systemic issues exists.

        h. If the audit finds evidence of noncompliance with ADs, 
        initiate immediate corrective action.

    6. Tracking.

        a. Document the results of this audit of the air carrier's 
        compliance with sampled ADs in the comment field of the EPI for 
        element 1.3.6, Airworthiness Directive Management. Enter 
        N8900.36 in the Local/Regional/National Use block of the 
        activity screen.

        b. If the air carrier did not comply with any of the sampled 
        ADs, take immediate corrective action. Use the ATOS Risk 
        Management Process (RMP), if appropriate.

    7. Disposition. This is a special emphasis audit. Therefore, Flight 
Standards will not incorporate the information in this notice into 
FSIMS. Direct questions concerning this notice to the Certification and 
Surveillance Division, AFS-900, at (703) 661-0550.
            Original signed by
                                         James J. Ballough,
                                Director, Flight Standards Service.

                                  <all>

</pre></body></html>
